         IG’s Message for the Secretary


                                                            UNITED STATES DEPARTMENT OF COMMERCE
                                                            The Inspector General
                                                            Washington, D.C. 20230




   April 30, 1999

   The Honorable William M. Daley
   Secretary of Commerce
   Washington, D.C. 20230

   Mr. Secretary:

        I am pleased to provide you with the Office of Inspector General’s semiannual report to the Congress
   for the first half of fiscal year 1999. Section 5 of the Inspector General Act requires that you transmit this
   report, with any comments you may wish to add, to the appropriate congressional committees within
   30 days of its receipt.

       I would like to take this opportunity to express my appreciation for the leadership and commitment
   you have demonstrated in working with our office to address the major challenges facing the Department.
   I am encouraged by the support and cooperation that we have received from secretarial officers. Notwith-
   standing the differences of opinion that often surface as we confront difficult issues, the bureaus have
   generally agreed with our recommendations and have either taken or promised to take corrective actions
   to address them.

       We look forward to continued cooperation between the Department and the OIG in working toward
   our common goal of improving the management and operation of Commerce programs. The benefits of
   such cooperation are exemplified by the results of the fiscal year 1998 financial statements audits. The
   improved audit opinions received by some operating units, along with a steady reduction in the number of
   material weaknesses identified, clearly indicate that Commerce is fast approaching your goal of achieving
   an unqualified opinion on its consolidated statements.

                                                       Sincerely,




                                                       Johnnie E. Frazier
                                                       Acting Inspector General

   Enclosure



March 1999                               Commerce IG Semiannual Report                                              i
                         Table of Contents

     IG’S MESSAGE FOR THE CONGRESS .......................................................................... 1
          Foreword ................................................................................................................... 1
          Major Challenges for the Department ........................................................................ 2
              Increase the accuracy and control the cost of the 2000 Decennial Census ......... 3
              Obtain an unqualified opinion on the Department’s consolidated
                  financial statements ...................................................................................... 4
              Maximize competition in the Department’s financial assistance programs........... 6
              Address Commerce’s year 2000 computer problem ........................................... 8
              Expand private sector participation in NOAA’s marine and
                  aeronautical data gathering ............................................................................ 9
              Successfully implement NWS’s Advanced Weather Interactive
                  Processing System ...................................................................................... 11
              Successfully implement a Department-wide financial management system ....... 11
              Manage PTO’s space requirements and lease costs .......................................... 13
              Evaluate NTIS’s mission and financial viability ................................................ 14
              Continue to improve the Department’s strategic planning and performance
                  measurement in accordance with GPRA .................................................... 15
          Other Issues of Concern .......................................................................................... 16
          Resolution and Follow-Up ....................................................................................... 18

     DEPARTMENT OF COMMERCE ORGANIZATION CHART ...................................... 20

     AGENCY OVERVIEWS .................................................................................................. 21
         Bureau of Export Administration ............................................................................. 21
         Economic Development Administration ................................................................... 23
         Economics and Statistics Administration ................................................................. 30
         International Trade Administration .......................................................................... 36
         Minority Business Development Agency ................................................................. 50
         National Oceanic and Atmospheric Administration .................................................. 51
         National Telecommunications and Information Administration ............................... 61
         Patent and Trademark Office .................................................................................. 64
         Technology Administration ...................................................................................... 66
         Departmental Management ...................................................................................... 74

     REPORTING REQUIREMENTS .................................................................................... 87

     STATISTICAL HIGHLIGHTS ......................................................................................... 91

     TABLES AND APPENDIXES ......................................................................................... 92

     DEFINITIONS OF TYPES OF OIG REVIEWS AND
     FINANCIAL STATEMENTS AUDIT TERMS ............................................................. 104

     GLOSSARY OF ABBREVIATIONS .............................................................................. 105

     OIG ORGANIZATION CHART AND POINTS OF CONTACT ....... (Inside Back Cover)
ii                            Commerce IG Semiannual Report                                                           March 1999
        IG’s Message for the Congress

                                         FOREWORD
       During this semiannual period, we continued to emphasize the programs and operations that
   represent significant investments of Commerce resources and offer the greatest opportunities for
   improvements. To this end, most of our work has focused on what we consider to be the top
   management challenges facing the Department and other major Commerce activities. For example,
   we completed an evaluation of the dress rehearsal performance of Data Capture System 2000, the
   system that is being developed to extract data from an estimated 1 billion pages of forms during the
   decennial census. We also evaluated the Department’s efforts to improve the accuracy of its
   reporting of Y2K compliance status. In addition, we issued 15 audit reports on the fiscal year 1998
   financial statements of Commerce operating units and the Department’s consolidated financial
   statements.

       We conducted a number of reviews of the Department’s administration of its trade-related
   responsibilities. Among these was a program evaluation of the Department’s overall export
   promotion efforts, focusing on the effectiveness of ITA, the lead Commerce agency, in managing its
   trade programs and operations, and its involvement with other departmental units and federal
   agencies in helping expand trade opportunities for U.S. businesses. We also issued reports on our
   reviews of specific US&FCS offices that focus on trade promotion, including US&FCS posts in
   the European Union, Belgium, Portugal, and South Korea; and the U.S. Export Assistance Center in
   Seattle.

       In addition, we made considerable progress in completing three major reviews, two of which
   were requested by the Congress. First, we are nearing completion of an evaluation of Commerce
   export licensing controls for dual-use commodities, part of a multi-agency OIG review requested
   by the Senate Governmental Affairs Committee. We have also made significant headway in our
   review of discretionary financial assistance programs, which was initiated at the request of the
   Chairman of the Senate Commerce, Science, and Transportation Committee. To date, we have
   issued reports on 15 programs, 13 during this period, representing 565 awards and $365 million.
   In addition, we have nearly completed our Department-wide review of the use of memorandums of
   understanding and other special agreements. We have issued eight reports to date, two of which are
   discussed in this issue; the two remaining reports are underway.

      We plan to continue providing the Department and the Congress with independent, meaningful,
   and timely analyses that lead to improvements and positive changes for Commerce.




March 1999                           Commerce IG Semiannual Report                                        1
IG’s Message for the Congress


                                     MAJOR CHALLENGES
                                    FOR THE DEPARTMENT
                           In this section, we provide our perspective on the top 10 management
                       challenges facing the Department of Commerce. We identified these
                       challenges at the joint request of the House Majority Leader and the
                       Chairman of the House Government Reform and Oversight Committee.
                       The request was directed to the OIGs of the 24 departments and agencies
                       subject to the Chief Financial Officers Act of 1990.

                           In February 1999, the Chairman further requested that each of these
                       OIGs provide the Committee with a listing of its outstanding, or “open,”
                       recommendations relating to each challenge, as well as any legislative
                       recommendations that would enable its agency to better address these
                       issues. To provide the Committee with a more complete picture of the
                       types of recommendations we have made and the Department’s efforts to
                       implement them, in April 1999 we submitted to the Committee a list of
                       285 of our recommendations that relate to these challenges.

                           We reported that for 33 percent of the recommendations, the operating
                       units had already implemented corrective actions, and that for an additional
                       52 percent, the units had agreed to take corrective actions (see chart
                       below). Collectively, we have agreement on 85 percent of our recommen-
                       dations. Of the remaining unresolved recommendations (15 percent),
                       almost all relate to NOAA’s ships, aircraft, and advanced weather system.


                                Status of OIG Recommendations
                           Related to Top 10 Management Challenges




2                       Commerce IG Semiannual Report                                 March 1999
                                                                    IG’s Message for the Congress


    Our work during this semiannual period focused on 4 of the top 10
challenges: (1) decennial census, (2) financial statements, (3) discretionary
funding programs, and (4) year 2000 (Y2K) issues.

Increase the Accuracy and Control
the Cost of the 2000 Decennial Census
     The accuracy of decennial data is critical because it is the basis for
apportioning seats in the House of Representatives and is used by state
legislatures for redistricting purposes. The data is also used to distribute
billions of dollars of federal funds to state and local governments.

     The decennial census is an enormous and complex task—certainly one
of the most difficult that the federal government has to undertake. The
Department recognizes the challenges presented by the 2000 Decennial
Census and is providing increased oversight and management support to
this important undertaking. And we are continuing to make the decennial
census one of our top priorities. We have already issued more than a
dozen reports on various aspects of the bureau’s decennial planning
efforts, and additional reviews are underway. We are also actively
monitoring the bureau’s efforts to address the recommendations from our
various audits and inspections.

     In our last issue, we reported on the results of our reviews of the
critical “dress rehearsal” operations. We identified a number of programs
and activities that were operating quite effectively, as well as a number of
problems that need to be addressed in order to ensure efficient decennial
operations. Overall, we concluded that the bureau still faces some
formidable challenges in preparing for the decennial. For example, the
bureau must (1) complete the design, development, and testing of major
automated systems, (2) finish developing an accurate master address file,
and (3) refine the decennial design by incorporating lessons learned from
the dress rehearsal.

    The Census Bureau has been working hard to address our findings and
observations related to the dress rehearsal activities. We commend the
bureau for its quick response to our concerns. In many cases, corrective
action has already been implemented.

    In this issue, we discuss the results of our evaluation of the dress
rehearsal performance of Data Capture System (DCS) 2000, which is
being developed for use in the decennial. DCS 2000 will use electronic
imaging to read the information from census forms and convert it to
electronic format for processing. Our review found that DCS 2000


March 1999                                  Commerce IG Semiannual Report                       3
IG’s Message for the Congress


                       experienced extensive problems during the dress rehearsal resulting from
                       inadequate control of requirements and insufficient system testing. How-
                       ever, we believe that the system will be able to perform as needed during
                       the decennial if the bureau continues to improve the functional capabilities
                       of DCS 2000 and better manages the development process (see page 30).

                           The Department faces additional challenges in securing congressional
                       funding for its planned methodology for conducting the 2000 decennial.
                       The bureau planned to integrate statistical methods into the decennial
                       census design to produce a single-number count, rather than two sets of
                       census totals, as was done in 1990. However, in November 1998, the
                       Administration agreed that the bureau would plan for both a sampling and
                       a non-sampling census while awaiting a Supreme Court ruling on the
                       legality of using sampling techniques as part of the decennial census
                       methodology.

                           On January 25, 1999, the Court ruled that, according to the Census
                       Act of 1986, statistical sampling techniques cannot be used for apportion-
                       ment. However, the bureau still intends to provide a statistically adjusted
                       number for non-apportionment purposes, arguing that the adjusted count is
                       more accurate.

                       Obtain an Unqualified Opinion on the
                       Department’s Consolidated Financial Statements
                           The Chief Financial Officers Act of 1990, the Government
                       Performance and Results Act of 1993, the Government Management
                       Reform Act of 1994, and the Federal Financial Management Improvement
                       Act of 1996 are designed to improve the financial management practices of
                       federal agencies. The statutes require audited financial statements that
                       present an entity’s financial position and results of operations and provide
                       other information needed for the Congress, agency executives, and the
                       public to assess management’s performance.

                            The Department received an unqualified opinion on its Consolidated
                       Balance Sheet as of September 30, 1998. However, because the
                       Department had received a disclaimer of opinion on its FY 1997 financial
                       statements, we were unable to express an opinion on the Department’s
                       Consolidating Statements of Net Cost and Changes in Net Position and
                       Combined Statements of Budgetary Resources and Financing for the year
                       ended September 30, 1998 (see page 76).




4                       Commerce IG Semiannual Report                                  March 1999
                                                                    IG’s Message for the Congress


    In addition, disclaimers on certain financial statements of NOAA and
Census, along with a disclaimer on the Franchise Fund and the inability to
audit ITA’s statements, resulted in a disclaimer on the Department’s other
financial statements. Until NOAA and Census, in particular, receive other
than disclaimers on their remaining statements, the Department will be
precluded from receiving a clean (unqualified) opinion on its consolidated
financial statements.

     It is important to recognize, however, the progress that has been made
this year in addressing many of the problems, weaknesses, and conditions
that have undermined the reliability of some bureaus’ financial manage-
ment systems and precluded unqualified audit opinions on their financial
statements. This is probably most apparent in the decrease in the number
of material weaknesses over the past two years. Material weaknesses
represent serious conditions where the design or operation of an internal
control component does not minimize the risk that errors, fraud, or
noncompliance in material amounts may occur and not be readily detected.
Two years ago, we reported 37 material weaknesses.

     Until these numbers were significantly reduced, the Department would
have a difficult—if not impossible—task of establishing sound financial
management systems and achieving unqualified audit opinions on its finan-
cial statements. The Secretary, the Deputy Secretary, and Commerce’s
Chief Financial Officer (CFO) concluded that traditional approaches were
insufficient and made some important changes.

     First and foremost, the Secretary made it clear to his senior mangers
that he expected them to get personally involved and monitor the progress
in their bureaus. Second, the Department’s CFO began to hold the
bureaus’ CFOs and other financial managers directly accountable for
aggressively confronting the large number of material weaknesses and
resolving the reportable conditions. Finally, in the past year, there have
been what we view as unprecedented levels of cooperation between the
Department, the bureaus, and the OIG and its contractors.

    We believe that these changes, coupled with the renewed management
commitments and increased cooperation, have been the catalyst for
significant progress. And while it is clear that obtaining an unqualified audit
opinion on the FY 1999 consolidated financial statements is a major
challenge, it is equally clear that the aforementioned changes in approach
and commitment are major reasons why, in less than two years,
Commerce has reduced its number of material weaknesses from 37 to 12
(see chart on following page).




March 1999                                 Commerce IG Semiannual Report                        5
IG’s Message for the Congress



                                   Material Weaknesses Highlighted in
                                      Financial Statements Audits
                             40
                             35            37
                             30
                             25
                             20                                     21
                             15
                             10                                                               12
                              5
                              0
                                                                             a                         b
                                         FY 1996                   FY 1997                  FY 1998

                         a
                             The same material weakness was identified in the FY 1997 audit of both the WCF and
                             S&E Fund. It is considered one material weakness for the Department as a whole.
                         b Includes six material weaknesses identified in the FY 1997 audit of ITA. Since an audit
                           was not performed in FY 1998, these weaknesses were carried forward.


                       Maximize Competition in the Department’s
                       Financial Assistance Programs
                            In the September 1998 semiannual report (see page 12), we discussed
                       our ongoing review of the criteria, procedures, and practices used to make
                       funding decisions for the Department’s discretionary financial assistance
                       programs. Our review is being conducted, in large part, at the request of
                       the Chairman of the Senate Commerce, Science, and Transportation
                       Committee, who made similar requests of the OIGs of the Department of
                       Transportation and the National Science Foundation. The Chairman asked
                       that we examine the criteria developed, statutorily or administratively, to
                       guide Commerce officials in making discretionary awards, as well as the
                       extent to which such criteria were appropriately applied. He expressed an
                       interest in ensuring that federal discretionary funding programs are
                       administered fairly and without consideration of political or other non-
                       merit-based criteria.

                           The use of competitive selection procedures is widely recognized as
                       the most effective method of ensuring that financial assistance awards are
                       made on the basis of merit. Although our review is still underway, our
                       observations indicate that there are opportunities to enhance competition
                       and improve the Department’s discretionary funding practices.

6                       Commerce IG Semiannual Report                                                March 1999
                                                                  IG’s Message for the Congress


    Discretionary financial assistance programs involve a significant
portion of the Department’s budget and operations. Six Commerce
agencies and the Office of the Secretary administer 72 programs that
provide a total of about $1 billion a year to state and local governments,
educational institutions, nonprofit and for-profit organizations, and
individuals. The chart below shows the amount of obligations and the
number of programs by agency for FY 1997, the period we selected for
review.


    Commerce Discretionary Funding Programs
                   FY 1997 Obligations by Agency

                   Department’s Total=$1.1 billion




     Technically, all Commerce financial assistance programs are
discretionary, rather than entitlement, programs. However, our review is
focusing on the FY 1997 award criteria, procedures, and practices of
33 programs we have classified as “full discretion.” For the purpose of our
review, we classified as full discretion programs those programs whose
authorizing legislation places no significant limitations on the Department’s
ability to independently determine the recipients or funding levels of the
awards made under the programs. These programs, which account for
over 1,700 awards and $802 million, should be using competitive selection
procedures designed to promote merit-based decisions.

     To date, we have completed audits and issued reports on 15 programs,
of which 7 were administered by NOAA, 3 by NIST, 2 by MBDA, 2 by
NTIA, and 1 by ITA. These programs represent $365 million in funding
distributed through 565 awards.



March 1999                                Commerce IG Semiannual Report                       7
IG’s Message for the Congress


                            We found that 8 of the 15 programs are administered competitively
                       utilizing evaluation criteria designed to result in merit-based funding
                       decisions. We did, however, identify opportunities for improvement in
                       specific aspects of the various awards processes. Several of the programs
                       could enhance the integrity of their procedures or bring more discipline to
                       the award process by adopting the following practices:

                       z       Expanding proposal solicitation efforts.

                       z       Including participants from outside the Department as proposal
                               reviewers to increase the objectivity of the selection process.

                       z       Adequately documenting justifications for deviations from review
                               panel recommendations.

                           The other seven programs we reviewed, all NOAA programs, did not
                       use competitive selection procedures, but instead obligated discretionary
                       funds through inadequately justified sole source awards.

                           We are recommending that NOAA ensure that financial assistance
                       awards under its programs are made through a competitive merit-based
                       process, unless otherwise mandated by law or adequately justified. We are
                       pleased to report that NOAA agrees that more awards should be granted
                       competitively for all discretionary funding programs and that a rigorous
                       solicitation process should be used. The agency is continuing to look at its
                       current processes and intends to provide more specific details as part of
                       the audit resolution process. Summaries of the 13 audit reports issued
                       during this period are presented in the agency overviews.

                           We expect to issue final reports on the remaining 18 financial
                       assistance programs during the next semiannual period. Upon completing
                       the audits, we plan to issue a capping report summarizing the results of the
                       individual audits, identifying cross-cutting issues, highlighting “best
                       practices,” and providing recommendations for improvement.

                       Address Commerce’s Year 2000
                       Computer Problem
                           The OIG has played a major role in highlighting key issues related to
                       resolving the Y2K problem. In this issue, we discuss the results of our
                       March 1999 inspection of the Department’s efforts to improve the
                       accuracy of its reporting of Y2K compliance status. Our inspection
                       examined whether the number of compliant systems reported to OMB
                       accurately reflected the status of the Department’s Y2K Program. We


8                       Commerce IG Semiannual Report                                  March 1999
                                                                  IG’s Message for the Congress


found that the number reported was misleading, critical systems were not
properly identified, and evidence was lacking to validate system compli-
ance. Because the Department’s Chief Information Officer had similar
concerns, we were able to work together to improve the Department’s
Y2K program policies to address these weaknesses (see page 78).

    The Department expected almost all of its mission critical systems to
be compliant (461 out of 473, or 97 percent) by the March 31, 1999,
deadline set by OMB. However, additional Y2K efforts will be required
beyond that date. For the remainder of this year, the Department’s major
challenge is to continue to reduce the risk of crucial services being
disrupted by Y2K failures. Management needs to ensure that risk-
reduction activities—such as independent validation of computer systems,
end-to-end business process testing, and contingency planning—receive
high-level attention. The Secretary, the Deputy Secretary, the CFO, and
the Chief Information Officer have clearly stated their commitment to
ensuring that these activities are carried out. Our office is continuing to
monitor the Department’s Y2K program. For example, we are in the
process of assessing the progress and effectiveness of selected Commerce
bureaus’ risk reduction efforts.

Expand Private Sector Participation in NOAA’s
Marine and Aeronautical Data Gathering
     Shortly after the end of the semiannual period, the OIG’s Assistant
Inspector General for Auditing testified before the House Science
Subcommittee on Energy and Environment on the OIG’s work related to
NOAA’s approach to acquiring marine and aeronautical data and related
research support. His testimony focused on three OIG reports issued since
1996: (1) an August 1998 audit report on NOAA’s light aircraft fleet, (2) a
September 1997 audit report on the NOAA Corps Transition Plan, and
(3) a March 1996 inspection report on NOAA’s then $1 billion plan to
repair, modernize, and replace its aging fleet of ships. In these reports, we
generally point out that NOAA could achieve greater economy, efficiency,
and effectiveness by increasing private sector participation in its marine
and aeronautical data gathering efforts.

Marine Data

     While NOAA has made some progress in expanding private sector
participation in acquiring hydrographic data, we remain concerned about its
plans to design, acquire, and operate four new fishery research vessels,
from FY 2000 through FY 2003, without thoroughly assessing other viable
alternatives. As we have said many times before, we believe that NOAA


March 1999                                Commerce IG Semiannual Report                       9
IG’s Message for the Congress


                       should not focus its efforts on designing, owning, maintaining, or operating
                       ships. Instead, NOAA should clearly articulate its program needs for ship
                       services to the private sector, academia, and other government ship opera-
                       tors with the goal of identifying modern, more cost-effective platforms for
                       its data collection needs.

                           We understand that NOAA has prepared a detailed data acquisition
                       plan for its fisheries mission and intends to acquire the new fishery
                       research vessels through the Naval Sea Systems Command. However, a
                       NOAA consultant reported that the bureau’s approach is far from the best
                       available. His report details many preferable alternatives, such as using
                       long-term charters of privately owned vessels or partnering with
                       universities to operate the ships. NOAA’s challenge is to thoroughly assess
                       viable alternative approaches instead of relying on its own in-house fleet.

                       Aeronautical Data

                            Since its establishment in 1983, NOAA’s Aircraft Operations Center,
                       now located at MacDill Air Force Base near Tampa, has been responsible
                       for gathering atmospheric, oceanographic, and other data for such
                       programs as hurricane and major storm research, nautical and aeronautical
                       charting, climate and global change, and snow and aerial surveys. As
                       NOAA’s major flight operations group, the center operates a fleet of
                       14 aircraft, composed of 2 heavy craft, 1 mid-size jet, 8 light fixed-wing
                       aircraft, and 3 helicopters.

                            In December 1996, the President’s Council on Integrity and Efficiency
                       reviewed the management of the federal civilian aircraft fleet, including
                       NOAA’s, and found that it cost the government in excess of $1 billion
                       annually to operate its aircraft programs. Additional studies of operational
                       efficiencies, commissioned by GSA, reported opportunities to reduce costs
                       by $92 million annually if most agencies consolidated their operations and
                       entered into sharing arrangements.

                            The OIG conducted an audit to determine whether outsourcing is
                       more cost-effective than in-house operation in meeting NOAA’s aircraft
                       requirements. Our audit concluded that the full in-house cost of operating
                       NOAA’s eight light fixed-wing aircraft and two helicopters (the third
                       helicopter was out of service at the time of our audit) averaged 42 percent
                       more than the cost to operate similar aircraft in the private sector. In
                       FY 1996, NOAA and interagency programs spent an additional
                       $1.9 million to operate its in-house aircraft compared to private sector
                       costs. We recommended that NOAA privatize its light aircraft operations.
                       NOAA’s challenge is to find and thoroughly assess the best ways to collect
                       its aeronautical data.

10                      Commerce IG Semiannual Report                                  March 1999
                                                                   IG’s Message for the Congress


Successfully Implement NWS’s Advanced
Weather Interactive Processing System
    The Advanced Weather Interactive Processing System (AWIPS), the
key integrating element of the National Weather Service’s (NWS)
modernization program and an essential ingredient to achieving operational
improvements and staff reductions, is also the last major system of the
modernization to be implemented. AWIPS is intended to provide the
capability to acquire data from advanced observing systems and to give
forecasters the tools to rapidly analyze the data, integrate it with informa-
tion provided by NWS guidance centers, and prepare timely and accurate
warnings and forecasts for dissemination to the public and the media.

     AWIPS continues to warrant OIG oversight and departmental man-
agement attention because of its history of escalating costs and schedule
delays. The program is currently operating under a congressionally
mandated cost cap of $550 million. Under the cap, AWIPS must provide
sufficient capabilities to replace the aging field office systems, most notably
the Automation of Field Operations and Services (AFOS). NOAA plans to
complete AWIPS by June 1999. Operational testing and evaluation of
AWIPS, scheduled to begin in May 1999, needs to clearly demonstrate
that the system has the capabilities to allow AFOS to be removed from the
field.

    In our last issue, we noted that software development was a month
behind schedule and needed improvements in testing were not yet
implemented. According to NOAA, all activities are now on schedule to
meet the June 1999 completion date. We will continue to monitor
AWIPS’s progress toward fully replacing AFOS, including observing a
portion of the operational testing and evaluation.

Successfully Implement a Department-Wide
Financial Management System
    We are continuing to monitor Commerce’s efforts to develop an
integrated financial management system. Commerce’s existing financial
systems are seriously outdated and fragmented; unable to provide
accurate, timely, and reliable financial information; inadequately controlled;
and costly and difficult to maintain. These systems have not proven to be
effective in preparing and reporting the financial results of the Department
and its bureaus. Commerce began developing a Department-wide financial
system in 1992.




March 1999                                 Commerce IG Semiannual Report                      11
IG’s Message for the Congress


                            Notwithstanding large investments of time, money, and effort,
                       implementation of the system, known as the Commerce Administrative
                       Management System (CAMS), proved more difficult than anticipated. The
                       difficulties occurred, in part, because the CAMS contractor did not meet
                       established milestones and experienced problems in satisfying departmental
                       requirements. These factors caused the Department to delay and revise its
                       implementation strategy several times. In developing this system, the
                       Department faced major challenges in reversing a pattern of deployment
                       delays, overcoming skepticism, and controlling costs.

                            During FY 1998, the Department redefined the composition and
                       functionality of CAMS, drastically revised the strategy for implementing it,
                       and reorganized its management structure. The Department’s revised
                       strategy focused on implementing the redefined CAMS (core CAMS) at a
                       pilot bureau (Census), a task that was completed during June 1998. An
                       independent verification and validation concluded that core CAMS, as
                       implemented at Census, met departmental requirements and was as good
                       as or better than core financial management software that has been
                       implemented at other large government agencies.

                            In September 1998, the Office of the CFO completed a business case
                       analysis to compare and evaluate strategies for implementing core CAMS.
                       The analysis recommended a modified approach, implementing core
                       CAMS at the larger bureaus, with the smaller bureaus obtaining financial
                       services using cross-servicing agreements. The Department developed a
                       new strategy that involved implementing core CAMS at NOAA, followed
                       by NIST. Also, EDA decided to implement certain aspects of core CAMS
                       for its grant activity. Remaining organizational entities, however, will obtain
                       financial systems support through cross-servicing arrangements.

                            NOAA developed a two-year plan to implement core CAMS. A
                       Department-sponsored independent assessment concluded that NOAA’s
                       plan was too costly and could be done with fewer NOAA and contractor
                       staff. The assessment also concluded that NOAA needed significant
                       additional information technology resources and suggested that NOAA
                       consider obtaining these resources from Census. In January 1999, NOAA
                       established a limit on the funds available for implementing core CAMS,
                       thereby causing the planned implementation to be extended to three years.

                           In February 1999, the Department’s CFO inquired as to whether the
                       Department of the Interior, using American Management System’s Federal
                       Financial System, could provide the same financial management services at
                       a more competitive cost and with lower management risk. The Department
                       and NOAA expect to decide whether to implement core CAMS or obtain
                       financial management services from Interior in May 1999.

12                      Commerce IG Semiannual Report                                    March 1999
                                                                  IG’s Message for the Congress


Manage PTO’s Space Requirements
and Lease Costs
     The Patent and Trademark Office’s space consolidation project
presents a special challenge for the agency as it contends with the need to
reinvent its business processes to make them more efficient and effective.
PTO’s project is expected to be one of the largest real estate ventures that
the federal government will undertake in the next decade.

    On behalf of PTO, the General Services Administration (GSA) will
award a contract to a private developer to construct a new facility or
renovate an existing facility and lease it back to PTO for at least 20 years
with the option to buy. The solicitation calls for the construction of the
building shell, to include basic electrical and mechanical systems, which
will be “built out” upon completion of the interior design. The project has
been delayed several months because one of the offerors has challenged
certain requirements in federal court. GSA and PTO are contesting the
offeror’s claims and hope to award the lease development contract in the
summer of 1999, with occupancy to begin as early as November 2001.

     Given the size and importance of the planned PTO consolidation
project, we conducted a review to determine whether (1) the project was
justified and (2) PTO was effectively managing the critical acquisition
phase of the project (see March 1998 issue, page 54). The review
concluded that the project was justified and should continue. We also
found that PTO was managing many aspects of the lease/development
procurement well.

    However, we expressed several concerns about PTO’s management
and planning for this major procurement. For example, PTO had failed to
finalize its space requirements or reach agreement with one of its major
unions concerning working conditions related to space requirements in a
timely manner. In addition, we expressed concern about the lack of a
contractual cost ceiling on the build-out. Also, in determining its space
requirements, PTO had failed to factor in potential savings and efficiencies
gained from systems reengineering and automation.

    PTO has responded favorably to all but two of our recommendations
and has incorporated them into its planning and management of this
project. PTO did not agree with establishing a contractual ceiling for the
build-out. However, this is no longer an issue as the October 9, 1998,
Solicitation for Offer placed a cap of $29 million on the above standard
build-out. The other recommendation that PTO did not agree with related
to potential savings and efficiencies gained from systems engineering and
automation.

March 1999                                Commerce IG Semiannual Report                      13
IG’s Message for the Congress


                            In September 1998, the Acting Inspector General testified before the
                       Subcommittee on Transportation and Infrastructure of the Senate
                       Committee on Environment and Public Works on our review of the space
                       consolidation project. The Acting IG noted that although some of our
                       recommendations have not yet been fully addressed by PTO, we remain
                       satisfied that this project should continue. However, we believe that
                       continuing management attention and OIG oversight will be needed to
                       ensure that the project is completed in a timely, cost-effective manner and
                       within the cost limits prescribed by the Congress.

                       Evaluate NTIS’s Mission and Financial Viability
                           The Technology Administration and the Department need to develop a
                       solution to the National Technical Information Service’s longstanding
                       financial problems. NTIS supports itself through fees charged for its
                       products and services. In our September 1998 audit of NTIS’s business
                       operations, we reported that between FYs 1995 and 1998, the agency
                       incurred a cumulative loss of $4.8 million. We concluded that if this trend
                       continued as expected, NTIS would have exhausted its retained earnings
                       by the end of FY 1999 (see September 1998 issue, page 68).

                           NTIS has attempted to curb its losses by raising prices, cutting costs,
                       and developing new products and services. However, a recent consultant
                       study commissioned by TA, at our recommendation, concluded that even
                       with significant efforts to improve its profitability, NTIS can no longer
                       generate sufficient revenue to remain self-supporting. We are also
                       concerned that in order to replace lost sales, NTIS is seeking business
                       opportunities on the perimeter of its statutory mission, where it risks
                       competing against private businesses.

                            To address NTIS’s immediate fiscal problem, TA has requested a
                       $2 million appropriation for FY 2000. At best, this is a temporary fix.
                       NTIS’s financial problems are just a symptom of a much larger problem—
                       a steady decline in demand for its products and services caused by
                       fundamental changes in the marketplace. Sales of publications from its
                       clearinghouse declined from almost 2.3 million units in FY 1993 to
                       1.3 million in FY 1998. Moreover, federal agencies are increasingly
                       bypassing NTIS as a distribution channel, instead offering their
                       publications directly to the public over the Internet.

                            NTIS’s disappointing operating results raise questions not only about
                       its ability to be self-sustaining, but also about the need for a single
                       clearinghouse for technical publications. TA and the Department need to
                       determine whether the functions performed by NTIS are still needed and,
                       if so, whether they should be left at NTIS or transferred to another

14                      Commerce IG Semiannual Report                                  March 1999
                                                                IG’s Message for the Congress


agency. The National Archives and Records Service and the Library of
Congress both have archiving functions.

    To address all relevant concerns regarding the short- and long-term
operations of NTIS, the Department and TA have formed a working group
made up of senior managers from both departmental and bureau offices to
consider options for taking corrective actions.

Continue to Improve the Department’s Strategic
Planning and Performance Measurement in
Accordance with GPRA
    Like other federal agencies, the Commerce Department faces many
inherent challenges in determining how to best plan and measure its
performance in accordance with the Government Performance and Results
Act of 1993 (GPRA). Commerce submitted its first annual performance
plan in support of its five-year strategic plan to OMB and the Congress in
February 1998. The FY 1999 plan, organized according to three strategic
themes, was criticized for providing an incomplete picture of intended
performance across the Department and not adequately discussing the
Department’s strategy for ensuring that the data to be used in measuring
performance would be accurate, complete, and reliable. GAO and the OIG
also reviewed the plan and had similar concerns.

     The Department submitted its second annual performance plan, for
FY 2000, to OMB and the Congress in February 1999. The plan
represents a significant improvement over the 1999 plan and addresses
many of the earlier concerns raised. The 2000 plan, for example, is more
useful to decision-makers as it presents intended performance by
departmental bureaus as opposed to the broader strategic themes used
initially. The improved plan also contains substantially fewer process and
output-oriented, and more outcome-oriented measures, as intended by
GPRA. In addition, the plan includes an improved discussion of how the
Department intends to validate and verify the accuracy, completeness, and
reliability of the data to be used in assessing performance. Moreover, the
Department is preparing an addendum to its 1999 plan that will identify a
revised listing of performance measures consistent with those in the
FY 2000 plan.

    Although, by all accounts, significant progress has been made, the
Department must continue to strengthen its strategic planning and
performance measurement efforts. For example, the Department must
continue to refine its performance measures to ensure that they emphasize
achievement of program results and provide assurance that the data to be

March 1999                               Commerce IG Semiannual Report                     15
IG’s Message for the Congress


                       used to measure performance will be accurate, complete, and reliable. By
                       March 31, 2000, the Department will need to detail its FY 1999 actual
                       results versus planned performance with the submission of its initial
                       Annual Program Performance Report.

                            We have regularly provided advice and consultation to the Department
                       on implementing GPRA. During the FY 1997 and FY 1998 audit cycles,
                       for example, we reviewed the overviews to the financial statements for the
                       Department and individual bureaus, providing comments to management.
                       The overviews provide the linkage between GPRA and the financial
                       statements. As a result of these reviews, we emphasized the need to
                       improve performance measurement and reporting, and provided
                       suggestions for improvement. The Department’s FY 2000 performance
                       plan incorporated many of our suggestions. In response to our concerns
                       about its FY 1997 and 1998 consolidated financial statements, the
                       Department revised its overview and statement of net cost to improve the
                       linkage between strategic planning and financial reporting.

                          We will continue to look at the Department’s efforts to implement
                       GPRA, provide advisory comments regarding GPRA documents, and,
                       where resources permit, perform targeted reviews.



                                      OTHER ISSUES OF CONCERN
                           The following sections highlight other important issues of concern for
                       the Department and discuss our ongoing work related to these issues.

                       Export Controls for Dual-Use Commodities
                           The United States controls the export of certain goods and technol-
                       ogies for national security and foreign policy purposes (including
                       nonproliferation). Within Commerce, BXA issues licenses authorizing the
                       export of certain dual-use commodities—goods and technologies that have
                       both civilian and military uses. Dual-use controls are a subject of
                       continuing controversy, generating a wide range of opinions on how well
                       the government’s export control policies and practices balance the need to
                       protect national security and foreign policy interests with the desire not to
                       unduly hamper U.S. trade opportunities and competitiveness. Striking this
                       balance can pose a significant challenge for the parties involved.

                           Last fall the Senate Committee on Governmental Affairs asked us,
                       along with the OIGs of the Departments of Defense, Energy, State, and
                       the Treasury and the Central Intelligence Agency, to conduct an inter-

16                      Commerce IG Semiannual Report                                   March 1999
                                                                   IG’s Message for the Congress


agency review of the export licensing process for dual-use commodities
and munitions. As part of this review, we followed up on findings and
recommendations from a similar interagency review completed five years
ago (see September 1993 issue, page 15). We also focused on the
effectiveness of the Department’s current policies, procedures, and
practices in its licensing of dual-use goods and technologies.

     Our reports on the export licensing process are expected to be
completed in June 1999. Each OIG will issue a report on its agency’s role
in the licensing process. There will also be a cross-cutting report that will
consolidate the findings and recommendations of the six OIGs’ work on
governmentwide management of the export licensing processes.

Interagency and Other Special Agreements
     The Department relies heavily on interagency and other special agree-
ments to perform its mission. For example, in FY 1997, Commerce had
more than 4,700 agreements, involving over $1 billion in funds received
for reimbursable activities or obligated to acquire goods or services from
other parties. These agreements can be between Commerce units or
between a Commerce unit and another federal agency, a state or local
government agency, a university or other educational institution, a not-for-
profit organization, or a private party. While agreements involve a signifi-
cant amount of federal resources, they are not subject to the same controls
as traditional procurement contracts, grants, or cooperative agreements.

    The OIG conducted a Department-wide review of agreements and
identified several cross-cutting issues during our eight completed and two
ongoing reviews of Commerce units’ agreements. We also drew upon
work performed under other OIG reviews of agreements conducted during
recent years. In addition to identifying common problems that Commerce
bureaus have experienced in preparing and administering agreements, we
highlight several “best practices” for bureaus and line offices to consider
adopting. Most agreements reviewed appeared to serve important and
appropriate functions, given Commerce’s varied missions. However, we
noted the following problems:

z       Some bureaus have improperly entered into informal arrangements
        without the benefit of a written agreement.

z       The required legal reviews were often not requested or performed.

z       Agreements have been used when traditional procurement
        contracts would have been more appropriate.


March 1999                                 Commerce IG Semiannual Report                      17
IG’s Message for the Congress


                       z       Agreements have been used when financial assistance awards
                               (e.g., grants) would have been preferable.

                       z       Bureaus generally do not adequately track and control agreements.

                       z       Bureaus need to improve their systems and procedures to better
                               ensure full cost recovery under reimbursable agreements.

                       OIG Oversight of New FOIA Search
                       Ordered by District Court
                            In December 1998, the U.S. District Court for the District of
                       Columbia ordered the Department to conduct a new search for documents
                       responsive to various Freedom of Information Act requests at issue in a
                       pending lawsuit filed against Commerce by a private organization. Pursu-
                       ant to the court’s order, the OIG is conducting a quality control review of
                       the Department’s search, including a review of employee declarations
                       describing search efforts and spot checks of offices searched. At the
                       conclusion of the process, we will provide a written report to the court on
                       the results of our review.


                                    RESOLUTION AND FOLLOW-UP
                           The Inspector General Act Amendments of 1988 require this report to
                       present those audits issued before the beginning of the reporting period
                       (October 1, 1998) for which no management decision had been made by
                       the end of the period (March 31, 1999). The following table presents the
                       overall status.


                           Type of Audit Report                                  Unresolved

                           Performance                                                  2

                           Financial Assistance                                         2

                           Financial Statements                                         0

                           Preaward Contract                                            0

                           Postaward Contract                                           0




18                      Commerce IG Semiannual Report                                 March 1999
                                                                  IG’s Message for the Congress


    The two unresolved NOAA performance audits relate to the National
Marine Fisheries Service’s laboratory structure and NOAA’s light aircraft
operations. The first report has remained unresolved for more than one
year, and the second for over six months. Negotiations are ongoing
between the OIG and NOAA concerning alternative approaches to
resolution (see page 60).

    One of the financial assistance reports is a NOAA audit that has been
unresolved for over three years. NOAA and the OIG are discussing
whether the recipient’s independent public accountants should be
requested to perform additional cost verification. The other unresolved
financial assistance audit relates to an NTIA grant award. The OIG is
reviewing the audit resolution proposal recently received from the bureau
(see pages 60 and 63).

    Department Administrative Order 213-5, “Audit Resolution and
Follow-up,” provides procedures for management to request a
modification to an approved audit action plan, or for a financial assistance
recipient to appeal an audit resolution determination. The following table
summarizes modification and appeal activity during the reporting period.


  Report Category                           Modifications       Appeals

  Actions pending (October 1, 1998)                0                8

  Submissions                                      3                3

  Decisions                                        3                3

  Actions pending (March 31, 1999)                 0                8



    The eight appeals pending final decision by the Department include
three EDA and five NIST financial assistance audits.




March 1999                                Commerce IG Semiannual Report                      19
                                           Department of Commerce
                                           Organization Chart

                                                    Office of the
                                                     Secretary



       Bureau of                     Economic                         International                         Patent and
        Export                      Development                           Trade                             Trademark
     Administration                Administration                    Administration                           Office




                       Economics and
                                                                                            Technology
                         Statistics
                                                                                           Administration
                       Administration




                                        Bureau of                          National Institute               National
           Bureau of                                                        of Standards                   Technical
                                        Economic
          the Census                                                       and Technology             Information Service
                                        Analysis




                                                                                              National
                   Minority Business                    National Oceanic
                                                                                        Telecommunications
                     Development                        and Atmospheric
                                                                                          and Information
                       Agency                            Administration
                                                                                           Administration



                                             National                      National
                                         Marine Fisheries                  Ocean
                                             Service                       Service




                                             National                   NOAA
                                             Weather                     Corps
                                             Service                   Operations




                                                                         Oceanic
                                             NESDIS                  and Atmospheric
                                                                        Research




20                                             Commerce IG Semiannual Report                                     March 1999
                                         Bureau of
                              Export Administration

Audit of FY 1998 Financial Statements                                           The Bureau of Export
                                                                                Administration is primarily
    In accordance with the Chief Financial Officers Act of 1990, as             responsible for the administration
amended by the Government Management Reform Act of 1994, the OIG                and enforcement of the nation’s
contracted with an independent public accounting (IPA) firm for an audit        system for controlling exports of
of BXA’s financial statements. We defined the audit scope, selected the         sensitive dual-use goods and
contractor, and oversaw the performance and delivery of the audit.              technologies. Under the Export
                                                                                Administration Act and regulations,
     The IPA firm issued an unqualified opinion on BXA’s financial              BXA’s major functions include
                                                                                formulating and implementing
statements. This was an especially noteworthy achievement in light of the
                                                                                export control policy; processing
significant changes mandated by OMB Bulletin No. 97-01, which required          export license applications;
the preparation of four new financial statements starting in FY 1998. The       conducting various policy,
audit results indicate that BXA’s internal control over financial reporting     technical, and economic analyses;
facilitates the preparation of reliable accounting and financial information.   promulgating regulations;
Although the firm’s report identified no material weaknesses, a first for       conducting industry outreach; and
BXA, it did identify two reportable conditions in BXA’s internal control        enforcing the act and regulations.
structure: (1) accounts payable fiscal year-end cut-off procedures are not      Export Administration
complete and (2) accounts receivable balances are unsupported.                  implements U.S. export control and
                                                                                nonproliferation laws and policies
                                                                                through export licensing,
     The report also identified one instance of material non-compliance
                                                                                commodity classifications, and
with laws and regulations related to the Federal Financial Management           advisory opinions; technical,
Improvement Act of 1996 (FFMIA), which requires auditors to report on           economic, foreign availability, and
whether an entity’s financial management systems substantially comply           policy analyses; promulgation of
with federal financial management system requirements, applicable federal       regulations; and industry outreach.
accounting standards, and the U.S. Government Standard General Ledger.          It also conducts various defense
Under a reimbursable agreement, BXA receives financial and accounting           industry base activities.
support from NOAA, which uses financial management systems that do              Export Enforcement participates
not substantially comply with federal financial management system               in reviews of export license
requirements. This will continue to be an issue until NOAA’s accounting         applications and conducts criminal
                                                                                and administrative investigations of
system is replaced or BXA obtains finance and accounting support from
                                                                                the export control portions of the
another organization that has a compliant system.                               Export Administration Act and
                                                                                regulations. It also administers and
     We reviewed a draft of the overview to BXA’s financial statements.         enforces the antiboycott provisions
The overview provides the linkage between the financial statements and          of the act and regulations.
GPRA, which requires government entities to collect and report informa-
tion on their performance in meeting their goals and objectives. We found
that BXA had incorporated many of our prior year suggestions for
improving the clarity and conciseness of the overview. We provided BXA
management with a memo containing our observations and recommenda-
tions on the draft. Management was responsive and also indicated that it
plans to make additional revisions to strengthen the overviews for FY 1999
and beyond. We encourage BXA to strengthen next year’s discussion of
actual results and to continue efforts to improve performance measure-
ment and reporting. (Financial Statements Audits Division: FSC-10864-
9-0001)

March 1999                                Commerce IG Semiannual Report                                           21
Bureau of Export Administration


                                         Legislative and Funding Uncertainties Delay
                 Bureau of
                  Export
                                         Implementation of Chemical Weapons Treaty
               Administration
                                              The OIG conducted a survey of BXA’s export control operations
                                         related to dual-use chemicals (those that have both military and
        Export               Export      commercial uses) as a follow-up to an earlier review that concentrated on
     Administration        Enforcement   the bureau’s export controls over biological agents (see September 1995
                                         issue, page 23). The purpose of our survey was to conduct an initial
                                         analysis of BXA programs and policies related to dual-use chemicals and
                                         determine whether an audit should be conducted of the bureau’s
                                         operations in this area.

                                             Our survey focused primarily on BXA’s export control process and
                                         efforts to implement the Chemical Weapons Convention, a 1994 treaty
                                         signed by 169 countries as of October 1998, which is intended to eliminate
                                         the production, spread, and use of such weapons. We examined the
                                         bureau’s procedures and its data on licenses approved and rejected during
                                         1996-98; its resource planning and industry counseling in anticipation of
                                         legislation to implement the treaty; and its enforcement activities related to
                                         dual-use chemical exports.

                                              At the time of our survey, BXA lacked the authority to implement the
                                         Chemical Weapons Convention without implementing legislation, which
                                         was pending. Therefore, it could not begin its mandated work under the
                                         treaty. We also found that the bureau’s responsibilities and workload would
                                         be increased significantly by the treaty and that its resource level was
                                         insufficient to carry out its draft enforcement plan. Although the Congress
                                         has stated its intention to review BXA’s resource level once the legislation
                                         is passed, we believe that the bureau should develop a contingency plan in
                                         case its full funding request is not granted. Such action would increase
                                         BXA’s ability to comply with the treaty’s main provisions under a
                                         restricted funding scenario.

                                             We presented the results of our survey in an October 1998
                                         memorandum to the Under Secretary. In view of the uncertainty
                                         surrounding the Chemical Weapons Convention legislation and BXA
                                         funding and staffing levels, we deferred our audit until the legislation has
                                         been passed and activities to implement the treaty have progressed.

                                             On October 19, 1998, after our memorandum was issued, the
                                         Congress passed the implementation legislation in H.R. 4328, “Making
                                         Omnibus Consolidated and Emergency Appropriations for Fiscal Year
                                         1999 (page 886).” BXA now has the authority to implement the treaty.
                                         (Science and Technology Audits Division)


22                                        Commerce IG Semiannual Report                                    March 1999
                          Economic Development
                                 Administration

Audit of FY 1998 Financial Statements                                            The Economic Development
                                                                                 Administration was established
     A contractor IPA firm issued an unqualified opinion on EDA’s                under the Public Works and
FY 1998 financial statements. This represents a marked improvement for           Economic Development Act of
EDA, which had received a qualified opinion on its balance sheet and a           1965, as amended, including the
disclaimer of opinion on its statement of operations and changes in net          comprehensive amendments by
position for FY 1997. The audit results indicate that EDA has now                the Economic Development
established an internal control structure that facilitates the preparation of    Administration Reform Act of 1998,
                                                                                 to generate new jobs, help protect
reliable accounting and financial information.
                                                                                 existing jobs, and stimulate
                                                                                 commercial and industrial growth
    However, the IPA firm did identify four reportable conditions in EDA’s       in economically distressed areas
internal control over financial reporting, one of which constitutes a material   of the United States. EDA does
weakness. Specifically, EDA (1) does not collect data from grantees to           this by providing grants to public
estimate its accrued grant expense, (2) lacks adequate controls over its         and private nonprofit organizations
financial accounting, reconciliation, and reporting process, (3) continues to    in communities with problems that
have annual leave discrepancies, and (4) has control weaknesses in its           are stifling economic growth;
financial management systems. Although EDA has made progress in                  planning grants to states, cities,
financial management, the bureau must continue efforts to resolve these          districts, and Indian reservations;
                                                                                 special economic adjustment
reportable conditions, particularly its methodology for determining accrued
                                                                                 assistance to states and local
grant expense.
                                                                                 governments with recent, severe
                                                                                 problems or long-term economic
    The firm also identified two instances of material non-compliance with       deterioration; technical assistance
laws and regulations: (1) the financial management system used for EDA’s         to communities to build
grant accounting does not comply with the U.S. Government Standard               organizational capacity and solve
General Ledger at the transaction level, and (2) the financial management        specific economic development
system used for salaries and expenses does not comply with certain system        problems; and research and
requirements of FFMIA.                                                           evaluation grants to increase
                                                                                 knowledge about effective
                                                                                 economic development tools.
    In reviewing a draft of the overview to EDA’s financial statements, we
found that EDA had incorporated many of our prior year suggestions for
improving the clarity and conciseness of the overview. We provided EDA
management with a memo containing our observations and recommenda-
tions on the draft. Management was responsive and also indicated that it
plans to make additional revisions to strengthen the overviews for FY 1999
and beyond. We encourage EDA to strengthen next year’s discussion of
actual results and to continue efforts to improve performance measure-
ment and reporting. (Financial Statements Audits Division: FSD-10997-
9-0001)




March 1999                                 Commerce IG Semiannual Report                                          23
Economic Development Administration


                                               Defense Adjustment Assistance
               Economic
             Development
                                               Program Found to Be Well Focused
             Administration
                                                   During the 10-year period ended in 1997, the Department of Defense
                                               eliminated an estimated 550,000 military and 230,000 civilian jobs. In
      Program                  Finance and     addition, reductions in defense acquisition programs and military
     Operations               Administration   construction caused private industry job losses of at least 1 million. In
                                               1990 the Congress passed Public Law 101-510, the National Defense
                  Cong. Liaison,               Authorization Act, to assist communities that were substantially and
                    Program                    seriously affected by defense cutbacks by lessening their dependence on
                  Research and
                                               defense spending, thereby providing for their transition to non-defense-
                   Evaluation
                                               dependent businesses, employment, and revenue.

                                                   From 1991 through 1997, EDA awarded 300 defense adjustment
                                               assistance grants under Title IX of the Public Works and Economic
                                               Development Act of 1965, providing program funds in excess of
                                               $500 million, some of which came from transfers of funds from the
                                               Defense Department.

                                                   The OIG conducted an audit to determine whether the projects
                                               awarded by EDA with defense adjustment assistance funds complied with
                                               the purpose of Public Law 101-510 and met Title IX program objectives.
                                               We reviewed the project files for 196 (about 65 percent) of the awards,
                                               representing $435 million (about 87 percent) of the funding.

                                                   We concluded that nearly all the grants met EDA Title IX and Defense
                                               Department objectives to mitigate economic losses and create jobs,
                                               thereby fulfilling the requirements of Public Law 101-510. Moreover,
                                               EDA’s program was well focused on the economic losses caused by
                                               cutbacks, and the approved projects were generally consistent with the
                                               transition to non-defense economies.

                                                   We did, however, identify four grants (about 2 percent of the total
                                               reviewed) that did not demonstrate defense-related economic dislocations
                                               or did not significantly relate to creating jobs that were lost as a result of
                                               defense cutbacks. Because these projects were minor exceptions to EDA’s
                                               strong performance under the program, we made no recommendations.
                                               (Denver Regional Office of Audits: DEN-9806-9-0001)




24                                              Commerce IG Semiannual Report                                    March 1999
                                                    Economic Development Administration


Recipient Violated Grant Terms and Conditions
    To alleviate the economic disruptions caused by defense program
reductions at a private sector engineering laboratory, in 1994 EDA
awarded a $6 million defense adjustment assistance grant to a county, city,
and nonprofit corporation in Idaho. The corporation supports, develops,
and promotes entrepreneurial talent and start-up businesses, and
encourages the participation of financial, business, educational, and
governmental organizations.

     The grant was divided into three components: (1) $4.55 million to
construct a 35,000-square-foot technology incubator building to house
high-technology start-up companies, (2) $1 million to capitalize a business
revolving loan fund (RLF) targeting new and emerging high-technology
business development and businesses started by dislocated workers, and
(3) $450,000 for technical assistance to manage the incubator and the RLF
and assist high-technology start-up companies. The county was responsible
for constructing the technology building; the city assisted in the con-
struction and provided some matching funds; and the corporation was
responsible for managing the building and implementing the RLF and the
technical assistance component.

     The OIG conducted an audit of the grantees’ activities in completing
the defense adjustment assistance project. We did not identify any cost or
performance issues related to the county’s and the city’s construction of
the incubator. However, we identified several areas of concern related to
the corporation’s management of the RLF and its technical assistance
program. Specifically, the corporation deviated from grant objectives by
leasing space to some companies and providing loans to some borrowers
not targeted by the grant; violated grant requirements by obtaining more
than $25,000 in federal reimbursement than allowed; deposited $61,000 of
program income from leasing building space into its general operating fund;
and did not contribute or could not document nearly $50,000 in required
matching funds.

     We recommended that EDA require the corporation to restrict leases
and RLF loans to workers dislocated from the laboratory or companies
that focus on transferring technology from the laboratory; disallow
questioned costs of about $20,000 and recover $25,000 in excess grant
disbursements; require the corporation to classify $61,000 in rental
revenues as program income; and document or provide the $50,000 in
matching funds.




March 1999                               Commerce IG Semiannual Report               25
Economic Development Administration


                          The corporation generally agreed that it had leased space and provided
                      loans to borrowers who were not targeted by the grant program, and that
                      excess loan funds had been retained. However, it did not agree with our
                      findings and recommendations regarding its use of program income as
                      general revenue and its failure to provide all required matching funds.
                      (Seattle Regional Office of Audits: STL-10482-9-0001)

                      Flood Act Grantee Did Not Disclose
                      Application for Other Federal Funds
                          The Emergency Supplemental Appropriations for Relief from the
                      Major Widespread Flooding in the Midwest Act of 1993 (Public Law 103-
                      75) provided EDA with $200 million to award disaster assistance grants to
                      assist in the economic recovery of communities, industries, and firms
                      harmed by the 1993 floods. In September 1994, EDA awarded an
                      Emergency Flood Act grant to a city in Kansas under Title I of the Public
                      Works and Economic Development Act of 1965, as amended. The
                      purpose of the grant was to construct a new water treatment plant to
                      replace capacity lost at the existing plant as a result of the flooding. The
                      total approved cost of the project was $28.5 million, consisting of
                      $7.5 million from EDA and a $21 million matching share from the city.

                          At the time the award was made, EDA was unaware that the city had
                      also applied to the Federal Emergency Management Agency (FEMA) for
                      funds to repair or replace its water treatment plant. It was understood by
                      EDA that its grant would pay for the entire cost of constructing the facility.

                          In February 1998, FEMA awarded $10.1 million to the city to finance
                      a $17.7 million project, consisting of about $4.7 million to demolish the
                      existing plant and $13 million to construct a new one. FEMA estimated the
                      cost of the entire water system project to be about $45 million.

                           An OIG audit determined that the city had violated the terms and
                      conditions of the EDA award by not disclosing in its grant application that
                      it had earlier applied for FEMA funding to repair or replace the water
                      treatment plant. We found that the overlapping scopes of the EDA and
                      FEMA projects could lead to duplicative claims and reimbursements. In
                      addition, the city improperly claimed reimbursement for nearly $125,000
                      in costs incurred prior to the grant period for work that was planned before
                      the floods, resulting in over $32,000 in excess disbursements from EDA.

                          We recommended that EDA require the city to explain its non-
                      disclosure of the FEMA grant application, determine if any administrative
                      action is required as a result of this non-disclosure, and require the city to


26                     Commerce IG Semiannual Report                                     March 1999
                                                     Economic Development Administration


prepare a revised project budget clearly delineating the scopes of the EDA
and FEMA projects. We also recommended that EDA seek recovery of
over $32,000 in excess disbursements. (Denver Regional Office of Audits:
DEN-9652-9-0001)

Florida Grantee Made Improper Drawdowns
and Financed Ineligible Loan Activities
    In June 1993, EDA awarded a $2 million Long-Term Economic
Deterioration implementation grant to a Florida city to capitalize a
revolving loan fund to help the city’s economic recovery after Hurricane
Andrew’s severe devastation in August 1992. In July 1998, EDA
deobligated $268,000 of the award funds, reducing the grant amount to
about $1.7 million. The grant, which required no matching share, was
funded under Title IX of the Public Works and Economic Development
Act of 1965, as amended.

    The grant required the city to use the RLF to create and retain jobs,
develop innovative financing for higher credit risk businesses, and attract
new businesses. As of February 1998, the RLF had a capital balance of
over $2 million, consisting of outstanding loans of about $1.3 million and a
cash reserve of $700,000.

    The OIG conducted an audit of the award to determine the RLF’s
financial status and the city’s compliance with federal rules and regulations
and EDA grant terms and conditions. We found that the city had
improperly retained $490,000 in premature grant drawdowns for almost
one year, and that two borrowers had used $214,000 in loan proceeds to
finance ineligible loan activities. Also, because the city did not follow all
applicable grant administration requirements, it incurred $90,000 in
questionable grant administration costs, submitted inaccurate financial
reports, and failed to provide required RLF plan certifications or to record
nearly $8,000 in RLF income. We believe a frequent turnover of RLF
administrators contributed significantly to these problems.

    We recommended that EDA require the city to (1) remit to EDA
$26,000 in accrued interest on the premature drawdowns, (2) reimburse
the RLF $90,000 for the questioned administrative costs and $214,000 for
the outstanding balances of the ineligible loans, and (3) ensure the
accuracy of its financial and performance reports and the adequacy of its
accounting records, submit all RLF plan certifications and modifications as
required, and inform EDA of any significant changes in administrative
personnel. (Atlanta Regional Office of Audits: ATL-10730-9-0001)



March 1999                                Commerce IG Semiannual Report               27
Economic Development Administration


                      Grantee Disregarded Procurement
                      Standards in Contract Award
                          In September 1996, a Texas nonprofit organization received a
                      technical assistance grant under EDA’s Defense Conversion Assistance
                      program to enable it to assist companies located in Arkansas, Louisiana,
                      New Mexico, Oklahoma, and Texas to move from dependence on
                      defense-related activities to reliance on commercial markets. The total
                      approved project cost was $450,000, consisting of a 75-percent federal
                      share and a 25-percent local match. Based on claimed project costs of
                      more than $500,000, EDA disbursed the full federal share of $337,500 to
                      the grantee. Most of the project work was performed through a contract
                      with a for-profit consulting firm.

                          The OIG conducted an audit to determine whether the costs claimed
                      by the grantee were allowable, reasonable, and allocable and whether the
                      parties complied with the grant terms and conditions. Following is a
                      summary of our audit results:

                      z       We found that the grantee disregarded procurement standards in
                              awarding a $244,250 contract to the consulting firm. Specifically,
                              the grantee’s procurement files did not show that it had obtained
                              competitive bids for the contract or justified the sole-source
                              award. We recommended that EDA require any future awards to
                              the grantee to contain special conditions to ensure that applicable
                              procurement requirements are followed.

                      z       Of the $513,646 in total costs claimed by the grantee, we
                              questioned $258,838, primarily related to contractor costs for
                              salaries ($149,710) and in-kind contributions ($72,500). We
                              recommended that EDA disallow the questioned costs and seek
                              recovery of $146,394 in excess federal disbursements.

                           The grantee maintained that the questioned salary costs were
                      supported by reconstructed time distribution records submitted in response
                      to our draft report, but we found the records to be insufficient to support
                      the costs claimed. The grantee also asserted that the procurement require-
                      ments were not applicable because the consulting firm was a subrecipient
                      rather than a contractor. This assertion, however, is contradicted by the
                      terms of the agreement between the two parties, which clearly identified
                      the firm as a contractor. In addition, the consulting firm, as a for-profit
                      company, cannot legally be a recipient of EDA Title IX funds. (Denver
                      Regional Office of Audits: DEN-10586-9-0001)



28                     Commerce IG Semiannual Report                                  March 1999
                                                     Economic Development Administration


Legislation Requires Funds Disbursement
Despite City’s Violations of Grant Terms
    In September 1994, EDA awarded a $912,000 Title IX disaster
assistance grant to a city in Kansas to help mitigate the effects of the
Midwest floods of 1993. The grant funds were to be used to make street
and water system improvements and to support a new technology center
being built at a local university. The grant required the city to provide a
$2.7 million matching share from the state transportation department and
general obligation bonds, bringing the total estimated project cost to about
$3.6 million.

     An OIG audit disclosed that the city had violated several terms of the
grant award. However, in October 1998, after we had completed our audit
fieldwork, the Congress enacted Public Law 105-277, which provided that
upon completion of this project, EDA was to disburse the full $912,000 to
the city, notwithstanding any other provision of law. In view of this
legislation, we reported the grant violations to EDA, but did not make any
recommendations for corrective action. The project has been completed,
and EDA has disbursed the funds to the city. (Denver Regional Office of
Audits: DEN-10587-9-0001)

In Brief
Conviction. In March 1999, a former economic development repre-
sentative was convicted of one count of bribery based on a joint OIG/FBI/
IRS investigation, which revealed that he had accepted $3,000 in Novem-
ber 1995 from two individuals representing an applicant for EDA grant
funds. Sentencing is scheduled for May 1999 in U.S. District Court for the
Western District of Texas. (Denver Field Office of Investigations)




March 1999                                Commerce IG Semiannual Report               29
                                        Economics and
                                        Statistics Administration

 The Economics and Statistics
                                         Data Capture System Requirements and Testing
 Administration analyzes                 Problems Experienced During Dress Rehearsal
 economic developments, develops
 policy options, and produces a              In the spring of 2000, the Census Bureau will begin collecting and
 major share of U.S. government          processing data from approximately 120 million households as part of its
 economic and demographic
                                         decennial census operations. These operations will require the capture of
 statistics. The Chief Economist
                                         data from an estimated 1 billion pages of census forms within a four-
 monitors and analyzes economic
 developments and directs studies        month period. To accomplish data capture, the bureau will use a state-of-
 that have a bearing on the              the-art system, Data Capture System 2000.
 formulation of economic policy.
 ESA has two principal agencies:             In contrast to previous decennial censuses, DCS 2000 is being
 Bureau of the Census. Census is         developed by a contractor, rather than by the bureau. The DCS 2000
 the country’s preeminent statistical    contract is divided into two overlapping phases: Phase I was the design and
 collection and dissemination            development of a pre-production version of the system for use in the 1998
 agency. It publishes a wide variety     Dress Rehearsal. Phase II is the development of the full-scale production
 of statistical data about people and
                                         version, which will be used for the 2000 Decennial Census.
 the economy of the nation,
 conducting approximately
 200 annual surveys, in addition to           An OIG review of Phase I of DCS 2000 operations disclosed that the
 the decennial census of the U.S.        system experienced serious problems in processing dress rehearsal forms
 population and the decennial            as a result of inadequate control of requirements and insufficient testing.
 census of industry.                     Specifically, growth and change in system requirements caused the data
 Bureau of Economic Analysis.            capture contractor to abandon its well-defined system engineering
 BEA’s goal is to provide a clear        procedures. Instead, concurrent development, testing, and deployment
 picture of the U.S. economy by          activities were performed on a short cycle that did not allow enough time
 preparing, developing, and              to consistently apply sound system engineering practices, including
 interpreting the national income
                                         software and system testing.
 and product accounts
 (summarized by the gross
 domestic product) as well as                 In addition, funding shortfalls and the disruption to the system
 aggregate measures of                   engineering approach caused by requirements instability made it necessary
 international, regional, and state      to reduce the size and scope of the bureau’s test program, which was
 economic activity.                      designed to identify and correct problems and validate that the system was
                                         functioning properly before the dress rehearsal. As a result of the less
                                         rigorous and comprehensive testing, many problems were not identified
                                         until during the dress rehearsal.

                                              Despite these difficulties, the system met all of its processing
                                         deadlines, due largely to the noteworthy efforts of the bureau and the
                                         contractor in addressing the unexpected problems. However, the size,
                                         complexity, and performance requirements of the decennial census mean
                                         that similar problems in 2000 would introduce a high risk of not being able
                                         to complete data capture operations on time and could produce data of
                                         questionable accuracy. We believe, nevertheless, that with strict
                                         requirements management, comprehensive testing, and sufficient funding,
                                         the problems experienced with DCS 2000 during the dress rehearsal can be


30                                        Commerce IG Semiannual Report                                  March 1999
                                                  Economics and Statistics Administration


solved, and the system will be capable of performing as needed during the
decennial census.                                                                    Economics and
                                                                                       Statistics
     We recommended that the bureau strengthen the requirements                      Administration
management process for DCS 2000, and establish schedules with sufficient
time and provide adequate funding to perform complete and improved
                                                                               Bureau            Bureau of
testing of the system, including operational testing. The bureau agreed with    of the           Economic
our findings and is taking steps to implement our recommendations. For         Census            Analysis
example, the bureau has recently convened a steering group composed of
decennial operational managers to implement a requirements control
process. (Office of Systems Evaluation: OSE-10846)

Audit of Census’s
FY 1998 Financial Statements
     An IPA firm issued an unqualified opinion on Census’s FY 1998
balance sheet, but a disclaimer of opinion on its remaining financial
statements because the bureau did not adequately perform reconciliations
or produce accurate financial statements on a timely basis with sufficient
quality assurance procedures. This situation was caused by the bureau’s
lack of adequate financial management systems, reports, and oversight,
which prevented it from preparing timely and accurate statements.

     Census’s inability to produce timely and accurate financial statements
hampered the Department’s ability to meet the legislatively mandated
March 1, 1999, deadline for producing its audited consolidated financial
statements. High-level bureau managers must continue to make financial
management improvement a top priority, and must intensify their efforts to
improve the bureau’s internal control over financial reporting and promptly
implement corrective actions for the preparation of the 1999 financial
statements so that the Department can meet the March 1, 2000, deadline.

    The IPA firm’s report identified two material weaknesses:

z       Lack of adequate financial management systems, reports, and
        oversight to prepare timely and accurate financial statements.

z       Lack of adequate support for accounts payable and undelivered
        orders balances.

    As a result of the second material weakness, the firm identified
$3.3 million in invalid obligations. Census agreed that the obligations were
not valid and made adjustments to its financial records. This sum repre-
sents funds available to be put to better use.


March 1999                                Commerce IG Semiannual Report                                      31
Economics and Statistics Administration


                             In addition to the material weaknesses, there were four other
                        reportable conditions, related to (1) differences between fixed asset
                        subsidiary records and periodic inventory results, (2) policies and
                        procedures for determining the actual cost of items held in inventory for
                        sale, (3) the application of the Working Capital Fund surcharge, and
                        (4) general controls related to CAMS.

                            The firm also identified one instance of material non-compliance with
                        laws and regulations: Census’s financial management systems did not
                        comply with certain requirements of FFMIA.

                             Our office reviewed a draft of the overview to Census’s financial
                        statements and informally provided management with our suggestions for
                        improvement. While the final overview incorporated some of our suggest-
                        ions from the previous year’s review, it is generally not responsive to this
                        year’s comments. The overview lacks historical data for trend analysis and
                        target data for FY 1998, and contains only a limited discussion of the
                        challenges the bureau faces and management efforts to address them.
                        (Financial Statements Audits Division: FSD-10865-9-0001)

                        Census Needs Policies for Preparing,
                        Reviewing, and Tracking Its Agreements
                             Interagency and other special agreements are mechanisms for federal
                        agencies to define terms for performing work for others, acquiring work
                        from others, or coordinating complementary programs (without the
                        transfer of funds). The Bureau of the Census uses such agreements—
                        consisting of reimbursable agreements, obligation agreements, or
                        agreements not involving the transfer of funds—to pursue several aspects
                        of its mission to collect and provide timely, relevant, and quality data about
                        the people and the economy of the United States. In FY 1997, Census had
                        586 reimbursable agreements, 81 obligation agreements, and 40 agree-
                        ments not involving the transfer of funds that were active.

                            The OIG evaluated the policies, procedures, and practices being
                        followed by the bureau in its preparation, review, and management of
                        obligation agreements and agreements not involving the transfer of funds.
                        (We did not review the bureau’s individual reimbursable agreements
                        because they were partially included in an OIG audit of the FY 1997
                        financial statements.) This was one in a series of reviews in the OIG’s
                        Department-wide examination of agreements (see page 17).




32                       Commerce IG Semiannual Report                                   March 1999
                                                  Economics and Statistics Administration


     Overall, we found that the bureau used agreements to support its
mission by obtaining and exchanging data, conducting joint statistical
projects, and acquiring information technology. However, we also
identified the need for significant improvements in the agreements
themselves, the review process, the policies that govern agreements, and
the tracking of agreements.

    Specifically, our review disclosed that:

z       Agreements were not always properly prepared. The bureau
        did not consistently cite an applicable legal authority, prepare
        written justifications, include total project costs and budget
        summaries, or define termination dates or review periods.

z       Oversight process for reviewing agreements was inadequate.
        Only 2 of the 26 sampled agreements from FY 1997 received
        Office of General Counsel review. In addition, the bureau did not
        have any policy or procedure that stipulated when legal review
        was required before an agreement could be signed.

z       The bureau lacked a central database to inventory and track
        agreements. Although the bureau has separate financial systems
        for tracking reimbursable and obligation agreements, there is
        neither a repository nor a central listing of all agreements.

     We recommended that Census develop a comprehensive set of
guidelines for preparing and reviewing all types of bureau agreements that
is consistent with departmental guidance. In addition, relevant information
for preparing and processing agreements should be distributed internally
through the bureau’s intranet and at appropriate bureau management and
administrative meetings. We also recommended that the bureau provide
training to program and administrative staff responsible for preparing,
processing, and reviewing agreements, and establish a centralized system
to adequately inventory, track, and control agreements.

    The bureau acknowledged that improvements in the agreement
processes are necessary and agreed with all of our recommendations.
(Office of Inspections and Program Evaluations: IPE-10523)




March 1999                                 Commerce IG Semiannual Report               33
Economics and Statistics Administration


                        Census Denver Office Needs to Improve
                        Internal Controls over Bankcard Purchases
                            In conjunction with an OIG plan to periodically review Commerce
                        units’ use of bankcards, we conducted an audit of FY 1997 bankcard
                        transactions at the Census Bureau’s Denver Regional Office to determine
                        whether purchases were made in compliance with applicable federal and
                        departmental requirements. The objectives of the bankcard program,
                        established government-wide in 1989, are to reduce administrative
                        procurement costs, improve cash management by expediting and
                        simplifying small purchases, and strengthen internal controls to eliminate
                        the vulnerabilities to fraud and abuse of other small purchase methods.

                             We identified a number of deficiencies in the regional office’s internal
                        controls over bankcards: (1) the contracting office head did not perform
                        the required annual review of bankcard activity, (2) six of the seven office
                        bankcards were not stored in a secure location, (3) two unauthorized
                        employees were permitted to use a bankcard at least four times, (4) one
                        prohibited service was purchased monthly with a bankcard, (5) purchases
                        were routinely made without preapproval, (6) accounts were not properly
                        closed when cardholders left the office, (7) several records for a
                        cardholder who had left the office were not retained, and (8) mandatory
                        training was not provided to two cardholders. As a result, the office was at
                        risk for unauthorized and improper procurements.

                             We recommended that the bureau ensure that the Denver office
                        follows effective internal control practices and conduct a follow-up review
                        of the office’s bankcard activity within 18 months of our report and
                        provide us with the results of that review. Bureau officials agreed with our
                        recommendations, stating that the contracting office head will complete the
                        annual review within 12 months to ensure that the internal control
                        deficiencies we identified are corrected. In addition, cardholders and
                        approving officials will be instructed regarding the importance of these
                        matters. (Denver Regional Office of Audits: DEN-11030-9-0001)

                        Audit of ESA and BEA’s
                        FY 1998 Financial Statements
                            An IPA firm issued an unqualified opinion on ESA and BEA’s
                        FY 1998 financial statements. The firm did not identify any material
                        weaknesses, but did cite two reportable conditions in the agencies’ internal
                        control over financial reporting.




34                       Commerce IG Semiannual Report                                   March 1999
                                                  Economics and Statistics Administration


    One condition involved the controls surrounding the Department’s
Office of Computer Services mainframe system, on which the Financial
Accounting and Reporting System (FARS) application is processed. The
firm considers these issues to be a reportable condition to ESA and BEA
because FARS processes the financial information used in preparing the
financial statements. However, the reportable condition is not under the
control of ESA and BEA management.

     The second reportable condition relates to annual leave discrepancies
that continue to exist between the Department’s time and attendance
system and the National Finance Center’s payroll system and the fact that
reconciliations between the systems are not being performed regularly.
Although the number and value of the discrepancies are not material to the
financial statements, the lack of adequate reconciliation could result in the
reporting of inaccurate payroll expenses in the statements.

     The firm also identified one instance of material non-compliance with
laws and regulations related to FFMIA. Specifically, FARS does not main-
tain sufficient commonality of data elements and transactions processing to
ensure timely, accurate, and effective financial reporting, as required by
federal guidance.

     In reviewing a draft of the overview to ESA and BEA’s financial
statements, we found that the agencies had incorporated many of our prior
year suggestions for improving the clarity and conciseness of the overview,
which resulted in an improved discussion of their activities and results.
However, ESA and BEA need to provide additional discussion of
performance goals, such as a comparison of actual results to benchmarks
and a discussion of variances. ESA and BEA management were also
responsive to the observations and recommendations we made on the
draft. We encourage the agencies to strengthen next year’s discussion of
actual results and to continue efforts to improve performance measure-
ment and reporting. (Financial Statements Audits Division: FSD-10863-
9-0001)




March 1999                                Commerce IG Semiannual Report                35
                                         International
                                         Trade Administration

The International Trade
                                         FY 1998 Financial Statements Reviewed
Administration is responsible for        Under Agreed-Upon Procedures
most nonagricultural U.S. trade
issues and works with the Office of           During the prior four fiscal years, the OIG contracted with an IPA firm
the U.S. Trade Representative in         to perform a full-scope audit of ITA’s financial statements. These audits
coordinating U.S. trade policy. ITA
                                         resulted in disclaimers of opinion due to material weaknesses in ITA’s
has four principal units:
                                         internal control over financial reporting. Because ITA management
Market Access and Compliance.
MAC develops and implements              indicated that substantive corrective actions had not been fully imple-
international economic policies of       mented for FY 1998, the OIG altered the scope of work from conducting
a bilateral, multilateral, or regional   a full-scope audit to performing certain agreed-upon procedures. The
nature. Its main objectives are to       purpose of these procedures, which we defined, was to perform limited
obtain market access for American        testing of corrective actions made to date and to support the FY 1998
firms and workers and to achieve         Department of Commerce consolidated financial statements audit. This
full compliance by foreign nations       approach was also designed to afford ITA an opportunity to focus its
with trade agreements signed with        efforts toward the FY 1999 financial statements audit.
the United States.
Trade Development. TD advises
                                             In its report, the IPA firm noted that ITA had completed the planning
on international trade and
investment policies pertaining to        and early implementation stages of two major initiatives that should
U.S. industrial sectors, carries out     dramatically improve the bureau’s financial management:
programs to strengthen domestic
export competitiveness, and              z       ITA has a contract with an IPA firm to develop standardized
promotes U.S. industry’s                         financial policies and procedures for overseas posts in support of
increased participation in                       CFO Act requirements. Such policies and procedures should
international markets.                           correct two of the six material weaknesses identified in the firm’s
Import Administration. IA                        FY 1997 report on ITA’s financial statements (see March 1998
defends American industry against
                                                 issue, page 31).
injurious and unfair trade practices
by administering the antidumping
and countervailing duty laws of the      z       ITA is in the process of outsourcing its accounting operations and
United States, and enforcing other               financial system support services to the Department of the
trade laws and agreements                        Interior. Since Interior’s Federal Financial System meets all
negotiated to address such trade                 relevant federal requirements, this outsourcing should help correct
practices.                                       the four remaining material weaknesses.
U.S. & Foreign Commercial
Service. US&FCS promotes the                  In addition, the firm reported that because these corrective actions
exports of U.S. companies and            were not fully implemented during FY 1998, many of the deficiencies
helps small and medium-sized
                                         noted in FY 1997 remain. Although a Chief Financial Officer and a Deputy
businesses market their goods and
                                         were appointed, ITA was still unable to produce auditable financial
services abroad. It has 98 domes-
tic offices and 138 overseas posts       statements, and material internal control weaknesses continued to exist. In
in 75 countries.                         addition, except for transferring sufficient cash to fund the voluntary
                                         foreign service national separation pay accrual, ITA continued to be
                                         noncompliant with certain laws and regulations.




36                                        Commerce IG Semiannual Report                                  March 1999
                                                             International Trade Administration


    We commend ITA for its efforts to correct its material weaknesses and
encourage continued implementation of these corrective actions. However,                  International
constant oversight is still needed. The mid-year conversion to Interior’s                     Trade
Federal Financial System is especially critical as the conversion process                Administration
will be complex and difficult. (Financial Statements Audits Division:
                                                                                                       Market
FSC-10866-9-0001)                                                                Import
                                                                                                     Access and
                                                                              Administration
                                                                                                     Compliance

Better Management and Coordination
                                                                                                    U.S. and Foreign
Needed to Improve Export Promotion                                               Trade
                                                                              Development            Commercial
                                                                                                        Service
    The OIG conducted a review of the Department’s export promotion
efforts, focusing on the effectiveness of ITA, as the lead Commerce
agency, in managing its export promotion programs and operations, and its
involvement with other departmental units and other federal agencies to
expand trade opportunities for U.S. businesses.

     We found that ITA has accomplished a great deal in the area of export
promotion. Among the steps ITA is taking are (1) establishing a
government-wide strategy for export promotion services, (2) providing
U.S. firms with a greater awareness of export opportunities, and
(3) offering improved services and support at its domestic and overseas
offices. However, our review disclosed several issues regarding ITA’s
internal structure and the guidance and direction provided by its senior
managers that warrant management attention:

z       Periodic voids in leadership and general direction. Too often
        in the past, the Under Secretary position has been vacant and the
        Deputy Under Secretary has filled in, in effect performing two
        jobs.

z       Fragmented approach to providing export promotion
        services. ITA’s organizational structure has encouraged a
        fragmented, often duplicative approach to providing support to
        U.S. firms. Senior officials have indicated that they recognize the
        need to make changes in this area.

z       Inadequate integration of US&FCS’s domestic and overseas
        personnel. Although US&FCS’s decision to better integrate its
        staff was sound, initial efforts to implement the decision were not
        well planned and did not adequately consider employees’ con-
        cerns. The agency’s recently revised approach addresses many of
        those concerns, but may not go far enough.




March 1999                               Commerce IG Semiannual Report                                             37
International Trade Administration


                         !       Limited use of US&FCS’s “Teams Initiative.” This initiative,
                                 which involves teams of trade specialists located throughout the
                                 United States who work to promote exports for a particular
                                 industry or a specific geographic region, has the potential to be an
                                 important tool in improving ITA’s effectiveness and coordination
                                 worldwide. But teams could be more effective if they routinely
                                 leveraged staff resources from other ITA units to address specific
                                 trade-related issues. The initiative would also benefit from having
                                 its manager located at Commerce headquarters.

                         !       Ineffective information technology strategies for both in-
                                 house operations and service delivery. US&FCS does not
                                 (1) have a permanent office with leadership responsibilities in
                                 information technology, (2) have an adequate system development
                                 methodology, or (3) adequately plan or budget for its information
                                 technology modernization. Efforts underway to upgrade the
                                 agency’s office automation infrastructure, improve client tracking,
                                 and develop a standard system platform for sharing information
                                 appear promising, but more work is needed.

                             We also found problems related to ITA’s interaction within the
                         Department on export promotion activities. Although ITA appears to be
                         working well with BXA and the National Marine Fisheries Service
                         (NMFS), the bureau needs to better coordinate with (1) EDA to prioritize
                         and maximize the use of its grant funds for export promotion efforts,
                         (2) MBDA to provide more effective export promotion services to its
                         clients throughout the nation, and (3) NTIA to promote international
                         market access and trade opportunities for U.S. telecommunications
                         companies. In addition, NIST should continue to work closely with ITA in
                         furthering Commerce’s efforts to help developing nations shape their
                         industry standards.

                             In an earlier report on export promotion (see March 1993 issue, page
                         28), we expressed concerns about inadequate governmentwide interagency
                         coordination. Since then, ITA has improved interagency coordination
                         through the Trade Promotion Coordinating Committee (TPCC), which
                         includes senior-level representatives from 20 federal agencies, and has
                         established a TPCC Secretariat to provide a point of contact for federal or
                         private sector parties. We found, however, that there was often inadequate
                         cooperation among the various TPCC agencies operating at overseas
                         posts, which can result in missed trade opportunities, inefficient operations,
                         and overlap and duplication.




38                        Commerce IG Semiannual Report                                   March 1999
                                                                International Trade Administration


     Among our recommendations were that ITA (1) refine and implement
its reorganization plan and, as appropriate, revise its policies to redefine the
roles and responsibilities of the agency and its components in relation to
exporters’ needs, (2) designate a permanent office that has the necessary
capabilities and authority to address bureauwide information technology
issues, (3) seek to strengthen the role of the TPCC as a tool to encourage
greater government cooperation and coordination on trade issues,
(4) periodically evaluate the integration initiative to ensure that it is
delivering the desired results, and (5) ensure that the Teams Initiative
includes, where appropriate, industry and country specialists from other
ITA units. We also made recommendations to both ITA and senior
officials at those Commerce agencies—EDA, MBDA, and NTIA—with
which better coordination is needed.

    ITA generally agreed with our recommendations. (Office of
Inspections and Program Evaluations: IPE-9904)

Acting IG Testifies on Commerce
Export Promotion Initiatives
     On March 25, 1999, the Acting Inspector General appeared before the
House Government Reform and Oversight Subcommittee on Criminal
Justice, Drug Policy, and Human Resources to discuss the results of the
OIG’s recent work related to the Department’s—and particularly ITA’s—
efforts to promote U.S. exports. He observed that ITA has accomplished
much in the area of export promotion in recent years. Current and
potential U.S. exporters, as well as related associations, are increasingly
acknowledging ITA’s success in making U.S. firms better aware of export
opportunities, offering a wide range of services and support at its domestic
and overseas offices, and pursuing an effective government-wide strategy
for export promotion services.

    The Acting IG highlighted a recent OIG report that both assessed the
Department’s export promotion efforts and described some of the
challenges facing Commerce managers as they continue to improve their
export promotion activities (see page 37). In conducting this review, the
OIG attempted to address two primary questions: (1) What is the
Department doing to meet the objectives of the Omnibus Trade and
Competitiveness Act of 1998? (2) Are U.S. exporters, and potential
exporters, being well served by the Department?

   The testimony focused on the efforts of the U.S. and Foreign
Commercial Service—the Department’s largest, and most visible export
promotion unit—describing in particular the results of OIG reviews of


March 1999                                  Commerce IG Semiannual Report                       39
International Trade Administration


                         US&FCS’s overseas posts (see below). The Acting IG also presented
                         observations relating to the export promotion efforts of other ITA units and
                         other Commerce agencies, and discussed the OIG’s views on how certain
                         trade promotion activities are, or should be, coordinated among the many
                         federal agencies with responsibilities in this area.

                         OIG Continues Its Reviews
                         of US&FCS’s Overseas Posts
                             During this semiannual period, the OIG continued its series of reviews
                         of selected Commerce overseas posts (see September 1998 issue, page
                         35), which are under the direction of ITA’s U.S. and Foreign Commercial
                         Service. The reviews evaluate a post’s operational effectiveness and
                         determine whether it is efficiently accomplishing its mission: to assist U.S.
                         companies, especially small and medium-sized ones, with export
                         assistance. In reporting the results of each review, we generally divide our
                         findings into some combination of the following areas: general management
                         and organizational issues, program activities and performance measure-
                         ment, and internal control environment. In the following sections, we
                         summarize the results of the five audit reports issued during this
                         semiannual period.

                         US&FCS European Union

                              The European Union (EU) comprises 15 countries, referred to as
                         member states, having a total population of about 370 million people,
                         roughly 1½ times that of the United States. The United States maintains
                         diplomatic relations with EU through the U.S. Mission to the EU, whose
                         staff includes representatives from the Departments of Agriculture,
                         Commerce, Justice, State, and the Treasury; the Office of the U.S. Trade
                         Representative; the U.S. Information Agency; the Customs Service; and
                         the Agency for International Development. Commerce’s operations are
                         managed by US&FCS and also include programs of NIST and NOAA.

                         !       General management and organizational issues. Although
                                 US&FCS’s EU operation is an atypical post, with activities
                                 directed primarily at supporting the U.S. mission’s policy and
                                 regulatory-reporting initiatives, we believe that it needs to more
                                 fully integrate its operations with the agency’s core mission of
                                 providing export marketing assistance to U.S. firms. To do this,
                                 the post must develop a strategic commercial plan and identify
                                 primary and secondary target markets for its output.




40                        Commerce IG Semiannual Report                                  March 1999
                                                             International Trade Administration


!       Program activities and performance measurement. US&FCS
        EU has supported mission efforts in advancing mutual recognition
        agreements to improve access for U.S. and EU firms to each
        other’s markets, and both the NIST standards program and the
        NOAA fisheries program were providing valuable services to the
        U.S. business community and other US&FCS posts in Europe.

        However, the development of core US&FCS products and
        services needed attention, and NIST’s and NOAA’s programs
        should be better integrated into Showcase Europe, the Depart-
        ment’s strategy to approach Europe on a regional basis and to help
        U.S. firms already exporting in one market to move into others.
        Moreover, the post needed to establish an outreach program,
        develop marketing materials, and explore untapped service
        markets, especially for small and medium-sized enterprises.

!       Internal control environment. US&FCS EU’s administrative
        structure was inadequate, and appropriate internal controls had not
        been established, primarily because of changes in management and
        turnover in personnel. As a result, the post was not actively
        monitoring its finances; significant discrepancies in accounting data
        existed between State and ITA financial reports, as well as prior
        year unobligated authorizations and unliquidated obligations; and
        physical asset management had deficiencies.

    US&FCS generally agreed with the recommendations we made and
described measures already taken to implement them. These include
developing a FY 1999 strategic action plan to coordinate the post’s
marketing efforts with other US&FCS European posts and Showcase
Europe and taking steps to strengthen the post’s internal control system.
(Business and Trade Audits Division: BTD-10588-9-0001)

US&FCS Belgium

     One of the leading trading nations in the world, Belgium offers a
central location for reaching the major European markets, a first-rate
infrastructure, a skilled multilingual workforce, and an open economy.
Belgium is a major market for American products, importing an estimated
$12.5 billion in 1996. U.S. direct investment in Belgium was $17.8 billion
at the end of 1995, and more than 1,200 American companies have
operations there. The post is also responsible for commercial affairs at the
U.S. embassy in Luxembourg.




March 1999                                Commerce IG Semiannual Report                      41
International Trade Administration


                         Our audit of US&FCS operations disclosed the following:

                         !       Organizational issues. Under the office structure in place at the
                                 time of our review, the deputy senior commercial officer directly
                                 supervised only two of the six foreign service nationals responsible
                                 for industry sector coverage. Giving the deputy more responsibil-
                                 ities would enable the commercial staff to benefit more readily
                                 from his substantive expertise and would likely improve final work
                                 products.

                         !       Program activities. To complement its Europe-wide commercial
                                 strategy, US&FCS has considered adopting a regional approach to
                                 the three countries making up the Benelux region—Belgium, the
                                 Netherlands, and Luxembourg. However, US&FCS had not taken
                                 decisive action on such an approach at the time of our review. A
                                 single-management approach to Benelux, managed by US&FCS
                                 Belgium, could provide more coordinated services for U.S. com-
                                 panies seeking to do business in the region.

                                 We also found that two-thirds of the post’s “success stories”—a
                                 performance measure of export actions in which the Department
                                 played a role—were the result of four US&FCS-coordinated or
                                 supported trade events held each year. We believe that with the
                                 size and experience of its commercial staff, US&FCS Belgium
                                 should implement an action plan to increase the number of success
                                 stories generated through other than event-related products and
                                 services. US&FCS should also better coordinate and streamline its
                                 two distinct operations in Belgium—the Belgium post and EU.

                         !       Internal control environment. US&FCS has established
                                 generally good internal control systems to meet the intent of the
                                 Federal Managers’ Financial Integrity Act. Systems were in place
                                 to document and record transactions and events and to safeguard
                                 assets, and the post had proper physical asset management pro-
                                 cedures over inventory. However, we did find some weaknesses in
                                 accounting controls that needed to be addressed. Specifically,
                                 account balances recorded by the State Department and ITA
                                 differed significantly, and the total unfunded severance liability for
                                 the post was over $1 million at the end of FY 1997.

                              We made several recommendations to US&FCS to address the iden-
                         tified deficiencies. The agency generally agreed with our recommendations
                         and described measures it has taken to implement them. (Business and
                         Trade Audits Division: BTD-10595-9-0001)


42                        Commerce IG Semiannual Report                                   March 1999
                                                            International Trade Administration


US&FCS Portugal

    In 1997 direct U.S. exports to Portugal amounted to about $1 billion.
However, as only the 34th largest market for direct U.S. exports of goods
and services, Portugal is not ranked highly by U.S. businesses as a new
market to explore. US&FCS Portugal consists of two offices—in Lisbon
and Porto.

!       Program activities and general management. Because U.S.
        exporters consider Portugal to be peripheral to other European
        markets, US&FCS Portugal has focused on servicing Portuguese
        companies interested in importing or distributing U.S. products.
        The post’s primary goals for FY 1997-98 were to increase success
        stories resulting from assistance to importers and to coordinate
        regional promotion of Portugal through Showcase Europe.

        However, while the Porto office was generating a large number of
        success stories, the quantity and sector coverage represented by
        these stories, as well as the lack of a strong working relationship
        with the local branch of the American Chamber of Commerce,
        indicated that the office’s activity might be too narrowly focused.
        Moreover, the Agent/Distributor Service—a customized overseas
        search for qualified agents, distributors, and representatives for
        U.S. firms—needed improvement in management and timeliness.

!       Internal control environment. US&FCS Portugal played an
        active role in administering the International Cooperative
        Administrative Support Services, the administrative cost system
        for U.S. overseas operations, and maintained an adequate internal
        control environment. The minor internal control weaknesses we
        found involved asset management control over vehicles and
        inventory, controls over cash collections, and the amount of the
        severance cost liability.

    Again, to correct the identified deficiencies, we made a series of
recommendations, which US&FCS generally agreed with. It also described
measures taken to implement them, including improving the relationship
with the Porto branch of the American Chamber of Commerce, increasing
the number of visits to Lisbon by the Porto foreign service national,
processing all Agent/Distributor Service requests within US&FCS time
frames, and maintaining an up-to-date inventory of office and residential
property. (Business and Trade Audits Division: BTD-10594-9-0001)




March 1999                               Commerce IG Semiannual Report                      43
International Trade Administration


                         US&FCS South Korea

                             Until its recent economic troubles, the Republic of South Korea’s
                         economic growth over the last 30 years had been spectacular. South Korea
         MAP             has grown from one of the poorest to among the largest economies in the
                         world, and one of the largest U.S. export markets. However, the South
          OF             Korean market is difficult for U.S. companies to penetrate for several
     SOUTH KOREA         reasons, among them the amount of pirated and counterfeit goods in the
                         marketplace, the sometimes inconsistent enforcement of laws and
                         regulations, the dominance of domestic conglomerates, cumbersome
                         customs clearance procedures and regulations, and non-tariff trade
                         barriers. US&FCS South Korea operates in two facilities in Seoul: an
                         office in the embassy and a business center in an adjacent building.

                             We concluded that in general, US&FCS’s management team was
                         effective and morale was high among the staff. The post was operating an
                         ambitious outreach program and delivering high-quality products and
                         services to U.S. exporters. Clients and export organizations who work with
                         the post had positive comments about its operations, and it generated a
                         large number of success stories.

                         !       General management and organizational issues. Despite its
                                 overall strong performance, the post needed to address certain
                                 weaknesses to sustain its effectiveness. For example, continuity of
                                 operations is at risk due to the scheduled departure of most
                                 commercial officers during the summer of 1999, the high turnover
                                 of FSN staff in recent years, and the lack of emphasis on staff
                                 training. In addition, management of the U.S.-Asia Environmental
                                 Partnership program (a joint US&FCS-Agency for International
                                 Development program to promote U.S. environmental exports in
                                 Asia) has been inadequate.

                         !       Program activities and performance measurement.
                                 Notwithstanding its many successes, the post’s management and
                                 staff expressed concern that too much time and resources may
                                 have been spent on its trade policy functions, at the expense of its
                                 trade promotion responsibilities. Moreover, US&FCS South Korea
                                 needed to improve its coordination with other ITA elements; the
                                 trade promotion effort was too focused on large companies; and
                                 the post performed no formal planning or cost analysis in
                                 preparation for the opening of the business center, which lost
                                 nearly $44,000 in FY 1997.




44                        Commerce IG Semiannual Report                                 March 1999
                                                                International Trade Administration


!       Internal control environment. Although we found the post’s
        internal control environment to be generally strong, we did find
        some administrative weaknesses, including the need to reconcile
        account balances on a timely basis, examine prior year
        unliquidated obligations and unobligated authorizations, properly
        identify and account for inventory, and address certain information
        technology issues.

    US&FCS generally agreed with our recommendations and identified
corrective actions being taken to implement them. For example, the post
has initiated a schedule of staggered departures of commercial officers,
increased its training for officers and foreign service nationals, increased its
oversight of the U.S.-Asia Environmental Partnership program, and
prepared a cost and marketing strategy for the business center. (Business
and Trade Audits Division: BTD-10221-9-0001)

American Institute in Taiwan

     Over four decades, Taiwan, an important component of the big
emerging market that also includes China and Hong Kong, has transformed
itself from an underdeveloped, agricultural island to an economic power
that is both a leading producer of high-technology goods and a heavy
importer of goods for domestic consumption and industrial needs. To
maintain ties with Taiwan after recognizing the People’s Republic of China
as the sole legal government of China, the United States established the
American Institute in Taiwan (AIT). AIT is a nonprofit, private
corporation that functions much like an embassy, undertaking a wide range
of activities representing U.S. interests, including commercial services.

    AIT has an office in the capital of Taipei, a branch office in the
Taiwanese city of Kaohsiung, and a headquarters office in Arlington,
Virginia. The AIT Commercial Section receives most of its funding
through AIT (which receives funds through the Department of State) and a
portion through a memorandum of understanding with the Department of
Commerce. The section operates similarly to US&FCS posts in terms of
the delivery of products and services to U.S. exporters.

    We found that the Commercial Section maintains strong, productive
relations with its clients and other AIT sections, and has produced a high
volume of quality research products and timely services for its clients.
However, our review also identified the following issues warranting
management attention:




March 1999                                  Commerce IG Semiannual Report                       45
International Trade Administration


                         !      General management and organizational issues. The
                                relationships between the Department, the Commercial Section,
                                and AIT/Washington need improvement. Most notably, the
                                memorandum of understanding is unclear and ineffective, and
                                needs to be renegotiated. In addition, the commercial officers’ lack
                                of experience and adequate Chinese language skills threatens the
                                operation’s effectiveness, while management weaknesses in trade
                                promotion leadership and the U.S.-Asia Environmental Partner-
                                ship program need to be addressed.

                         !      Program activities and performance measurement. The
                                Commercial Section was devoting significant time and resources to
                                trade policy matters at the expense of its trade promotion program,
                                as manifested in the low level of attention being paid to its trade
                                center, the most public and visible component of its operations. In
                                addition, while the section generated a high dollar figure of success
                                stories, the number of such stories was small and reflected too
                                many large company, advocacy-related projects and too few
                                programs that assist small and medium-sized companies. The
                                section was also providing inadequate support to BXA’s licensing
                                and export programs.

                         !      Internal control environment. The Commercial Section’s
                                internal controls and financial management practices were
                                inadequate, ineffective, and insufficiently emphasized by
                                management. Specifically, (1) source financial documentation was
                                not maintained efficiently, (2) key duties were not separated and
                                supervisory review of internal controls was ineffective, (3) proper
                                imprest fund procedures were lacking, (4) proper procedures on
                                the reporting and use of funds generated by trade events were not
                                being followed, and (5) obligations and disbursements were not
                                being systematically analyzed.

                             US&FCS agreed with nearly all of our recommendations and identified
                         actions being taken to implement them, most notably amending the memo-
                         randum of understanding with AIT to make it more specific. (Business
                         and Trade Audits Division: BTD-10220-9-0001)




46                        Commerce IG Semiannual Report                                 March 1999
                                                              International Trade Administration


Seattle USEAC Provides Quality Service,
but Some Improvements Are Needed
    US&FCS operates a network of 19 U.S. Export Assistance Centers
(USEACs) connecting 100 smaller centers in a “hub and spoke”
arrangement. The primary objective of the USEACs is to enhance and
expand federal export marketing and trade finance services through greater
cooperation and coordination between federal, state, and local partners.
USEACs are “one-stop shops” that offer U.S. businesses a single point of
contact for federal export promotion and finance programs operated by
US&FCS, the Small Business Administration, and the Export-Import
Bank.

     The OIG conducted an inspection of the Seattle USEAC to assess the
quality of its services and its effectiveness in delivering those services to
business clients. Our review focused on program operations as well as
some of the financial and administrative practices being followed at the
USEAC. We found that the Seattle USEAC is doing a good job of
providing export assistance to Washington state businesses. The USEAC is
staffed with capable, dedicated, and knowledgeable trade specialists who
have developed strong partner relationships with state and local trade
organizations. In addition, it works well with overseas posts, and its
financial affairs appear to be in order.

     However, we also found several issues that warrant attention:
(1) USEAC management was in transition, as the former director had
resigned and the acting director was nearing the end of his term;
(2) although clients generally gave positive feedback on the USEAC’s
services, their mixed feedback on the products of the US&FCS overseas
posts made the USEAC reluctant to market some post products; (3) efforts
to market the USEAC’s services were not as effective as they could be;
and (4) some internal controls need improvement.

     We recommended that US&FCS fill the Seattle USEAC director
position as soon as possible; reassess the effectiveness of the current
quality control procedures at headquarters; develop a better system to
ensure the quality and timeliness of products and services provided by
overseas posts to the USEACs and their clients; and improve Seattle
USEAC marketing efforts through advertising, external promotion and
seminars, and an Internet web page tailored to the needs of businesses in
the state. We also made recommendations to address the internal control
deficiencies. US&FCS largely agreed with our recommendations and is
working to implement them. (Office of Inspections and Program
Evaluations: IPE-11007)


March 1999                                Commerce IG Semiannual Report                       47
International Trade Administration


                         Award Process for ABC Program Designed
                         to Promote Merit-Based Funding Decisions
                             The OIG conducted an audit of the FYs 1997 and 1998 award criteria,
                         procedures, and practices for soliciting, reviewing, and selecting financial
                         assistance applications under US&FCS’s American Business Center (ABC)
                         Program. The audit was conducted as part of a Department-wide review
                         of Commerce’s discretionary financial assistance programs initiated at the
                         request of the Chairman of the Senate Committee on Commerce, Science,
                         and Transportation (see page 6).

                             Discretionary funding assistance programs are those programs for
                         which federal agencies have the authority to independently determine the
                         recipients and funding levels of the awards. These programs involve a
                         significant portion of the Commerce Department’s budget and operations,
                         representing approximately $1 billion annually.

                             Through the ABC Program, US&FCS assists U.S. firms in over-
                         coming many of the obstacles to entry into the markets of Russia and the
                         Newly Independent States, including the lack of commercial, economic,
                         and legal information; affordable office space; and adequate transportation
                         and telecommunications facilities. In FYs 1997 and 1998, the program
                         awarded or renewed 14 cooperative agreements totaling more than
                         $2.4 million.

                              We found that US&FCS’s criteria, procedures, and practices for the
                         solicitation, review, and selection of ABC awards and renewals complied
                         with statutory, departmental, and agency requirements and were designed
                         to promote merit-based funding decisions. Specifically, US&FCS
                         (1) developed and used merit-based award criteria to evaluate applications
                         for financial assistance, (2) complied with requirements and procedures for
                         soliciting, reviewing, and selecting applications for new ABC awards, and
                         (3) followed established procedures for renewing prior awards.

                             We did, however, find one deficiency: The program was not listed in
                         the Catalog of Federal Domestic Assistance for FY 1998, although
                         US&FCS had requested its inclusion. The Catalog contains vital
                         information on financial and nonfinancial assistance programs administered
                         by federal agencies. We recommended that US&FCS work with GSA to
                         ensure that the ABC Program is promptly included in the Catalog.
                         US&FCS agreed to take action to correct this problem, and the program
                         was added to the Catalog as of the December 1998 update. (Business and
                         Trade Audits Division: BTD-10957-9-0001)



48                        Commerce IG Semiannual Report                                 March 1999
                                                           International Trade Administration


In Brief
Suspension. A senior US&FCS officer received a 10-day suspension for
misuse of official time and property and conduct unbecoming a federal
employee after an OIG investigation established that the officer had used
government telephones, facsimile machines, delivery services, and vehicles
to conduct personal business. We also found that the officer frequently
directed subordinate employees to perform his personal business during
work hours, and was rude and abusive in his dealings with office staff.
(Washington Field Office of Investigations)




March 1999                              Commerce IG Semiannual Report                      49
                                        Minority Business
                                        Development Agency

The Minority Business
                                        Audit of FY 1998 Financial Statements
Development Agency was
created to help minority-owned              An IPA firm issued an unqualified opinion on MBDA’s FY 1998
and operated businesses achieve         financial statements. However, the firm’s report identified four reportable
effective and equal participation in    conditions in MBDA’s internal control over financial reporting, which
the American free enterprise            involved weaknesses in the following areas: (1) controls surrounding its
system, and overcome the social         financial management systems, (2) the presentation of its performance in
and economic disadvantages that         the overview, (3) the deobligation process for inactive grants and
have limited their participation in     agreements, and (4) annual leave recording.
the past. MBDA provides
management and technical
assistance to minority firms upon
                                             The first reportable condition is not under the control of MBDA
request, primarily through a            management. It relates instead to deficiencies surrounding internal controls
network of business development         in the Department’s Office of Computer Services mainframe system, on
centers. It also promotes and           which MBDA’s financial data is processed, and compliance problems of
coordinates the efforts of other        EDA’s financial management system, which performs certain accounting
federal agencies in assisting or        functions involving MBDA’s grant funds.
providing market opportunities for
minority businesses.                        The IPA firm also identified two instances of material non-compliance
                                        with laws and regulations. First, the financial management system of EDA,
                                        discussed above, does not comply with the U.S. Government Standard
                                        General Ledger at the transaction level. Second, NIST’s Financial
                                        Accounting and Reporting System, which performs some financial
              Minority Business         transaction processing and reporting for MBDA, does not maintain
                Development             appropriate commonality of data elements and transaction processing to
                   Agency
                                        ensure timely, accurate, and effective financial reporting.
      Finance and           Strategic
     Administration         Planning
                                             Both the OIG and the IPA firm conducting the audit reviewed a draft
                                        version of the overview to MBDA’s financial statements. The firm’s
                                        review identified serious weaknesses, including performance measures not
      Program                External   in accordance with the Department’s annual performance plan, inconsis-
     Development              Affairs   tencies between the overview and the bureau’s strategic plan, the lack of a
                                        clear mission statement, and an incomplete discussion of the Y2K situa-
                                        tion. These findings were consistent with our review of the overview. As a
                                        result, the firm cited the overview as a reportable condition.

                                             We sent MBDA management a memorandum containing our
                                        observations regarding the weaknesses with the overview, and our
                                        recommendations for strengthening this component of the financial
                                        statements. Management was responsive to our recommendations.
                                        (Financial Statements Audits Division: FSD-10867-9-0001)




50                                       Commerce IG Semiannual Report                                  March 1999
                     National Oceanic and
                Atmospheric Administration

Audit of FY 1998 Financial Statements                                          The National Oceanic and
                                                                               Atmospheric Administration
    An IPA firm issued an unqualified opinion on NOAA’s FY 1998                studies climate and global change;
consolidated balance sheet but a disclaimer of opinion on the remaining        ensures protection of coastal
financial statements because of the effects of the previous year’s qualified   oceans and management of
opinion. The unqualified opinion is especially noteworthy and recognizes       marine resources; provides
the many corrective actions the bureau has taken to eliminate most of its      weather services; and manages
material weaknesses and reportable conditions. From the 1997 to the 1998       worldwide environmental data. It
audit, NOAA reduced the number of material weaknesses from 6 to 2 and          does this through the following
                                                                               organizations:
the number of other reportable conditions from 11 to 5.
                                                                               National Weather Service. NWS
                                                                               reports the weather of the United
     The two FY 1998 material weaknesses involved deficiencies in              States and provides weather
accounting for construction work in progress and in monitoring grant           forecasts and warnings to the
recipients. The five other reportable conditions related to the need to:       general public.
(1) improve the preparation, analysis, and monitoring of financial             National Ocean Service. NOS
information; (2) improve procedures for year-end accounts payable              issues nautical and aeronautical
accruals; (3) improve controls over budgeting monitoring; (4) implement        charts; performs geodetic surveys;
procedures to comply with the Statement of Federal Financial Accounting        conducts research; and develops
Standards No. 2; and (5) follow policies and procedures related to             policies on ocean mining and
                                                                               energy.
interagency agreements.
                                                                               National Marine Fisheries
                                                                               Service. NMFS conducts a
     The firm also identified two instances of material non-compliance with    program of management,
laws and regulations: (1) NOAA did not fully fund its capital leases and       research, and services related to
(2) the bureau’s financial management system does not substantially            the protection and rational use of
comply with FFMIA in that it does not support the preparation of timely,       living marine resources.
accurate financial statements and does not adequately support the budget       National Environmental Satellite,
execution process.                                                             Data, and Information Service.
                                                                               NESDIS observes the environment
    The firm also performed agreed-upon procedures related to NOAA’s           by operating a national satellite
                                                                               system.
FY 1997 and 1998 Superfund transactions to determine whether related
                                                                               Office of Oceanic and
costs billed to the Environmental Protection Agency under interagency          Atmospheric Research. OAR
agreements were properly accounted for in accordance with the Compre-          conducts research related to the
hensive Environmental Response, Compensation, and Liability Act of             oceans and inland waters, the
1980 and the Superfund Amendments and Reauthorization Act of 1986.             lower and upper atmosphere,
The firm noted no exceptions.                                                  space environment, and the Earth.
                                                                               Office of NOAA Corps
    We recognize NOAA’s commitment to preparing high-quality, reliable,        Operations. The Corps is the
and meaningful financial statements. It has made progress in many areas,       nation’s seventh uniformed
but still needs to address the remaining material weaknesses and reportable    service. Its ships, aircraft, and
                                                                               personnel support NOAA’s
conditions, which continue to inhibit accurate and timely financial
                                                                               activities throughout the world.
reporting. Certain reportable conditions can be corrected by allocating
additional personnel resources, providing more training, and changing
policies and procedures. However, the remaining conditions can only be
addressed with the replacement of NOAA’s current financial system.


March 1999                                Commerce IG Semiannual Report                                        51
National Oceanic and Atmospheric Administration


                                            NOAA is evaluating the feasibility of acquiring financial services through a
                                            cross-servicing agreement with the Department of the Interior. If cross-
                        NOAA                servicing is not feasible and cost effective, NOAA will proceed with the
                                            implementation of the Commerce Administrative Management System.
        National                National
        Weather                 Ocean           We reviewed a draft of the overview to NOAA’s financial statements
        Service                 Service     and sent NOAA management a memo containing our observations and
                                            suggestions to strengthen their presentation of performance results. We
        National                            encourage NOAA to strengthen next year’s discussion of results and to
     Marine Fisheries           NESDIS
         Service
                                            continue its efforts to improve performance measurement and reporting.
                                            (Financial Statements Audits Division: FSD-10869-9-0001)
     Oceanic and                NOAA
     Atmospheric                 Corps      Proposed NPOESS Demonstration Satellite
      Research                 Operations
                                            Reduces Risk, but Excludes Critical Sensor
                                                A 1994 Presidential Decision Directive called for the Departments of
                                            Commerce and Defense, along with the National Aeronautics and Space
                                            Administration, to jointly develop the National Polar-orbiting Operational
                                            Environmental Satellite System (NPOESS). The system will combine the
                                            Defense Meteorological Satellite Program and the Commerce/NASA-
                                            supported Polar-orbiting Operational Environmental Satellite Program to
                                            create the nation’s first polar-orbiting system that will meet both civilian
                                            and defense environmental data needs.

                                                 NPOESS is expected to save taxpayers $1.3 billion over 10 years by
                                            reducing the number of U.S.-owned operational satellites from four to two,
                                            increasing the useful life span of each satellite from 42 to 84 months, and
                                            combining the support functions. Program implementation is the responsi-
                                            bility of an Integrated Program Office under the direction of a Commerce
                                            system program director.

                                                The NPOESS acquisition strategy developed in 1996 includes the
                                            early development of five critical sensors, which presents significant
                                            technological challenges. However, the methodology for demonstrating the
                                            sensors was revised in 1998 as a result of increased cost estimates,
                                            Integrated Program Office budget cuts, and other concerns.

                                                The Commerce and NASA OIGs conducted a joint inspection of the
                                            risks and costs associated with critical sensor technology that is being
                                            transferred to NPOESS from NASA and other sources. The inspection
                                            identified a risk reduction issue concerning a proposed joint Integrated
                                            Program Office/NASA NPOESS Preparatory Project mission developed
                                            under the 1998 revised methodology. We found that preliminary planning
                                            assumptions for the proposed project do not include evaluating the


52                                           Commerce IG Semiannual Report                                   March 1999
                                   National Oceanic and Atmospheric Administration


feasibility of demonstrating the Ozone Mapper Profiler Suite, one of the
Integrated Program Office’s critical sensors. Excluding the sensor from
flight demonstration will significantly increase the risk of a disruption in
vital ozone data continuity.

    We recommended that the Integrated Program Office (1) request
NASA to include the sensor as a possible payload in its Preparatory
Project feasibility study, (2) defer the decision to include or exclude the
sensor for flight demonstration until mission costs are fully analyzed and a
cost sharing arrangement is negotiated with NASA, and (3) assess the
operational risk of not demonstrating the sensor.

    The Integrated Program Office generally concurred with the findings
and recommendations in the report and indicated that actions have been
taken or are planned to address our concerns. The office expressed some
concern about the report’s suggestion that the NPOESS program should be
responsible for ensuring continuity of global ozone mapping data, which is
currently a NASA responsibility. We would note, however, that the Clean
Air Act of 1990 gives Commerce and NASA equal responsibility for
monitoring and reporting on the condition of the earth’s ozone. (Office of
Systems Evaluation: OSE-11103)

Discretionary Program Awards
Were Not Competitively Selected
     As part of its Department-wide review of Commerce’s discretionary
financial assistance programs (see page 6), the OIG conducted
performance audits of the seven NOAA discretionary funding programs
listed below to assess the FY 1997 criteria, procedures, and practices for
soliciting, reviewing, and selecting applications for financial assistance.

z       Cooperative Science and Education Program (National Marine
        Fisheries Service).

z       Habitat Conservation Program (National Marine Fisheries
        Service).

z       Unallied Management Projects Program (National Marine
        Fisheries Service).

z       Unallied Science Program (National Marine Fisheries Service).

z       Hydrologic Research Program (National Weather Service).



March 1999                                 Commerce IG Semiannual Report        53
National Oceanic and Atmospheric Administration


                       z       Ocean Resources Conservation and Assessment Program
                               (National Ocean Service).

                       z       Research in Remote Sensing of the Earth and Environment
                               Program (National Environmental Satellite, Data, and Information
                               Service).

                           Upon examining NOAA’s and its components’ criteria, procedures,
                       and practices for the solicitation, review, and selection of awards, we
                       found that all seven programs failed to fully comply with departmental and
                       NOAA requirements. The programs were not administered as competition-
                       based financial assistance programs, as encouraged by federal law and
                       regulations and mandated by Commerce policies and procedures. In
                       addition, the sole-source justifications for new non-competitive awards
                       made in FY 1997 were inadequate. Specifically, we found that the NOAA
                       components responsible for the programs:

                       z       Did not comply with the Department’s and NOAA’s requirements
                               that a notice be placed in the Federal Register, at least annually,
                               announcing the availability of funding and specifying the criteria
                               and the process to be used in reviewing and selecting applications
                               for funding.

                       z       Did not develop and publish merit-based evaluation criteria against
                               which program applications for financial assistance could be
                               reviewed.

                       z       Did not comply with the requirements that (1) all financial
                               assistance awards be made on the basis of a competitive review
                               process, unless a special waiver is obtained, and (2) the competi-
                               tive review process meet minimum standards established by the
                               Department.

                            As a result of these deficiencies, NOAA and its components cannot
                       provide reasonable assurance that awards made under these programs are
                       merit-based and represent the most effective means of achieving program
                       objectives. Not following competitive procedures creates a greater potential
                       for the components to make questionable or even inappropriate non-
                       competitive program awards in instances where other sources are
                       available.

                           We also found that NOAA’s Grants Management Division did not
                       provide adequate oversight of the components’ administration of the award
                       selection process.



54                      Commerce IG Semiannual Report                                 March 1999
                                  National Oceanic and Atmospheric Administration


     We recommended that the NOAA officials responsible for the seven
discretionary funding programs ensure that all financial assistance awards
are made through a competitive, merit-based process, unless otherwise
mandated by law or adequately justified, and that the award process
complies with Department policies and procedures and includes the
following four elements:

1.      Widespread solicitation of eligible applications and disclosure of
        essential application and program information in written
        solicitations.

2.      Independent application reviews that consistently apply written
        program evaluation criteria.

3.      Written justifications for award decisions that deviate from
        recommendations made by application reviewers.

4.      Adequate written justifications for noncompetitive awards that
        document appropriate market search efforts to validate the
        determination that there is only one source for the anticipated
        award. The market search should include, at a minimum, a
        preaward notice in the Federal Register stating that the agency
        expects to make a noncompetitive award and inviting other
        qualified parties to inquire.

     We also recommended that NOAA’s Office of Finance and
Administration, which includes the Grants Management Division, require
that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with depart-
mental and NOAA competitive requirements. NOAA agreed that more
awards should be granted competitively for all discretionary funding
programs and that a rigorous solicitation process should be used. (Atlanta
Regional Office of Audits: ATL-10944-9-0001, ATL-11084-9-0001, and
ATL-11140-9-0001 and Seattle Regional Office of Audits: STL-10947-9-
0001, STL-10951-9-0001, STL-10952-9-0001, and STL-10953-9-0001)

Insufficient Planning for Supercomputer
Acquisition Risked Funding Availability
    NOAA is currently using a Class VII supercomputer at its National
Centers for Environmental Prediction to generate data that assists the
National Weather Service in forecasting weather and meeting its mission
goals of collecting, analyzing, and disseminating data related to the Earth’s
oceans and atmosphere. In May 1997, NOAA proposed to acquire a Class


March 1999                                Commerce IG Semiannual Report         55
National Oceanic and Atmospheric Administration


                       VIII system to replace its current supercomputer. According to NOAA, this
                       upgrade is critical to achieving many of its environmental modeling and
                       forecasting goals for the next four years.

                           NOAA had originally planned to award the contract for the Class VIII
                       supercomputer by April 15, 1998, with installation of the system at the
                       Goddard Space Flight Center in Greenbelt, Maryland, in July 1998, seven
                       months before the February 1999 lease expiration of the Class VII system,
                       which is located in Suitland, Maryland. However, the award date was
                       delayed due to concerns raised by the House Appropriations Subcom-
                       mittee on Commerce, Justice, State, the Judiciary and Related Agencies
                       regarding the proposed location of the new supercomputer, the adequacy
                       of NOAA’s justification for early delivery, and the financial terms
                       pertaining to early delivery outlined in the solicitation. Also questioned was
                       the basis for the funding of lease services to be provided from the award
                       date through September 30, 1998.

                           Although NOAA’s analysis of potential sites for the new system
                       indicated that Goddard was the most cost-effective alternative, the OIG
                       determined that the analysis was deficient and that the current site in
                       Suitland was adequate with some modifications (see September 1998
                       issue, page 48). NOAA agreed to install the Class VIII system in Suitland,
                       and a contract was awarded on October 9, 1998, for installation before
                       February 1999.

                           At the request of the Subcommittee, we conducted a review of the
                       new system’s acquisition funding and advanced lease payments. We made
                       two major observations that we brought to the attention of NOAA
                       management:

                       z       Because the program office did not sufficiently plan for the
                               acquisition of the supercomputer, it did not provide adequate
                               assurance that funding would be available. The program office
                               did not generate a procurement request, provide an accurate
                               program budget, or develop a schedule for obtaining the necessary
                               funds. Lack of funding could cause delays in the supercomputer’s
                               delivery, which could in turn lead to delayed programmatic
                               benefits.

                       z       Solicitation provisions for advanced lease payments for the
                               new system were unclear. The National Centers for Environ-
                               mental Prediction included notes in the solicitation stating that
                               pricing should be broken out by fiscal year and giving the funding
                               limitations by year. The intent of these notes was to provide lease
                               payment for the equipment in advance of the period of

56                      Commerce IG Semiannual Report                                    March 1999
                                  National Oceanic and Atmospheric Administration


        performance. The solicitation’s provisions for these advanced
        payments were unclear and could have affected how offerors
        priced their proposals, leading to inaccurate or uncomparable
        proposals.

    We recommended that NOAA ensure that for all National Centers
acquisitions, (1) there is adequate acquisition planning so that funding and
budgeting issues are identified, (2) an approved procurement request is
forwarded to the contracting officer before contract award indicating that
funds will be available at the time of award, and (3) any decision to
provide advanced payments is adequately justified and that criteria cited in
the Federal Acquisition Regulation are adhered to and reflected in the
solicitation and contract. NWS and the National Centers agreed with our
recommendations. (Office of Systems Evaluation: OSE-10969)

NWS Agreements Need Better
Management and Oversight
    NOAA’s National Weather Service consists of 20 program offices that
support the agency’s mission of protecting human lives and property from
severe storms by issuing weather and flood warnings, public forecasts, and
advisories for the United States, its territories, adjacent waters, and ocean
areas. To accomplish their mission, NWS program offices often undertake
special projects, reimbursable activities, and programmatic efforts with
other governmental and non-governmental entities through interagency and
other special agreements. In FY 1997, NWS had 454 agreements in effect.

    As part of an OIG Department-wide review, we conducted an evalua-
tion of the effectiveness and efficiency of NWS’s process for entering into
agreements with departmental offices and outside parties (see page 17).
Based on our review of a sample of NWS’s agreements, we found that
they supported its mission, were appropriate funding mechanisms, and did
not constitute a substantial proportion of its budget resources. However,
we also found several aspects of the agreements processes that warrant
management attention:

z       Processes, policies, and guidance for preparing agreements
        need improvement. Agreements sometimes had deficiencies,
        including uncited programmatic or funding authorities, inadequate
        sole-source justifications, missing or unauthorized signatures, and
        no statement of specific duration. In addition, guidelines, policies,
        and procedures were limited in their usefulness for preparing
        agreements, were not up-to-date, and were not centrally located
        for easy reference.


March 1999                                Commerce IG Semiannual Report         57
National Oceanic and Atmospheric Administration


                       z       Process for reviewing agreements also needs improvement.
                               Agreements were not consistently reviewed during preparation,
                               written justifications were not required, no formal criteria existed
                               for the review of agreements by the Department’s Office of
                               General Counsel, and policies on the need for periodic review to
                               determine whether an agreement should be renewed, amended, or
                               canceled were not consistent or adequate.

                       z       Financial management of agreements needs attention. Some
                               agreements experienced financial problems, including unrecovered
                               costs on Economy Act agreements, inequitable apportionment of
                               costs for joint projects, and improper billing.

                       z       A database to inventory and track agreements is needed.
                               NWS had no comprehensive database or tracking system for its
                               agreements. Existing lists were incomplete and not easily sorted by
                               relevant type of information, such as legal authority or type of
                               agreement.

                            We recommended that NOAA require that NWS, when entering into
                       interagency agreements akin to traditional procurement contracts, adhere
                       to federal requirements for procurements by preparing proper justifications
                       and advertising sole-source contracts over $25,000. In addition, a compre-
                       hensive set of guidelines for preparing agreements that is consistent with
                       departmental guidance should be developed. Once these new guidelines
                       have been established, appropriate NWS staff should be trained on how to
                       properly prepare and process agreements.

                            Among our other recommendations were that NOAA disseminate
                       information for preparing and processing agreements through NWS’s
                       intranet and at appropriate NWS management and administrative meetings
                       and that it establish a centralized system to inventory, track, and control
                       NWS’s agreements that is compatible with the proposed Department-wide
                       agreements database. NOAA agreed with all of the report’s recommen-
                       dations. (Office of Inspections and Program Evaluations: IPE-10417)

                       West Virginia Awardee Overstated
                       Termination Settlement Costs
                           In March and May 1998, the OIG issued audit reports to NOAA and
                       EDA, respectively, describing inadequacies found in a West Virginia
                       foundation’s accounting and financial management system, which, along
                       with unforseen delays, prevented us from negotiating an indirect cost rate
                       (see March 1998 issue, page 47, and September 1998 issue, page 21). In
                       September 1998, we issued a report on our audit of the foundation’s actual

58                      Commerce IG Semiannual Report                                  March 1999
                                  National Oceanic and Atmospheric Administration


indirect costs for FY 1997 (see September 1998 issue, page 58). Mean-
while, in July 1997, NOAA officials and the foundation agreed to terminate
their cooperative agreement. The foundation claimed a total of $2.5 million
for the award period and termination costs associated with this agreement.

     Our audit of the foundation’s claims, including its termination
settlement costs, disclosed $442,000 in improperly claimed costs. We
questioned $387,000 as a result of the foundation’s overstatement of
termination settlement costs, including $292,000 associated with the loss of
projected grant revenues. In addition, we questioned $55,000 of unallow-
able project costs claimed for the approximately 17-month period of the
award prior to termination.

    We recommended that NOAA disallow the $442,000 in questioned
costs, disburse $325,000 to the foundation as its final award payment, and
deobligate the remaining $39,000 in award funds. In response to our draft
report, the foundation disagreed with the disallowance of the $292,000
claimed as unrecovered indirect costs. In addition, it disagreed with our
calculations of indirect costs and requested an additional $36,000 in legal
expenses to be included as direct project costs. However, the foundation
did not provide any new evidence or documentation sufficient to cause us
to change our findings and recommendations. (Atlanta Regional Office of
Audits: ATL-10634-9-0001)

In Brief
Conviction. In March 1999, a Florida fisherman and his wife pleaded
guilty to a one-count indictment charging them with conspiracy to defraud
the government through the filing of false claims under the Gulf of Mexico
Fisheries Disaster Program. Sentencing is scheduled for June in U.S.
District Court for the Northern District of Florida. (Denver Field Office of
Investigations)

Suspension. A senior NOAA official was given a 30-day suspension for
misuse of a government vehicle when an OIG investigation revealed that
he had used cars assigned to his office to commute between home and
work on numerous occasions over a period of approximately three years.
(Washington Field Office of Investigations)

Audit Reports Unresolved for Over Six Months
     As of March 31, 1999, two performance audit reports and one
financial assistance audit report had recommendations unresolved in excess
of six months.


March 1999                                Commerce IG Semiannual Report        59
National Oceanic and Atmospheric Administration


                       Light Aircraft Operations

                           The first performance audit report, Light Aircraft Fleet Should be
                       Privatized, STD-9952-8-0001 (see September 1998 issue, page 44),
                       recommended that NOAA cease operating its eight light fixed-wing aircraft
                       and three helicopters and release them, along with related spare parts. We
                       also recommended that NOAA discontinue all interagency reimbursable
                       work related to its fixed-wing light aircraft and helicopters.

                            NOAA did not concur with our findings and recommendations. NOAA
                       believes that discontinuing use of the aircraft would compromise its ability
                       to continue uninterrupted data collection efforts required to protect lives
                       and property, increase the risk of accidents, and increase the cost of
                       aircraft support. In addition, NOAA believes that interagency agreements
                       have proven to be cost-effective for meeting some of its data collection
                       needs. Nevertheless, NOAA has submitted an audit action plan, which we
                       are reviewing.

                       NMFS Laboratory Structure

                            The second performance audit report, NMFS Laboratory Structure
                       Should Be Streamlined, STL-8982-8-0001 (see March 1998 issue, page
                       39), recommended closing six laboratory facilities and transferring their
                       programs and personnel to other NMFS laboratories. In another instance,
                       we recommended that a laboratory and most of its programs be transferred
                       to the State of Maryland. We also recommended that the proposed Santa
                       Cruz, California, facility be expanded to accommodate programs and
                       personnel from another California laboratory. In addition, we differed with
                       NMFS’s plans to transfer some programs from a Seattle laboratory to the
                       proposed Auke Cape facility in Alaska.

                            NOAA disagreed with our findings and recommendations. In April
                       1998, the OIG requested NOAA to submit a revised audit action plan, and
                       subsequent meetings were held between OIG and NOAA officials. NOAA
                       submitted a revised plan in November 1998, but did not change its initial
                       position. Negotiations are ongoing between OIG and NOAA concerning
                       alternative approaches to resolution.

                       University of Hawaii

                           This financial assistance audit report, ATL-9999-5-0753 (see
                       September 1995 issue, page 99), was an OMB Circular A-133 audit that
                       questioned $1.1 million of claimed costs. In September 1998, NOAA
                       provided the OIG with a another draft revision to the audit resolution
                       proposal, which is under review.

60                      Commerce IG Semiannual Report                                  March 1999
          National Telecommunications
         and Information Administration

Audit of FY 1998 Financial Statements                                         The mission of the National
                                                                              Telecommunications and
    An IPA firm issued an unqualified opinion on NTIA’s FY 1998               Information Administration is to
financial statements. This is a noteworthy achievement, considering that      (a) serve through the Secretary of
four new financial statements were mandated by OMB Bulletin 97-01.            Commerce as the principal
The firm’s report did not identify any material weaknesses but did cite one   executive branch advisor to the
reportable condition in the bureau’s internal control over financial          President on domestic and
reporting: EDA’s financial management system, which is used to account        international communications and
                                                                              information policies, (b) ensure
for NTIA’s grant activity, does not comply with the U.S. Government
                                                                              effective and efficient federal use
Standard General Ledger at the transaction level. Although this issue is      of the electromagnetic spectrum,
considered to be a reportable condition to NTIA, corrective actions related   (c) develop with other federal
to EDA’s system are not within the purview of NTIA management.                agencies policies for international
                                                                              communications and standards-
    The firm also identified one issue of non-compliance with laws and        setting organizations, (d) serve as
regulations, which related to FFMIA. This issue also involves the above-      the federal telecommunications
mentioned deficiency in EDA’s grant accounting system.                        research and engineering center,
                                                                              and (e) administer grants under
     In reviewing a draft version of NTIA’s overview to its financial         the Telecommunications and
                                                                              Information Infrastructure
statements, we noted that NTIA incorporated many of our prior year
                                                                              Assistance Program and the
suggestions to strengthen this integral component of the statements.          Public Telecommunications
Bureau management was also responsive to our suggestions for improving        Facilities Program.
the overview for the FY 1998 statements. We encourage NTIA to make
continued improvements in performance measurement and reporting.
(Financial Statements Audits Division: FSC-10870-9-0001)

Grant Process Designed to Promote Merit-Based
Funding Decisions, but Needs More Discipline
    The OIG conducted audits of the FY 1997 award criteria, procedures,
and practices for soliciting, reviewing, and selecting financial assistance
applications under the Public Telecommunications Facilities Program
(PTFP) and the Telecommunications and Information Infrastructure
Assistance Program (TIIAP), as part of its Department-wide review of
discretionary financial assistance programs (see page 6).

     PTFP provides financial assistance in planning, acquiring, installing,
and modernizing public telecommunications facilities. The program targets
public or noncommercial education broadcast stations; noncommercial
telecommunications entities; systems of public telecommunications entities;
private nonprofit organizations established primarily for educational or
cultural purposes or that plan for the provision of public telecommuni-
cations services; state, local, and Indian tribal governments; and other
governmental agencies and subdivisions. In FY 1997, the program
awarded 97 grants totaling $14.1 million.

March 1999                               Commerce IG Semiannual Report                                          61
National Telecommunications and Information Administration


                                                         TIIAP provides financial assistance to nonprofit organizations, colleges
                                                    and universities, and state, local, and Indian tribal governments to promote
                       NTIA                         the widespread use of telecommunications and information technologies in
                                                    the public and non-public sectors. By providing targeted matching
                                                    demonstration and planning grants, the program helps develop nationwide,
                                      Policy
      Spectrum                                      interactive multimedia information infrastructures that are accessible to
                                    Analysis and
     Management
                                    Development     citizens in both rural and urban areas. In FY 1997, the program awarded
                                                    55 grants totaling almost $20.9 million.
     Telecom. and                   Institute for
      Information                    Telecom.
     Applications                    Sciences
                                                         We examined NTIA’s criteria, procedures, and practices for soliciting,
                                                    reviewing, and selecting awards under both programs and found that they
                                                    generally complied with statutory, departmental, and agency requirements
                    International
                       Affairs                      and appeared designed to promote merit-based funding decisions. We
                                                    found that NTIA (1) developed and published merit-based technical and
                                                    public policy criteria that were consistent with the programs’ objectives
                                                    and (2) complied with the Department and agency requirement to place a
                                                    notice in the Federal Register, at least annually, announcing the availability
                                                    of funds, soliciting award applications, and specifying the criteria and
                                                    process to be used in reviewing and selecting applications.

                                                         We also found that NTIA followed established requirements for the
                                                    competitive review of applications for TIIAP, but not totally for PTFP.
                                                    Specifically, NTIA program staff participated in review panels for PTFP
                                                    awards and routinely adjusted the independent reviewers’ scores or
                                                    composite evaluation scores without consulting with the reviewers. The
                                                    staff’s unilateral adjustment of evaluation scores has the potential to
                                                    undermine the independence and objectivity of the review process.

                                                         Moreover, although departmental and NTIA requirements for selecting
                                                    applications were followed for both programs, documentation was lacking
                                                    to explain the reasons for deviations from the program directors’ lists of
                                                    applications recommended for funding. For the year reviewed, we found
                                                    that the Assistant Secretary for Communications and Information, as the
                                                    selecting official, added nine applications to and deleted seven from the
                                                    TIIAP recommended funding list, and added three applications to the
                                                    PTFP list.

                                                         A memorandum concerning the additional PTFP applications noted
                                                    that the selecting official’s decision was made to achieve greater
                                                    geographical distribution, but did not provide specific reasons why certain
                                                    applicants were selected over others. In addition, there were no written
                                                    justifications for any of the seven deleted TIIAP applications, although the
                                                    official did provide justifications for the nine added applications.




62                                                   Commerce IG Semiannual Report                                   March 1999
              National Telecommunications and Information Administration


     We recommended that NTIA ensure that the bases for making awards
that deviate from the program director’s recommendations are adequately
documented. Additionally, we recommended that PTFP staff ensure that
independent reviewers’ scores are not adjusted by program staff during the
review process. NTIA agreed with our findings and recommendations and
has modified its financial assistance award process to implement our
recommendations. (Atlanta Regional Office of Audits: ATL-10945-9-0001
and ATL-10946-9-0001)

Audit Reports Unresolved for Over Six Months
Telecommunications Network Grant

    A financial assistance audit report, ATL-10378-8-0001 (see September
1998 issue, page 63), found that a nonprofit grantee’s financial manage-
ment system did not comply with federal standards because it did not
provide adequate assurance that only reasonable, allowable, and allocable
costs were claimed. We questioned $298,000 in costs, due mainly to a lack
of documentation, and recommended that the Department recover about
$106,000 in excessive grant disbursements. We recently received the audit
resolution proposal and are reviewing it.




March 1999                              Commerce IG Semiannual Report        63
                                      Patent and
                                      Trademark Office

The Patent and Trademark Office
                                      Audit of FY 1998 Financial Statements
administers the nation’s patent and
trademark laws. Patents are               For the sixth straight year, the OIG issued an unqualified opinion on
granted, and trademarks               PTO’s financial statements. We commend PTO for its successful
registered, under a system            implementation of both OMB Bulletin No. 97-01 and its new cost
intended to provide incentives to     accounting system. Our audit identified only one reportable condition,
invent, to invest in research, to     which related to the general controls associated with its Revenue
commercialize new technology,         Accounting and Management system (see below).
and to draw attention to inventions
that would otherwise go unnoticed.
                                          We recognize PTO’s hard work and commitment to sound financial
PTO also collects, assembles,
publishes, and disseminates           management and high-quality, meaningful financial reporting. As a result of
technological information disclosed   the bureau’s actions taken during FY 1998 to improve internal controls,
in patents.                           there are no longer reportable conditions relating to controls over property,
                                      analysis and monitoring of financial information, or timely deposits of cash
                                      receipts.

                                           In performing tests of compliance with applicable laws and regulations
                                      that have a material effect on PTO’s financial statements, we found no
                                      instances of noncompliance. (Financial Statements Audits Division: FSD-
                                      10898-9-0001)

                                      Revenue Accounting and Management System
                                      Needs Stronger General Controls
                                          PTO’s data center provides data processing support for the Revenue
                                      Accounting and Management system, which is used to process and
                                      account for fees collected. These fees totaled about $890 million in
                                      FY 1998. As part of its FY 1998 audits of PTO’s and the Department’s
                                      consolidated financial statements, the OIG conducted a review of the
                                      general controls associated with the system. Effective controls provide
                                      assurance that the data used to prepare the financial statements is reliable.

                                           We assessed the general controls related to the integrity, confiden-
                                      tiality, and availability of information associated with the Revenue
                                      Accounting and Management system. Our review focused on the adequacy
                                      and effectiveness of general controls in the following areas: (1) entity-wide
                                      security program planning and management; (2) access controls; (3) appli-
                                      cation software development and change controls; (4) system software
                                      controls; (5) segregation of duties; and (6) service continuity controls.

                                           Although our review disclosed certain weaknesses in all of these areas,
                                      we did not identify any instances of unauthorized access to the financial
                                      data. Nevertheless, the weaknesses, if not corrected, could hamper PTO’s
                                      ability to accurately record and report revenues on its financial statements.


64                                     Commerce IG Semiannual Report                                   March 1999
                                                                      Patent and Trademark Office

And any adverse effect on PTO’s statements could also affect the
Department’s consolidated statements.                                                     Patent and
                                                                                          Trademark
     We made a number of recommendations to address the identified                          Office
deficiencies. PTO agreed with our recommendations and has already
                                                                                 Assistant            Assistant
initiated corrective actions in several areas. (Financial Statements Audits    Commissioner        Commissioner
Division: FSD-10898-9-0002)                                                     for Patents        for Trademarks


Minor Internal Control Deficiencies                                             Associate
                                                                               Commissioner
                                                                                                          Chief
                                                                                                       Information
Found in Bankcard Program                                                        and CFO                  Officer


    In conjunction with an OIG plan to periodically review Commerce
units’ use of bankcards, we conducted an audit of FY 1997 PTO bankcard
transactions to determine whether purchases were made in compliance
with applicable federal and departmental requirements. During FY 1997,
PTO made more than 4,600 bankcard transactions, totaling nearly
$3.9 million.

    Our review disclosed minor internal control deficiencies in PTO’s
bankcard program that we believe can be prevented by strengthening
oversight by cognizant agency officials. Specifically, cardholders were not
always (1) maintaining statement records as required, (2) storing cards in a
secure location, and (3) maintaining training documentation on site. How-
ever, PTO was properly following other program requirements, such as
conducting an annual review of bankcard use and engaging in competitive
bidding when required. Moreover, we found few instances of split
purchases to avoid cardholder limits.

      Among our recommendations were that PTO ensure that cardholders
maintain statements and invoice documentation, physically secure cards at
all times, and keep training documentation on site. PTO agreed with our
findings and recommendations. (Business and Trade Audits Division:
BTD-10901-9-0001)

In Brief
Suspension. A patent examiner was suspended for 14 days after an OIG
investigation determined that he had expended official funds for an
unauthorized purpose and created the appearance of a loss of impartiality
when he ordered a translation of a foreign document to assist an applicant
with an international patent application while her U.S. patent application
was pending at PTO. The examiner also repaid the government $223 for
the cost of the unauthorized translation. (Washington Field Office of
Investigations)


March 1999                                Commerce IG Semiannual Report                                              65
                                      Technology
                                      Administration

The Technology Administration
                                      Audit of TA’s FY 1998 Financial Statements
serves the needs of technology-
based industry, advocates federal         As it had in the past three fiscal years, TA received an unqualified
actions and policies to speed the     opinion on its FY 1998 financial statements. The IPA firm conducting the
transfer of technology from the       audit did not identify any material weaknesses, reportable conditions, or
laboratory to the marketplace, and    instances of noncompliance with laws or regulations.
removes barriers for commer-
cializing new technologies by              We reviewed a draft version of TA’s overview to its financial state-
industry. It includes three major     ments. The bureau has incorporated many of our prior year suggestions to
organizations:
                                      strengthen this integral component of the statements, and was also
Office of Technology Policy. OTP
works to raise national awareness     responsive to our suggestions for improving the overview for the FY 1998
of the competitive challenge,         statements. We encourage TA to strengthen next year’s discussion of
promotes industry/government/         actual results and to continue efforts to improve performance measure-
university partnerships, fosters      ment and reporting. (Financial Statements Audits Division: FSC-10872-
quick commercialization of federal    9-0001)
research results, promotes
dedication to quality, increases      Acting IG Testifies on Audit and
industry’s access to and partici-
pation in foreign research and        Inspection Work at TA Agencies
development, and encourages the
adoption of global standards.             On February 11, 1999, the Acting Inspector General testified before
National Institute of Standards       the House Science Subcommittee on Technology to discuss the OIG’s
and Technology. NIST promotes         recent audit and inspection work on the Technology Administration’s
U.S. economic growth by working       programs and operations. He appeared a year earlier before the same
with industry to develop and apply
                                      Subcommittee to discuss TA’s FY 1999 budget request (see March 1998
technology, measurements, and
standards. NIST manages four          issue, page 63).
programs: the Advanced Technol-
ogy Program, the Manufacturing            His recent testimony focused on OIG work in six areas of TA’s
Extension Partnership Program, a      operations:
laboratory-based measurement
and standards program, and the        z       NIST’s Facilities Improvements Program, which includes
National Quality Program.                     renovation and construction of facilities at its Gaithersburg,
National Technical Information                Maryland, and Boulder, Colorado, locations. The OIG has
Service. NTIS is a self-supporting            concluded that most of NIST’s facilities plans were justified and
agency that promotes the nation’s
                                              necessary and that they had improved markedly in recent years.
economic growth and job creation
by providing access to voluminous             Nevertheless, given the magnitude of these expenditures, it is
information that stimulates                   essential that NIST, OIG, and Department officials continue to
innovation and discovery. NTIS                scrutinize the plans to ensure that all construction, renovation, and
accomplishes this mission through             maintenance plans are fully justified.
two major programs: information
collection and dissemination to the   z       NIST’s financial assistance programs, which we examined
public, and information and                   through several approaches, most notably as part of a
production services to federal                Department-wide review of Commerce discretionary funding
agencies.                                     programs (see page 6). We had reviewed three NIST programs at
                                              that time and found that they were using appropriate merit-based

66                                     Commerce IG Semiannual Report                                   March 1999
                                                                       Technology Administration


      criteria and competitive procedures in selecting applications for
      funding (see page 68). In addition, in the past year, we completed
                                                                                      Technology
      29 financial-related audits of first-time recipients of financial              Administration
      assistance awards under the ATP and MEP programs (see page
      71). We also have begun two performance audits of various
      aspects of NIST’s administration of ATP.
                                                                              NIST                    NTIS
z     NIST’s and NTIS’s systems compliance with federal Y2K
      requirements. NIST recently reported to the Department that
      107 of its 109 mission-critical systems were Y2K compliant and                   Technology
      that the other 2 systems were scheduled for conversion by the                      Policy
      March 31, 1999, deadline. NTIS, on the other hand, recently
      raised its number of noncompliant systems to 10. The
      Department’s Chief Information Officer expressed concern about
      NTIS’s ability to repair its systems by the deadline and has taken
      steps to closely monitor the agency’s progress. The OIG plans to
      do the same.

z     TA’s implementation of Government Performance and
      Results Act requirements in planning and measuring performance.
      Based on our review of the TA agencies’ overviews to their
      FY 1998 financial statements, we concluded that the Office of
      Technology Policy should continue to refine its performance
      measurement and reporting, that NIST continues to make
      improvements in addressing the formidable challenge of measuring
      the results of its investments in science and technology by using
      diverse sources of performance data, and that NTIS should
      continue to explore methods other than the number of products
      for measuring and reporting on its performance.

z     NTIS’s mission and its financial stability, which raise concerns
      about whether the organization will have sufficient funds to cover
      its operations in FY 1999 and beyond. We recommended that TA
      commission an outside review of NTIS’s operations for use in
      developing a business plan to address short- and long-term
      financial and business problems, and seeking relief from any of its
      legislative mandates, as appropriate (see page 14).

z     The FY 1998 financial statement audits of TA, NIST, and
      NTIS, all of which were expected to receive unqualified opinions,
      with no material weaknesses (see pages 66, 68, and 73).




March 1999                             Commerce IG Semiannual Report                                         67
Technology Administration


                       Audit of NIST’s FY 1998 Financial Statements
                            The IPA firm issued an unqualified opinion on NIST’s FY 1998
                       financial statements, representing the sixth straight year of clean opinions.
                       The firm did not identify any material weaknesses, reportable conditions,
                       or instances of noncompliance with laws or regulations.

                            In reviewing a draft version of NIST’s overview to its financial
                       statements, we noted that the bureau had incorporated many of our prior
                       year suggestions to strengthen this integral component of the statements.
                       We believe that NIST has made significant progress in its presentation of
                       performance results. NIST management was also responsive to our
                       suggestions for improving the overview for the FY 1998 and future
                       statements. (Financial Statements Audits Division: FSC-10868-9-0001)

                       NIST Discretionary Award Process
                       Promotes Merit-Based Funding Decisions
                           The OIG conducted audits of the FY 1997 award criteria, procedures,
                       and practices for soliciting, reviewing, and selecting financial assistance
                       applications under NIST’s Advanced Technology Program (ATP), Manu-
                       facturing Extension Partnership (MEP) program, and National Standard
                       Reference Data System (NSRDS) program as part of its Department-wide
                       review of Commerce’s discretionary financial assistance programs (see
                       page 6).

                       Advanced Technology Program

                           ATP is a cost-sharing program designed to help U.S. industry pursue
                       high-risk technologies with significant broad-based commercial and
                       economic benefits for the nation. The program enables award recipients to
                       pursue research and development projects that, because they are high-risk,
                       are unlikely to be developed without federal government financial support.

                           In FY 1997, NIST awarded 64 ATP cooperative agreements from
                       seven 1997 competitions and 8 additional cooperative agreements from a
                       1996 competition that were not funded in 1996 due to budget constraints.
                       NIST also processed 74 renewals of prior year cooperative agreements. In
                       total, NIST funded more than $216 million in FY 1997 ATP awards and
                       renewals.

                          Our review found that the criteria, procedures, and practices used by
                       NIST to solicit, review, and select ATP applications met the Department’s
                       minimum requirements and were generally adequate to support merit-

68                      Commerce IG Semiannual Report                                    March 1999
                                                                          Technology Administration


based funding decisions. Specifically, we found that NIST (1) used merit-
based technical and public policy criteria, (2) established adequate
procedures for reviewing ATP applications, and (3) followed established
procedures in soliciting, reviewing, ranking, and selecting applications for
funding.

     At the same time, we identified opportunities for improving the
program’s award procedures and practices. We found that NIST had a
minor deficiency in documenting the review of ATP applications. Although
established procedures were generally sufficient to provide an independent
and qualified competitive review of each applicant, the program staff failed
to mention 12 proposals submitted for four ATP competitions in the
Source Evaluation Board minutes. This issue was brought to the program
staff’s attention, and they have revised their procedures to prevent this
from happening again.

    In addition, NIST did not report the correct Catalog of Federal
Domestic Assistance category code number for three new ATP awards
and six award renewals. We recommended that NIST ensure that all future
ATP cooperative agreement award and renewal actions are reported under
the correct Catalog number. NIST agreed with our recommendation.

    As part of our review, we also followed-up on NIST’s handling of
recommendations included in three prior OIG audit reports (see September
1995 issue, page 71; March 1996 issue, page 60; and September 1997
issue, page 48) and a GAO report concerning NIST’s administration of the
ATP award selection process. We found that NIST had adequately
addressed the specific audit findings, including its failure to (1) document
the bases for selecting successful proposals, (2) document the rationale by
which Source Evaluation Boards overturned recommendations of proposal
reviewers, (3) adequately track award contingencies, and (4) sufficiently
involve grant office personnel in the review process. (Denver Regional
Office of Audits: DEN-10960-9-0001)

Manufacturing Extension Partnership Program

    The MEP program provides financial assistance to a nationwide
network of 75 not-for-profit centers to provide business assistance to small
and medium-sized manufacturers. The MEP-funded centers, located in all
50 states and Puerto Rico, are linked together through NIST, making it
possible for even the smallest manufacturers to have access to more than
2,000 manufacturing and business specialists.




March 1999                                Commerce IG Semiannual Report                          69
Technology Administration


                           In FY 1997, MEP processed 55 cooperative agreement actions, all
                       renewals, totaling nearly $79.5 million. Since NIST did not conduct a
                       competition for new awards in FY 1997, we focused our review on
                       FY 1996 competitive criteria, procedures, and practices, including follow-
                       up on NIST’s actions in implementing previous audit report recommenda-
                       tions, and NIST’s procedures for granting the renewal awards in FY 1997.

                           We found that NIST (1) had taken appropriate steps to improve its
                       MEP center selection process, as we recommended earlier (see September
                       1994 issue, page 56), (2) used merit-based criteria for funding decisions,
                       and (3) followed established procedures in reviewing, selecting, and
                       renewing awards.

                            However, NIST failed in its 1996 solicitation notice to meet the
                       minimum departmental requirements for identifying the intended funding
                       instrument and discussing the proposal review criteria and process. NIST
                       did mitigate this failure by mailing supplemental information packages to
                       278 interested parties.

                            In addition, all proposal reviewers were members of the MEP program
                       staff, a situation that could raise questions about the independence and
                       objectivity of the process. We also noted an additional minor deficiency as
                       NIST recorded several 1997 MEP award renewals under an incorrect
                       Catalog of Federal Domestic Assistance code number. As a result, the
                       Department received inaccurate data for tracking awards.

                           We recommended that NIST ensure that future MEP solicitation
                       notices meet the Department’s minimum requirements, invite participants
                       from outside NIST and the Department to serve as proposal reviewers to
                       enhance the objectivity of the selection process, and report award renewals
                       under the correct Catalog number.

                            NIST agreed with our findings and recommendations and will ensure
                       that any future MEP center solicitations comply with the minimum
                       requirements and will involve outside proposal reviewers. In addition,
                       NIST will report the proper Catalog category number on all future MEP
                       award actions. (Denver Regional Office of Audits: DEN-10959-9-0001)

                       National Standard Reference Data System Program

                           Under the NSRDS program, NIST offers grants and cooperative
                       agreements to academic institutions, nonfederal agencies, and independent
                       and industrial laboratories. The aim of the program is to provide critically
                       evaluated numerical data to the scientific and technical community in a
                       convenient, accessible form.

70                      Commerce IG Semiannual Report                                  March 1999
                                                                             Technology Administration


    In FY 1997, NSRDS processed only one award action—a $57,896
renewal of a cooperative agreement initially awarded on a competitive
basis in 1994. Since NIST did not conduct a competition for new awards
in FY 1997, we focused our audit on the FY 1994 competition procedures
and practices. This was the most recent NSRDS competition, and NIST
does not anticipate conducting any competitions in the foreseeable future.

     We found that although NIST developed appropriate merit-based
criteria for evaluating NSRDS applications and followed adequate
procedures and practices for selecting awardees, there were four minor
deficiencies in the solicitation and review processes. Specifically, NIST
(1) failed to comply with departmental guidance by inappropriately
identifying two types of funding instruments in its 1994 solicitation notice,
(2) did not publish annual program notices in the Federal Register, (3) did
not maintain written records of the findings of one of three proposal
evaluators, and (4) weakened the objectivity of the review process by only
using in-house reviewers. We made recommendations to correct these
minor deficiencies.

    Although there are no current plans to solicit applications for NSRDS
funding, NIST agreed to implement our recommendations in the event of
future award competitions. (Denver Regional Office of Audits: DEN-
10962-9-0001)

Accounting System Surveys and Audits
of NIST Financial Assistant Recipients
    As noted in earlier issues of this report, the OIG has been performing a
series of accounting system surveys of first-time recipients of financial
assistance awards under NIST’s Advanced Technology and Manufacturing
Extension Partnership programs (see, for example, September 1998 issue,
page 70). During this semiannual period, key aspects of our work on NIST
financial assistance programs involved conducting surveys and audits of
recipients under ATP. No audits or surveys were performed of MEP
program recipients.

     During the period, we reported on eight NIST-requested audits
performed pursuant to a memorandum of understanding. We conducted
audits of five joint venture partners and three single recipients. In its effort
to improve the financial management of its multibillion-dollar ATP
program, NIST requested that we perform seven accounting system
surveys and interim cost audits, and one final cost audit of a specific
cooperative agreement. The cooperative agreements we reviewed averaged
about $2 million each. Accounting system surveys and interim cost audits


March 1999                                  Commerce IG Semiannual Report                           71
Technology Administration


                       are intended to prevent future problems of noncompliance with the terms
                       and conditions of NIST cooperative agreements. The final cost audit
                       provided information to enable NIST to close out the agreement in a
                       timely fashion.

                            The surveys and the interim cost audits disclosed only minor costs
                       questioned and adequate compliance with NIST financial requirements in
                       all but one case, in which we recommended terminating an agreement for
                       noncompliance. The final cost audit disclosed significant questioned costs.
                       (Denver Regional Office of Audits: DEN-10737-9-0001, DEN-10763-9-
                       0001, DEN-10791-9-0001, DEN-10909-9-0001, DEN-10921-9-0001,
                       DEN-10934-9-0001, DEN-10980-9-0001, and DEN-11121-9-0001)

                       NIST Properly Handled Superfund
                       Interagency Agreement with EPA
                           Under interagency agreements with the Environmental Protection
                       Agency (EPA), NIST conducts technical research to develop methods to
                       counteract the effects of toxic waste spills. Funds appropriated for these
                       agreements are made available through the Hazardous Substance Response
                       Trust Fund, known as the Superfund, which is used to identify the nation’s
                       hazardous waste sites, assign priorities to the risks they create, and work to
                       eliminate those risks. During FY 1998, one NIST operating unit—the
                       Technology Laboratory—received Superfund monies under an interagency
                       agreement. The total of $862,000 received was obligated during the year.

                           The Superfund Amendments and Reauthorization Act of 1986
                       requires the OIG to audit all Commerce payments, obligations, reimburse-
                       ments, and other uses of the Superfund annually to ensure that it is being
                       properly administered. During this semiannual period, we conducted an
                       audit to determine whether NIST had properly managed the financial
                       aspects of the Superfund agreement entered into with EPA during
                       FY 1998.

                            We determined that NIST had accurately accumulated, documented,
                       and charged the Superfund for reimbursable costs under the agreement;
                       funds had been received in advance for all work performed; the agency
                       was in compliance with the relevant financial provisions of the legislation
                       that created the Superfund and the terms and conditions of the agreement;
                       and controls over Superfund activities were adequate. As a result, we
                       made no recommendations. (Business and Trade Audits Division: BTD-
                       11485-9-0001)




72                      Commerce IG Semiannual Report                                   March 1999
                                                                             Technology Administration


Audit of NTIS’s FY 1998 Financial Statements
     An IPA firm issued an unqualified opinion on NTIS’s FY 1998
financial statements. The firm did not identify any material weaknesses in
the agency’s internal control over financial reporting. However, the firm
did cite one reportable condition and one instance of material
noncompliance under FFMIA. These problems both involved NTIS’s
failure to use the proper U.S. Government Standard General Ledger
accounts to summarize the results of its budgetary transactions. As a
result, the bureau’s financial management systems do not comply with the
requirements of FFMIA.

     NTIS’s unfavorable financial position at the end of FY 1998 and prior
year trends in costs and revenues caused the IPA firm to increase its audit
scope to include procedures to determine whether the bureau had a “going
concern” issue for FY 1999. After reviewing NTIS’s financial position and
its FY 1999 annual plan, the firm concluded that the bureau did not have a
going concern issue for 1999. However, we believe that management
should closely monitor NTIS’s financial position. If the bureau continues
to post losses at the current rate, it will not have sufficient funds to sustain
itself. NTIS has requested a FY 2000 appropriation of about $2 million.

     In reviewing a draft version of NTIS’s overview to its financial
statements, we noted that the bureau had incorporated many of our prior
year suggestions to strengthen this integral component of the statements.
NTIS management was also responsive to our suggestions for improving
the overview for the FY 1998 and future statements. (Financial
Statements Audits Division: FSC-10871-9-0001)




March 1999                                  Commerce IG Semiannual Report                           73
                                              Departmental Management

                                              Financial Statements Audits
                   CFO and
             Assistant Secretary
                                                  The OIG is responsible for performing the annual audit of the
              for Administration
                                              Department of Commerce’s consolidated financial statements under the
         Chief                                provisions of the CFO Act, as amended by the Government Management
      Information                  Security   Reform Act of 1994. During this semiannual period, the Department
         Officer
                                              prepared its third set of consolidated financial statements. We issued an
                                              unqualified opinion on the consolidated Balance Sheet and a disclaimer of
        Budget
                               Financial      opinion on the consolidating Statements of Net Cost and Changes in Net
                              Management
                                              Position, and the combined Statements of Budgetary Resources and
                                              Financing (see page 76).
     Management                 Human
         and                   Resources           In addition to reporting on the Department’s consolidated financial
     Organization             Management
                                              statements, we issued individual audit reports on the Department’s
                                              14 reporting entities. Eleven entities (BXA, EDA, ESA/BEA, MBDA,
      Acquisition                    Civil    NIST, NTIA, NTIS, PTO, TA, the Department’s Working Capital Fund,
     Management                     Rights
                                              and its Salaries and Expense Fund) received unqualified opinions on their
                                              financial statements. Two other entities, Census and NOAA, received
     Administrative
                               Small and      unqualified opinions on their balance sheets with a disclaimer of opinion on
                             Disadvantaged    their remaining statements. The Department’s Franchise Fund received a
      Operations
                             Business Util.
                                              disclaimer of opinion on all financial statements. We did not audit ITA’s
                                              financial statements due to the continued existence of material weaknesses.
                 Exec. Budgeting
                 and Assistance               Instead, certain procedures were performed to support our audit work on
                  Management                  the Department’s consolidated financial statements.

                                                   The Department made significant improvements in financial
                                              management during FY 1998, as evidenced by the Department and four
                                              bureaus receiving improved audit opinions on their financial statements
                                              (see chart on the following page). In addition, there was a significant
                                              reduction in the number of material weaknesses and reportable conditions
                                              at both the Department and bureau levels. Despite the improvements in
                                              internal control and the receipt of an unqualified opinion on the consoli-
                                              dated Balance Sheet, obtaining an unqualified opinion on all statements will
                                              not be easy. Until NOAA and Census, whose statements are material to
                                              the Department, receive other than disclaimers on their remaining
                                              statements, the Department will be precluded from receiving an unqualified
                                              opinion on its FY 1999 consolidated statements.

                                                   Section 803 of FFMIA requires agencies to determine whether they
                                              are in substantial compliance with the act. If not, they are required to
                                              prepare a remediation plan outlining the actions needed to bring them into
                                              substantial compliance within three years. Based in part on our audit of the
                                              FY 1997 financial statements, the Department concluded it was not in
                                              substantial compliance with FFMIA. Accordingly, the Department
                                              developed an action plan to correct the material weaknesses and reportable

74                                             Commerce IG Semiannual Report                                  March 1999
                                                                             Departmental Management


          Entity       FY 1994          FY 1995              FY 1996              FY 1997                FY 1998
    Department                                        Disclaimer             Disclaimer             Balance Sheet
                                                                                                    Unqualified; All Other
                                                                                                    Statements Disclaimer
    BXA              Survey          Disclaimer       Disclaimer             Balance Sheet          Unqualified
                                                                             Unqualified; Income
                                                                             Statement Disclaimer
    Census           Disclaimer      Balance Sheet    Balance Sheet          Balance Sheet          Balance Sheet
                                     Qualified        Qualified; Income      Unqualified; Income    Unqualified; All Other
                                                      Statement Disclaimer   Statement Disclaimer   Statements Disclaimer
    EDA              Disclaimer      Disclaimer       Disclaimer             Balance Sheet          Unqualified
                                                                             Qualified; Income
                                                                             Statement Disclaimer
    ESA/BEA          Balance Sheet   Unqualified      Unqualified            Unqualified            Unqualified
                     Unqualified
    Franchise Fund                                                           Disclaimer             Disclaimer

    ITA              Disclaimer      Disclaimer       Disclaimer             Disclaimer             *

    MBDA             Survey          Balance Sheet    Unqualified            Unqualified            Unqualified
                                     Unqualified
    NIST             Unqualified     Unqualified      Unqualified            Unqualified            Unqualified

    NOAA             Disclaimer      Disclaimer       Disclaimer             Balance Sheet          Balance Sheet
                                                                             Qualified; Income      Unqualified; All Other
                                                                             Statement Disclaimer   Statements Disclaimer
    NTIA             Unqualified     Unqualified      Unqualified            Unqualified            Unqualified

    NTIS             Unqualified     Unqualified      Balance Sheet          Balance Sheet          Unqualified
                                                      Qualified; Income      Unqualified; Income
                                                      Statement Disclaimer   Statement Disclaimer
    PTO              Unqualified     Unqualified      Unqualified            Unqualified            Unqualified

    S&E Fund                         Disclaimer       Balance Sheet          Unqualified            Unqualified
                                                      Qualified; Income
                                                      Statement Disclaimer
    TA                               Balance Sheet    Unqualified            Unqualified            Unqualified
                                     Unqualified
    WCF              Balance Sheet   Unqualified      Unqualified            Unqualified            Unqualified
                     Unqualified
    Note: Definitions of the types of opinions appear on page 104.
    * Unaudited - certain agreed upon procedures were performed.




March 1999                                 Commerce IG Semiannual Report                                                     75
Departmental Management


                     conditions, with the goal of getting an unqualified opinion on its FY 1999
                     financial statements. Each quarter, the Department reports the current
                     status of its corrective actions to OMB.

                          In our view, the action plan, along with the quarterly status reports to
                     OMB, meets the definition of a remediation plan. For the quarter ending
                     March 31, 1999, the Department planned to revise its report to OMB to
                     reflect actions needed to correct material weaknesses and reportable
                     conditions identified in the FY 1998 financial statements audits. The OIG,
                     under Section 804(b) of FFMIA, is required to notify the Congress when
                     the Department does not meet intermediate target dates in the remediation
                     plan. We did not identify any instances that would necessitate our notifying
                     the Congress.

                          During the FY 1997 and FY 1998 audit cycles, we reviewed the
                     overview to the financial statements for the Department and individual
                     bureaus, providing comments to management. The overviews serve as a
                     link between GPRA and the financial statements. We emphasized the need
                     to improve performance measurement and reporting, providing suggestions
                     where improvements could be made. We have also provided advice and
                     consultation to the Department on the implementation of GPRA and link-
                     age to the financial statements. The Department’s FY 2000 performance
                     plan reflected many of our suggestions. The Department was responsive to
                     our comments on its consolidated financial statements. In particular, the
                     Department revised its overview and statement of net cost to improve the
                     linkage between strategic planning and financial reporting. Senior
                     Commerce officials should continue to improve financial management and
                     make GPRA implementation one of their top priorities.

                     Audit of the Department’s FY 1998
                     Consolidated Financial Statements
                         The OIG issued an unqualified opinion on the Department’s FY 1998
                     consolidated Balance Sheet and a disclaimer of opinion on the consoli-
                     dating Statements of Net Cost and Changes in Net Position, and the
                     combined Statements of Budgetary Resources and Financing. The
                     disclaimer of opinion on the FY 1997 financial statements precluded us
                     from issuing an opinion on these FY 1998 financial statements because the
                     October 1, 1997, opening financial statement balances were not audited.

                         Although significant improvements have been made in financial
                     management, further improvements are needed. Our review of internal
                     control at the Department for FY 1998 disclosed six material weaknesses,
                     which involved the need for improvements in (1) financial management,


76                    Commerce IG Semiannual Report                                  March 1999
                                                                         Departmental Management


(2) financial systems, (3) controls over property, (4) controls over
undelivered orders and accounts payable, (5) controls over grants, and
(6) reconciliations. There were two other reportable conditions, relating to
needed improvements in the preparation of the overview and controls over
cash receipts and accounts receivable.

    The unqualified opinion on the Department’s FY 1998 Balance Sheet
represented a marked improvement from the disclaimer of opinion on its
FY 1997 financial statements. There was also a reduction of departmental
material weaknesses and reportable conditions, and we did not identify any
new material weaknesses or reportable conditions at the Department level.

     In performing tests of compliance with certain provisions of applicable
laws and regulations, we noted several material instances of noncompli-
ance. Specifically, the Department was not in substantial compliance with
the requirements of FFMIA, in part because it does not meet the require-
ments for a single, integrated financial system. The Department reporting
entities did not fully comply with federal accounting standards, and four
financial systems did not meet the requirement of complying with the U.S.
Government Standard General Ledger at the transaction level. In addition,
our tests of compliance with other applicable laws and regulations at the
individual entities disclosed material instances of noncompliance at ITA
(see page 36) and NOAA (see page 51).

    The Department concurred with our recommendations for corrective
action and will prepare an audit action plan to address them. To achieve an
unqualified opinion in future years, the Department must focus on meeting
three challenges:

z       Although two of the Department’s most significant reporting
        entities, NOAA and the Census Bureau, received unqualified
        opinions on their Balance Sheets, their four remaining financial
        statements received disclaimers of opinion. These entities must
        identify and resolve any potential impediments in the preparation
        and audit of these statements.

z       ITA’s FY 1999 financial statements will be audited. Because the
        FY 1998 statements were not audited, this will constitute, in
        essence, a first year audit. Typically, federal organizations are not
        able to receive an opinion on all financial statements on a first-year
        audit.

z       Existing material weaknesses at the Department and entity levels
        need to be corrected. (Financial Statements Audits Division:
        FSD-10899-9-0001)

March 1999                                Commerce IG Semiannual Report                       77
Departmental Management


                     Department Is Working to Improve Accuracy
                     of Reporting on Y2K Compliance Status
                          Like other governmental and private organizations, Commerce needs
                     to fix its year 2000 computer problem to ensure that its business operations
                     are not disrupted as a result of the improper functioning of its critical
                     systems. If these systems are not Y2K compliant, services crucial to our
                     nation’s well-being—such as weather forecasting, the 2000 Decennial
                     Census, economic reporting, export license enforcement, and intellectual
                     property protection—could be jeopardized.

                          In May 1997, OMB began requiring federal agencies to file quarterly
                     reports on their progress in making critical systems Y2K compliant. In
                     November 1998, Commerce reported that 80 percent (367 of 458) of its
                     critical systems were compliant. In February, after our report was
                     completed, Commerce reported that 86 percent of its critical systems were
                     compliant and that 97 percent were expected to be compliant by the
                     March 31, 1999, deadline set by OMB.

                         As part of a series of OIG reviews focusing on the Department’s Y2K
                     Conversion Program, we examined whether the number of compliant sys-
                     tems reported to OMB accurately reflected the status of the Department’s
                     systems. We identified several deficiencies that diminished the accuracy of
                     the Department’s reporting:

                     z       The reported number of compliant systems was misleading.
                             This number was biased by a combination of factors: in some
                             cases, bureaus reported systems to be compliant that were not; in
                             other cases, bureaus included non-critical systems that were easily
                             made compliant.

                     z       Critical systems were not properly identified. The bureaus may
                             not have adequately performed a criticality assessment and have
                             had difficulty identifying their critical systems. Five of the
                             14 systems we assessed were not critical.

                     z       Evidence is lacking to validate compliance. When we asked the
                             bureaus for test documentation to substantiate that systems were
                             compliant, very little documentation was available for 8 of the
                             14 systems.

                         We are concerned that the inaccurate statistics on compliant systems
                     can give the impression that the bureaus are making significant progress
                     when the most difficult Y2K conversions may still remain.


78                    Commerce IG Semiannual Report                                 March 1999
                                                                         Departmental Management


    Commerce has begun addressing its weaknesses, as identified by both
the OIG and the Department’s Chief Information Officer, by emphasizing
sound business management practices in its Y2K Conversion Program and
establishing a process for validating compliance. This effort should
increase confidence that the bureaus’ most critical systems are selected for
Y2K conversion, compliance is substantiated, and officials receive the
status information they need to manage their Y2K programs.

     To reinforce the Department’s actions, we recommended that it ensure
that (1) the bureaus prioritize their Y2K efforts by identifying and focusing
resources on the most critical systems within core business functions that
have the greatest risk of Y2K failures, (2) the bureaus comply with the
requirements to provide test documentation for compliant systems and
have operating unit heads attest that systems are compliant, (3) special
efforts are taken to ensure the accuracy and completeness of the Depart-
ment’s quarterly report to OMB, and (4) progress of the most critical,
high-risk systems is monitored through frequent Department reviews.

     The Department agreed with our findings and said it would implement
two of our four recommendations. As for the other two, it suggested
alternative courses of action that we considered responsive to the
recommendations. (Office of Systems Evaluation: OSE-10924)

Audit of the WCF’s and S&E Fund’s
FY 1998 Financial Statements
     An IPA firm issued an unqualified opinion on the FY 1998 financial
statements of General Administration’s Working Capital Fund (WCF) and
Salaries and Expenses (S&E) Fund. One management team operates both
funds under the same internal control structure and procedures for
compliance. The IPA firm did not identify any material weaknesses, but
did identify two reportable conditions in WCF and S&E’s internal control
over financial reporting. They involved the need for improved controls
surrounding the Financial Accounting and Reporting System and property.

     Concerning the first reportable condition, an FY 1997 OIG review
performed at the Department’s Office of Computer Services identified
several issues relating to the general controls surrounding the mainframe
system used to process FARS. The majority of these issues were not
corrected during FY 1998. Therefore, the IPA firm considers these issues
to be a reportable condition to WCF and S&E because FARS processes
the financial information used in preparing the two agencies’ financial
statements. However, the reportable condition is not under the control of
WCF and S&E management.


March 1999                                Commerce IG Semiannual Report                       79
Departmental Management


                           The second condition relates to problems in the WCF and S&E
                      property retirement process that resulted in discrepancies between the
                      subsidiary property ledger and the capitalized property records in the
                      FARS accounting system. Because these discrepancies dealt with
                      property that was fully depreciated, the impact on the financial
                      statements was not material. However, corrections should be made to
                      bring the ledger and FARS into agreement.

                           The firm also identified one instance of material non-compliance
                      with laws and regulations related to FFMIA. Specifically, FARS does not
                      maintain sufficient commonality of data elements and transactions
                      processing to ensure timely, accurate, and effective financial reporting,
                      as required by federal guidance.

                           In reviewing a draft of the overviews to WCF’s and S&E’s financial
                      statements, we found that the agencies had incorporated many of our
                      prior year suggestions for improving the clarity and conciseness of the
                      overview. Management was also responsive to our comments on the
                      FY 1998 overviews. WCF and S&E should strengthen discussion of
                      performance, such as by providing comparisons of actual results to
                      benchmarks and explanations of variances. (Financial Statements
                      Audits Division: FSC-10873-9-0001)

                      Audit of the Franchise Fund’s
                      FY 1998 Financial Statements
                          An IPA firm issued a disclaimer of opinion on the FY 1998 Balance
                      Sheet of General Administration’s Franchise Fund because of
                      deficiencies in the Fund’s accounting records and internal control over
                      financial reporting, as well as the unknown financial impact of an
                      ongoing review of certain aspects of its procurement process. The
                      Fund’s remaining financial statements were not audited, having been
                      excluded from the scope of the audit because of the effects of the
                      previous year’s disclaimer of opinion.

                          Despite the contractor’s disclaimer of opinion, the Fund’s
                      management and staff have made progress since the previous year’s
                      audit. The FY 1997 audit identified four material weaknesses and two
                      other reportable conditions, whereas the FY 1998 audit had only one
                      material weakness and three other reportable conditions. The material
                      weakness involved the need for improvement in controls surrounding
                      accounts payable and year-end estimated expenses. The other reportable
                      conditions dealt with needed improvements in controls over the financial
                      accounting and reporting system, accounts receivable and collections,
                      and the recording and documentation of fixed assets.

80                   Commerce IG Semiannual Report                                 March 1999
                                                                       Departmental Management


    The IPA firm also identified one instance of material non-compliance
with laws and regulations in that the Fund’s financial management system
was not in substantial compliance with federal financial systems require-
ments. We also reviewed and commented on a draft version of the Fund’s
overview to its FY 1998 financial statements. Fund management was
responsive to our observations and recommendations and indicated its
plans to make additional revisions to strengthen its future overviews.
(Financial Statements Audits Division: FSC-11029-9-0001)

Office of Security Needs to Improve
Planning and Procedures As It Reorganizes
    Real and perceived lapses in security involving a former political
appointee brought a great deal of attention to the management of security
at Commerce. To restore any loss of confidence in the Department’s
security program, Secretary Daley called for both internal and external
reviews of security operations. These reviews concluded that the
Department’s entire security function should be strengthened.

     The Secretary responded by establishing a high-level position of
Deputy Assistant Secretary for Security and ordering the consolidation of
nearly all departmental security personnel who were formerly employed by
various Commerce bureaus and operating units. A phased implementation
of this consolidation began in August 1998.

    At the request of the new Deputy Assistant Secretary for Security, the
OIG conducted a review of the Office of Security’s administrative
operations to help identify problems that could be solved as the office
undergoes its reorganization. We also assessed the office’s readiness to
take on an expanded role in the security of the Department’s bureaus.

     We found a dedicated security management team and staff who were
working hard to redefine relationships with the bureaus and to improve the
office’s effectiveness. For example, the Department reduced its number of
security clearances by 27 percent between August 1997 and February
1998, and has established a system of periodic, unannounced reviews of
security practices and regularly scheduled inspections of Commerce offices
that handle classified information.

     Despite this progress, we found several operational and administrative
problems that could reduce the efficiency and effectiveness of the Office
of Security as it consolidates and takes on new administrative responsi-
bilities. To address these problems, we recommended, among other things,
that the office (1) complete its consolidation plans for the Department’s


March 1999                               Commerce IG Semiannual Report                      81
Departmental Management


                     field security functions; (2) revise its draft organizational plan so that the
                     budget and administrative operations functions report as one entity to
                     senior officials; (3) draft an information technology plan that considers a
                     full range of practical applications to maximize the use of office resources;
                     (4) implement incident tracking software to help track, record, and analyze
                     incidents Department-wide; (5) increase the pool of special agents available
                     for protecting the Secretary; and (6) assess all options thoroughly before
                     selecting a central inventory control system.

                         In response to our report, the Office of Security identified steps that it
                     was taking to comply with the intent of most of our recommendations.
                     (Office of Inspections and Program Evaluations: IPE-11331)

                     Classified Document Tracking
                     System Needs Improvements
                         During our review of Office of Security functions, we identified
                     several vulnerabilities in the Department’s classified documents tracking
                     system that could allow unauthorized individuals access to the system.
                     Because of the sensitivity of these issues, we decided to deal with them in
                     a separate report, in which we discussed the issues and made recom-
                     mendations for correcting them. (Office of Inspections and Program
                     Evaluations: IPE-11630)

                     In Brief
                     Settlement. In December 1998, the U.S. Treasury received $2.25 million
                     from a major government contractor under the Defense Department’s
                     Voluntary Disclosure Program, resulting from the company’s earlier
                     disclosure that its automated inventory system contained a defect that
                     caused delivery of reworked computer equipment or parts under contracts
                     awarded by the Departments of the Army, the Navy, the Air Force, and
                     Commerce. The payment included $92,000 in damages and accrued
                     interest allocable to several NOAA and Census contracts. In support of the
                     Justice Department’s investigation of the disclosure, the OIG identified
                     noncompliant parts delivered on the Commerce contracts and recom-
                     mended an appropriate discount figure for calculating the damages.
                     (Financial Fraud Unit)

                     Demotion. An Office of Administration employee was demoted and
                     removed from his responsibilities as a contracting officer’s technical
                     representative after an OIG investigation revealed that he had borrowed a
                     substantial amount of money from a contract employee working on the
                     contract for which he served as technical representative. In addition, we

82                    Commerce IG Semiannual Report                                    March 1999
                                                                         Departmental Management


established that he had lied in a sworn statement given in a prior
investigation in which he denied ever borrowing money from a contract
worker. The employee had been previously disciplined for engaging in
improper financial dealings with the contractor and for misusing govern-
ment time and equipment. (Washington Field Office of Investigations)

Federal Managers’ Financial Integrity Act
    Under the Federal Managers’ Financial Integrity Act of 1982 (Public
Law 97-255), executive agency heads are required to report annually to
the President and the Congress on the adequacy of their accounting and
management control systems. The annual report identifies material
weaknesses and actions being taken to correct them.

     Personnel from the OIG and the Department’s Office of the CFO
work together to assist bureaus in identifying their material weaknesses.
For 1999 the Secretary reported the four material weaknesses listed below,
all of which were reported in previous years and all of which are on our list
of the top 10 management challenges facing the Department. Although
progress has been made in each of these areas, they remain areas of
serious concern for the Department.

z       Modernization of the National Weather Service (NOAA).

z       Development of a plan to explore alternative ways of meeting
        marine and aeronautical data gathering needs (NOAA).

z       Financial Systems (Department-wide).

z       Management of the Design and Implementation of the 2000
        Decennial Census (Census).

Preaward Financial Assistance Screening
    We continue to work with the Office of Executive Assistance
Management, NOAA and NIST grant offices, and EDA program offices to
screen all of the Department’s grants, cooperative agreements, and loan
guarantees before award. Our screening (1) provides information on
whether the applicant has unresolved audit findings and recommendations
on earlier awards, and (2) determines whether a name check or investi-
gation has revealed any negative history on individuals or organizations
connected with a proposed award.




March 1999                                Commerce IG Semiannual Report                       83
Departmental Management


                         During this period, we screened 671 proposed awards. On 12 of these
                     awards, we found that the required information for name checks had not
                     been provided, and/or that there was adverse information in the name
                     check file that required us to obtain and review additional information. All
                     the concerns were satisfactorily resolved and the awards were subse-
                     quently made. (Office of Audits)


                                          Preaward Screening Results

                                       Results                     Number            Amount
                       Awards denied/delayed                           12           $80,185,673

                       Special award conditions                         0                       0

                       Cost reimbursement basis                         0                       0



                     Indirect Cost Reviews
                          OMB has established a policy whereby a single federal agency is
                     responsible for the review, negotiation, and approval of indirect cost rates
                     for public and private entities receiving funds under various federal
                     programs. Normally, the federal agency providing the most direct funding
                     to an entity is designated as its cognizant agency. OMB has designated
                     Commerce as the cognizant agency for 280 economic development
                     districts, as well as a number of state and local government units. From
                     time to time, the Department also has oversight responsibilities for other
                     recipient organizations. The Department has authorized the OIG to
                     negotiate indirect cost rates and review cost allocation plans on its behalf.
                     The OIG reviews and approves the methodology and principles used in
                     pooling indirect costs and establishing an appropriate base for distributing
                     those costs to ensure that each federal, state, and local program bears its
                     fair share.

                         During this period, we negotiated 19 indirect cost rate agreements with
                     non-profit organizations and governmental agencies, and reviewed and
                     approved 28 cost allocation plans. We also provided technical assistance to
                     recipients of Commerce awards regarding the use of rates established by
                     other federal agencies and their applicability to our awards. Further, we
                     have worked closely with first-time for-profit recipients of Commerce
                     awards to establish indirect cost proposals that are acceptable for OIG
                     review. (Atlanta Regional Office of Audits)



84                    Commerce IG Semiannual Report                                    March 1999
                                                                       Departmental Management


Nonfederal Audit Activities
     In addition to OIG-performed audits, the Department’s financial
assistance programs are audited by state and local government auditors and
by independent public accountants. OMB Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations, sets forth the audit
requirements for most of these entities. Entities that are for-profit
organizations and receive ATP funds from NIST are audited in accordance
with Government Auditing Standards and NIST Program-Specific Audit
Guidelines for ATP Cooperative Agreements, issued by the Department.
(Before June 30, 1996, when the requirements for nonfederal audits were
consolidated in the new OMB Circular A-133 referenced above, such
audits were subject to the requirements of Circular A-128, Audits of State
and Local Governments, and the former Circular A-133, Audits of
Institutions of Higher Education and Other Non-Profit Institutions. Some
of the audits discussed below were conducted in accordance with these
earlier circulars.)

    We examined 288 audit reports during this semiannual period to
determine whether the reports contained audit findings on any Department
programs. For 129 of these reports, the Department acts as cognizant
agency and monitors the auditee’s compliance with the applicable OMB
circulars or the NIST program-specific reporting requirements. The other
159 reports are from entities for which other federal agencies have
oversight responsibility.


                                                                 ATP
                                               OMB            Program-
                                              A-133            Specific
             Report Category                  Audits            Audits       Total

    Pending (October 1, 1998)                    30               31          61

    Received                                    296               89         385

    Examined                                    248               40         288

    Pending (March 31, 1999)                     78               80         158




March 1999                              Commerce IG Semiannual Report                       85
Departmental Management


                         The following table shows a breakdown by bureau of the $270 million
                     in Commerce funds audited.


                                   Bureau                             Funds

                          EDA                                                     $78,176,365

                          ITA                                                       1,229,915

                          MBDA                                                      1,350,112
                                                                                                a
                          NIST                                                     97,105,576

                          NOAA                                                     78,220,777

                          NTIA                                                      7,809,342

                          Agency not identified                                     6,996,318

                                            Total                                $270,888,405

                      a
                          Includes $57,565,897 in ATP program-specific audits.

                          We identified a total of $2,507,316 in questioned costs. In most
                     reports, the Department’s programs were considered nonmajor, resulting in
                     limited transaction and compliance testing against laws, regulations, and
                     grant terms and conditions. The 17 reports with Commerce findings are
                     listed in Appendix B-1. (Atlanta Regional Office of Audits)




86                    Commerce IG Semiannual Report                                  March 1999
                       Reporting Requirements


                                                       INDEX
           The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
           semiannual reports. The requirements are listed below and indexed to the applicable pages.

       Section                                           Topic                                      Page

 4(a)(2)                    Review of Legislation and Regulations                                          88

 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                               21-86

 5(a)(2)                    Significant Recommendations for Corrective Action                            21-86

 5(a)(3)                    Prior Significant Recommendations Unimplemented                                88

 5(a)(4)                    Matters Referred to Prosecutive Authorities                                  21-86

 5(a)(5) and 6(b)(2)        Information or Assistance Refused                                              89

 5(a)(6)                    Listing of Audit Reports                                                    97-103

 5(a)(7)                    Summary of Significant Reports                                               21-86

 5(a)(8)                    Audit Reports—Questioned Costs                                               93,96

 5(a)(9)                    Audit Reports—Funds to Be Put to Better Use                                  94,95

 5(a)(10)                   Prior Audit Reports Unresolved                                               18,89

 5(a)(11)                   Significant Revised Management Decisions                                     19,89

 5(a)(12)                   Significant Management Decisions with Which the OIG Disagreed                  90

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. This matter
 is discussed on page 74.




March 1999                              Commerce IG Semiannual Report                                        87
Reporting Requirements


                         Section 4(a)(2): Review of Legislation
                         and Regulations
                              This section requires the Inspector General of each agency to review
                         existing and proposed legislation and regulations relating to that agency’s
                         programs and operations, and to make recommendations in the semiannual
                         report concerning the impact of such legislation or regulations on the
                         economy and efficiency in the administration of programs and operations
                         administered or financed by the agency or on the prevention and detection
                         of fraud and abuse in those programs and operations. Recommendations
                         on legislative or regulatory initiatives affecting Commerce programs are
                         discussed in relevant sections of the report.

                         Section 5(a)(3): Prior Significant
                         Recommendations Unimplemented
                             This section requires an identification of each significant
                         recommendation described in previous semiannual reports on which
                         corrective action has not been completed. Section 5(b) requires that the
                         Secretary transmit to the Congress statistical tables for audit reports for
                         which no final action has been taken, plus a statement that includes an
                         explanation of the reasons final action has not been taken on each such
                         audit report, except when the management decision was made within the
                         preceding year.

                              To include a list of all significant unimplemented recommendations in
                         this report would be duplicative, costly, unwieldy, and of limited value to
                         the Congress. Any list would have meaning only if explanations detailed
                         whether adequate progress is being made to implement each agreed-upon
                         corrective action. Also, as this semiannual report is being prepared,
                         management is in the process of updating the Department’s Audit Tracking
                         System as of March 31, 1999, based on semiannual status reports due
                         from the bureaus in mid-April. An accurate database is therefore not
                         available to the OIG for reference here. However, additional information
                         on the status of any audit recommendations may be obtained through the
                         OIG’s Office of Audits.




88                        Commerce IG Semiannual Report                                   March 1999
                                                                              Reporting Requirements


Sections 5(a)(5) and 6(b)(2): Information
or Assistance Refused
    These sections require a summary of each report to the Secretary
when access, information, or assistance has been unreasonably refused or
not provided. There were no such instances during this semiannual period,
and no reports to the Secretary.

Section 5(a)(10): Prior Audit Reports Unresolved
    This section requires a summary of each audit report issued before the
beginning of the reporting period for which no management decision has
been made by the end of the reporting period (including the date and title
of each such report), an explanation of the reasons such management
decision has not been made, and a statement concerning the desired
timetable for achieving a management decision on each such report.

    As of March 31, 1999, two performance audits and two financial
assistance audits were in this category, as discussed below.

Performance Audits

    The two NOAA unresolved reports address the bureau’s light aircraft
operations and NMFS’s laboratory structure. These reports are discussed
on page 60.

Financial Assistance Audits

    The two unresolved audits relate to financial assistance awards made
by NOAA and NTIA. Audit resolution proposals have been submitted;
however, the OIG and the two bureaus were not able to resolve the reports
on a timely basis. Additional details are presented on pages 60 and 63.

Section 5(a)(11): Significant Revised
Management Decisions
    This section requires a description and explanation of the reasons for
any significant revised management decision made during the reporting
period. Department Administrative Order 213-5, Audit Resolution and
Follow-up, provides procedures for revision of a management decision.
For performance audits, the OIG must be consulted and must approve, in
advance, any modification to an audit action plan. For financial assistance
audits, the OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient.

March 1999                               Commerce IG Semiannual Report                            89
Reporting Requirements


                             During the reporting period, three modifications were submitted to the
                         OIG for review. The modifications did not involve issues with current
                         significance, and the OIG concurred with the proposed adjustments.

                             The decisions issued on the three appeals of audit-related debts were
                         finalized with the full participation and concurrence of the OIG.

                         Section 5(a)(12): Significant Management
                         Decisions with Which the OIG Disagreed
                            This section requires information concerning any significant manage-
                         ment decision with which the Inspector General is in disagreement.

                             Department Administrative Order 213-5 provides procedures for the
                         elevation of unresolved audit recommendations to higher levels of
                         Department and OIG management, including an Audit Resolution Council.
                         During this period, no audit issues were referred to the Council.




90                        Commerce IG Semiannual Report                                 March 1999
                             Statistical Highlights

                                                     Audit
                                            Statistical Highlights
             Questioned costs this period ............................................                      $3,759,051

             Value of audit recommendations made
             this period that funds be put to better use ........................                           $6,314,806

             Value of audit recommendations agreed
             to this period by management ..........................................                        $9,077,291



                                                Investigative
                                            Statistical Highlights
             Arrests ................................................................................................ 2
             Indictments and informations .............................................................. 3
             Convictions ......................................................................................... 3
             Personnel actions* .............................................................................. 8
             Administrative actions** ...................................................................... 5
             Fines, restitutions, judgments, and other civil
             and administrative recoveries ..................................................                  $99,020
             Savings and avoidance of unnecessary expenditures .............                                   $28,759
             ** Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
             ** or retirements in lieu of adverse action.
             ** Includes actions to recover funds, new procedures, and policy changes that result from
             ** investigations.




                                         Allegations Processed
                                          by OIG Investigators
                                             Accepted for investigation ..................................... 21
                                             Referred to operating units .................................... 28
                                             Evaluated but not accepted for
                                             investigation or referral .......................................... 57
                                             Total ..................................................................... 106
                                             Numerous other allegations and complaints were forwarded to the
                                             appropriate federal and nonfederal investigative agencies.
                                             In addition
                                                      OIG HOTLINE
                           Telephone:              (202) 482-2495 or (800) 424-5197
                           Internet E-Mail:        oighotline@doc.gov




March 1999                                Commerce IG Semiannual Report                                                        91
                                             Tables and Appendixes


     TABLES                                                                                                          PAGE

     1. Audits with Questioned Costs                                                                                    93

     2. Audits with Recommendations That Funds Be Put to Better Use                                                     94

     3. Preaward Contract Audits with Recommendations That Funds Be Put to Better Use                                   95

     4. Postaward Contract Audits with Questioned Costs                                                                 96


     APPENDIXES
     A. Office of Inspector General Reports                                                                             97

         A-1. Performance Audits                                                                                        97

         A-2. Inspections                                                                                               99

         A-3. Financial Statements Audits                                                                              100

         A-4. Financial Assistance Audits                                                                              101

     B. Processed Reports                                                                                              102

         B-1. Processed Financial-Related Audits                                                                       103


     DEFINITIONS
     The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
     provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
     expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
     or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

     The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
     Questioned costs include unsupported costs.

     The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
     be used more efficiently if Commerce management took action to implement and complete the recommendation,
     including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
     subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
     improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
     preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

     The term management decision refers to management’s evaluation of the findings and recommendations included in
     the audit report and the issuance of a final decision by management concerning its response.




92                                            Commerce IG Semiannual Report                                        March 1999
                                                                                   Tables and Appendixes



  Table 1: Audits with Questioned Costs
                                                                                        Questioned         Unsupported
  Report Category                                                       Number            Costs               Costs
  A. Reports for which no management decision had been
     made by the commencement of the reporting period                       25            $8,426,122            $1,180,456


  B. Reports issued during the reporting period                             24              3,759,051            2,413,548

  C. Total reports (A+B) requiring a management decision
  C. during the reporting period                                            49            12,185,173             3,594,004

  C. Reports for which a management decision was made
  C. during the reporting period                                            28              7,815,608            1,224,292


     ii. Value of disallowed costs                                                          3,455,987            1,216,862


     ii. Value of costs not disallowed                                                      4,601,309                 8,718

  D. Reports for which no management decision had been
  D. made by the end of the reporting period                                21            $4,369,565            $2,369,712

     Notes and Explanations:
     In Category C, line i contains two reports that had disallowed costs identified during the resolution process.
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.
     Three audit reports included in this table are also included in the reports with recommendations that funds be
     put to better use (see Table 2). However, the dollar amounts do not overlap.
     No postaward contract audits are included in this table; instead, any such audits are listed in Table 4.




March 1999                                Commerce IG Semiannual Report                                                    93
Tables and Appendixes



     Table 2: Audits with Recommendations
     Table 2: That Funds Be Put to Better Use

     Report Category                                                                         Number                Value

     A. Reports for which no management decision had been made by the
     A. commencement of the reporting period                                                      7               $21,509,863


     B. Reports issued during the reporting period                                                4                 6,314,806

     C. Total reports (A+B) requiring a management decision during the
     B. reporting period                                                                         11                27,824,669

     C. Reports for which a management decision was made during the
     C. reporting period                                                                          6                 5,793,665


        ii. Value of recommendations agreed to by management                                                        5,340,039


        ii. Value of recommendations not agreed to by management                                                       471,626

     D. Reports for which no management decision had been made by the
     D. end of the reporting period                                                               5               $22,031,004

        Notes and Explanations:
        In Category C, line i contains one report that had funds to be put to better use identified during the resolution
        process.
        In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.
        Three audit reports included in this table are also included in the reports with questioned costs (see Table 1).
        However, the dollar amounts do not overlap.
        No preaward contract audits are included in this table; instead, any such audits are listed in Table 3.




94                                            Commerce IG Semiannual Report                                         March 1999
                                                                                    Tables and Appendixes



  Table 3: Preaward Contract Audits with Recommendations
  Table 3: That Funds Be Put to Better Use

  Report Category                                                                          Number                Value

  A. Reports for which no management decision had been made by the
  A. commencement of the reporting period                                                       2                  $521,265


  B. Reports issued during the reporting period                                                —                           —

  C. Total reports (A+B) requiring a management decision during the
  B. reporting period                                                                           2                   521,265

  C. Reports for which a management decision was made during the
  C. reporting period                                                                           2                   521,265


     ii. Value of recommendations agreed to by management                                                           281,265


     ii. Value of recommendations not agreed to by management                                                       240,000


     iii. Value of reports on proposals that were not awarded contract                                                     —

  D. Reports for which no management decision had been made by the
  D. end of the reporting period                                                               —                           —

     Notes and Explanations:
     Preaward audits of contracts include results of audits performed for the OIG by other agencies.
     When there are multiple proposals for the same contract, we report only the proposal with the lowest dollar value
     for funds to be put to better use; however, in Category C, lines i-ii, we report the value of the awarded contract.
     In Category C, lines i-iii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.




March 1999                                 Commerce IG Semiannual Report                                                   95
Tables and Appendixes



     Table 4: Postaward Contract Audits
     Table 4: with Questioned Costs
                                                                                         Questioned         Unsupported
     Report Category                                                     Number            Costs               Costs
     A. Reports for which no management decision had been
        made by the commencement of the reporting period                     —                        —                      —


     B. Reports issued during the reporting period                           —                        —                      —

     C. Total reports (A+B) requiring a management decision
     C. during the reporting period                                          —                        —                      —

     C. Reports for which a management decision was made
     C. during the reporting period                                          —                        —                      —


        ii. Value of disallowed costs                                                                 —                      —


        ii. Value of costs not disallowed                                                             —                      —

     D. Reports for which no management decision had been
     D. made by the end of the reporting period                              —                        —                      —

        Notes and Explanations:
        As noted in the September 1997 issue (page 58), the OIG transferred certain audit-related activities to the
        Department’s contracting officers, allowing them to request audits directly from the cognizant audit offices. As a
        result, data on contract audit savings is now maintained by the cognizant audit office rather than by the OIG.




96                                           Commerce IG Semiannual Report                                        March 1999
                                                                            Tables and Appendixes



  Appendix A. Office of Inspector General Reports
                                       Type                                             Number    Appendix
  Performance Audits                                                                      22          A-1

  Inspections                                                                             10          A-2

  Financial Statements Audits                                                             16          A-3

  Financial Assistance Audits                                                             14          A-4

  Total                                                                                   62




  Appendix A-1. Performance Audits
                                                                                                   Funds to
                                                                                                  Be Put to
   Agency                            Subject                             Number           Date    Better Use
     EDA        Defense Adjustment Assistance Program Is Well        DEN-9806-9-0001      01/99             —
                Focused

      ESA       Internal Controls Over Denver Bankcard Purchases     DEN-11030-9-0001     02/99             —
                Need Improving

      ITA       US&FCS Belgium Needs to Make Organizational          BTD-10595-9-0001     12/98             —
                Modifications to Maximize Export Promotion Efforts

                US&FCS European Union Mission Should Develop         BTD-10588-9-0001     01/99             —
                a Europe-wide Commercial Strategy

                US&FCS South Korea Needs to Augment Effective        BTD-10221-9-0001     01/99             —
                Program with Stronger Internal Controls

                US&FCS Portugal Is Effectively Providing Services,   BTD-10594-9-0001     03/99             —
                But Should Strengthen Program Management

                The American Institute in Taiwan Commercial          BTD-10220-9-0001     03/99             —
                Section Needs to Place Greater Emphasis on Trade
                Promotion and Improve Internal Controls

                US&FCS American Business Center Program              BTD-10957-9-0001     03/99             —
                Funding Decisions Were Merit Based, CFDA No.
                11.115




March 1999                              Commerce IG Semiannual Report                                        97
Tables and Appendixes



     Appendix A-1. Performance Audits — Continued
                                                                                              Funds to
                                                                                             Be Put to
     Agency                         Subject                           Number         Date    Better Use
      NOAA     NESDIS’s Research in Remote Sensing of the Earth   ATL-10944-9-0001   03/99           —
               and Environment Program Awards Were Not
               Competitively Selected, CFDA No. 11.440

               NMFS’s Cooperative Science and Education           STL-10951-9-0001   03/99           —
               Program Awards Were Not Competitively Selected,
               CFDA No. 11.455

               NMFS’s Habitat Conservation Program Awards         STL-10953-9-0001   03/99           —
               Were Not Competitively Selected, CFDA No. 11.463

               NMFS’s Unallied Management Projects Program        STL-10952-9-0001   03/99           —
               Awards Were Not Competitively Selected, CFDA
               No. 11.454

               NMFS’s Unallied Science Program Awards Were        STL-10947-9-0001   03/99           —
               Not Competitively Selected, CFDA No. 11.472

               NOS’s Ocean Resources Conservation and             ATL-11084-9-0001   03/99           —
               Assessment Program Awards Were Not
               Competitively Selected, CFDA No. 11.426

               NWS’s Hydrologic Research Program Awards Were      ATL-11140-9-0001   03/99           —
               Not Competitively Selected, CFDA No. 11.462

      NTIA     Public Telecommunications Facilities Program       ATL-10945-9-0001   03/99           —
               Award Process Promotes Merit-Based Decisions,
               But Process Needs More Discipline

               Telecommunications and Information Infrastructure  ATL-10946-9-0001   03/99           —
               Assistance Program Award Process Promotes Merit-
               Based Decisions, But Process Needs More Discipline

      PTO      Minor Internal Control Deficiencies Found in       BTD-10901-9-0001   03/99           —
               Bankcard Program

     TA-NIST   NIST Properly Tracked FY 1998 Superfund Charges    BTD-11485-9-0001   01/99           —
               to the Environmental Protection Agency

               Advanced Technology Program Award Process          DEN-10960-9-0001   03/99           —
               Promotes Merit-Based Decisions, CFDA No. 11.612

               Manufacturing Extension Partnership Program        DEN-10959-9-0001   03/99           —
               Award Process Promotes Merit-Based Decisions,
               CFDA No. 11.611

               National Standard Reference Data System Program    DEN-10962-9-0001   03/99           —
               Award Process Promotes Merit-Based Decisions,
               CFDA No. 11.603


98                                      Commerce IG Semiannual Report                          March 1999
                                                                       Tables and Appendixes



  Appendix A-2. Inspections

                                                                                       Funds to
                                                                                      Be Put to
   Agency                         Subject                           Number    Date    Better Use
     ESA     Data Capture System 2000 Requirements and          OSE-10846     01/99           —
             Testing Issues Caused Dress Rehearsal Problems

             Interagency Agreements Require Improvements        IPE-10523     03/99           —

     ITA     Seattle USEAC Is Providing Its Clients Excellent   IPE-11007     11/98           —
             Service, but Some Improvements Are Needed

             Management Improvements Needed to Better           IPE-9904      03/99           —
             Prepare for the Export Challenges of the 21st
             Century

    NOAA     NWS Requires Better Management and Oversight of    IPE-10417     03/99           —
             Interagency and Other Special Agreements

             Proposed NPOESS Preparatory Project Reduces        OSE-11103     03/99           —
             Operational Risk, but Excludes Demonstration of
             Critical Ozone Suite

             Supercomputer Acquisition Had Inadequate           OSE-10969     03/99           —
             Assurance of Funding and Unclear Provisions for
             Advanced Payments

     O/S     Department Is Working to Improve Accuracy of       OSE-10924     03/99           —
             Reporting Y2K Compliance Status

             Office of Security Needs to Improve Planning and   IPE-11331     03/99           —
             Procedures As It Reorganizes

             Vulnerabilities in the Department’s Classified     IPE-11630     03/99           —
             Document Tracking System Need to Be Corrected




March 1999                            Commerce IG Semiannual Report                            99
Tables and Appendixes



  Appendix A-3. Financial Statements Audits
                                                                                               Funds to
                                                                                              Be Put to
      Agency                        Subject                            Number         Date    Better Use
       BXA     Financial Statements for FY 1998                    FSC-10864-9-0001   03/99             —

       EDA     Financial Statements for FY 1998                    FSD-10997-9-0001   03/99             —

       ESA     ESA’s and BEA’s Combined Financial Statements       FSC-10863-9-0001   03/99             —
               for FY 1998

               Census’s Financial Statements for FY 1998           FSC-10865-9-0001   03/99     $3,300,000

       ITA     Financial Statements for FY 1998                    FSC-10866-9-0001   03/99             —

       MBDA    Financial Statements for FY 1998                    FSC-10867-9-0001   03/99             —

       NOAA    Financial Statements for FY 1998                    FSC-10869-9-0001   03/99             —

       NTIA    Financial Statements for FY 1998                    FSC-10870-9-0001   03/99             —

       O/S     General Administration’s Franchise Fund’s FY 1998   FSC-11029-9-0001   03/99             —
               Financial Statements

               General Administration’s WCF and S&E Fund’s         FSC-10873-9-0001   03/99             —
               FY 1998 Financial Statements

               Department of Commerce’s Consolidated Financial     FSD-10899-9-0001   03/99             —
               Statements as of September 30, 1998

       PTO     Financial Statements for FY 1998                    FSD-10898-9-0001   03/99             —

               Revenue Accounting and Management System -          FSD-10898-9-0002   03/99             —
               General Controls Review

        TA     TA’s Financial Statements for FY 1998               FSC-10872-9-0001   03/99             —

               NIST’s Financial Statements for FY 1998             FSC-10868-9-0001   03/99             —

               NTIS’s Financial Statements for FY 1998             FSC-10871-9-0001   03/99             —




100                                    Commerce IG Semiannual Report                            March 1999
                                                                                                           Tables and Appendixes



   Appendix A-4. Financial Assistance Audits
                                                                                                                     Funds to
                                                                                              Questioned Unsupported Be Put to
     Agency                       Auditee                         Number                 Date   Costs       Costs    Better Use
       EDA             Bonneville County                     STL-10482-9-0001            12/98            $15,377              $15,377            $131,985
                       Technology Park, ID

                       City of Kansas City, KS               DEN-9652-9-0001             02/99              32,864                     —                —

                       City of Homestead, FL                 ATL-10730-9-0001            03/99                    —                    —           622,019

                       City of Pittsburg, KS                 DEN-10587-9-0001 03/99                               —                    —                —

                       Texas Engineering                     DEN-10586-9-0001 03/99                       194,129              194,129                  —
                       Extension Service

      NOAA             West Virginia High                    ATL-10634-9-0001            03/99            358,199                      —                —
                       Technology Consortium
                       Foundation

     TA-NIST           Apex Medical, Inc., MA                DEN-10921-9-0001 10/98                          1,347                     —                —

                       Precision Castparts                   DEN-10737-9-0001 10/98                         41,194                     —                —
                       Corporation, OR

                       The East Development                  DEN-11121-9-0001 10/98                             728                    —                —
                       Group, Inc., MA

                       IBIS Associates, Inc., MA             DEN-10909-9-0001 11/98                         42,870               42,870                 —

                       U.S. Surgical Corporation,            DEN-10980-9-0001 12/98                               —                    —                —
                       CT

                       Scientific Measurement                DEN-10763-9-0001 01/99                         15,132                     —         2,260,802
                       Systems, Inc., TX

                       GenPharm International,               DEN-10791-9-0001 03/99                       504,465              307,236                  —
                       Inc., CA

                       MultiCell Associates, Inc.,           DEN-10934-9-0001 03/99                         45,430                 3,212                —
                       RI

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




March 1999                                              Commerce IG Semiannual Report                                                                   101
Tables and Appendixes



         Appendix B. Processed Reports
        The Office of Inspector General reviewed and accepted 288 financial-related audit reports
        prepared by independent public accountants and local, state, and other federal auditors.
        The reports processed with questioned costs, recommendations that funds be put to better
        use, and/or nonfinancial recommendations are listed in Appendix B-1.

                                     Agency                                        Audits

        Economic Development Administration                                           100

        International Trade Administration                                              4

        Minority Business Development Agency                                            4

        National Institute of Standards and Technology                                 51 *

        National Oceanic and Atmospheric Administration                                16

        National Telecommunications and Information Administration                     25

        Multi-Agency                                                                   25

        Agency Not Identified                                                          63

        Total                                                                         288

        * Includes 40 ATP program-specific audits.




102                               Commerce IG Semiannual Report                                     March 1999
                                                                                                           Tables and Appendixes



   Appendix B-1. Processed Financial-Related Audits
                                                                                                                      Funds to
                                                                                               Questioned Unsupported Be Put to
    Agency                          Auditee                           Number              Date   Costs       Costs    Better Use
       EDA             Del Norte Economic                        ATL-9999-9-1009 02/99                  $145,667                       —                —
                       Development Corporation, CA

                       Town of Troy, NC                          ATL-9999-9-1029 02/99                     14,553                      —                —

                       California Association for Local ATL-9999-9-1039 02/99                              12,059                12,059                 —
                       Economic Development

                       City of Chula Vista, CA                   ATL-9999-9-1040 02/99                     11,727                      —                —

                       City of Waterville, ME                    ATL-9999-9-1070 02/99                            —                    —                —

                       Kittitas-Yakima Economic       ATL-9999-9-1107 02/99                               407,800               407,800                 —
                       Resource Development District,
                       WA

                       City of Savannah, GA                      ATL-9999-9-1137 02/99                            —                    —                —

                       Gadsden County Board of                   ATL-9999-9-1196 02/99                            —                    —                —
                       Commissioners, FL

                       Virginia Biotechnology                    ATL-9999-9-1237 03/99                    891,350               891,350                 —
                       Research Park Authority

        ITA            Environmental Export Council,             ATL-9999-9-1045 03/99                       2,439                 2,439                —
                       DC

      NOAA             Massachusetts Biotechnology               ATL-9999-9-1001 02/99                       3,312                     —                —
                       Research Institute, Inc.

                       University of Southern                    ATL-9999-9-1161 03/99                     12,275                12,275                 —
                       Mississippi

                       State of Wisconsin                        ATL-9999-9-1188 03/99                     14,056                      —                —

                       State of Connecticut                      ATL-9999-9-1191 02/99                            —                    —                —

     TA-NIST           Kent Seafarms Corporation                 ATL-9999-9-0001 10/98                    377,585               377,585                 —
                       (dba Aquatic Systems), CA

                       InStream Corporation, MA                  ATL-9999-9-0004 10/98                    467,277                      —                —

                       Tropel Corporation, NY                    ATL-9999-9-0008 10/98                    147,216               147,216                 —

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




March 1999                                              Commerce IG Semiannual Report                                                                   103
                                  Definitions of Types of OIG Reviews
                                  and Financial Statements Audit Terms


                                               OIG Reviews
  Audits                                                    Inspections
  Performance Audits — These audits look at the             Operational Inspections — These are reviews of
  efficiency, effectiveness, and economy of the             an activity, unit, or office, or a contractor or organi-
  Department’s programs, activities, and information        zation that receives funds from the Department.
  technology systems. They may check a unit’s               They focus on an organization, not a whole pro-
  compliance with laws and regulations, and evaluate        gram, and are designed to give agency managers
  its success in achieving program objectives.              timely information about operations, including
                                                            current and foreseeable problems.
  Financial-Related Audits — These audits review
  the Department’s contracts, grants, cooperative           Program Evaluations — These are in-depth
  agreements, loans, and loan guaranties. They assess       reviews of specific management issues, policies, or
  compliance with laws, regulations, and award terms;       programs.
  adequacy of accounting systems and internal con-
                                                            Systems Evaluations — These are reviews of sys-
  trols; allowance of costs; and the degree to which a
                                                            tem development, acquisitions, operations, and
  project achieved the intended results.
                                                            policy in order to improve efficiency and effective-
  Financial Statements Audits — The CFO Act, as             ness. They focus on Department-wide computer
  amended by Government Management Reform Act,              systems and other technologies and address all
  requires federal agencies to prepare annual financial     project phases, including business process
  statements and to subject them to audit. The OIG is       reengineering, system definition, system develop-
  responsible for conducting these audits and reporting     ment, deployment, operations, and maintenance.
  the results to the Secretary.


                         Financial Statements Audit Terms
  Overview — This required component of financial           Unqualified Opinion — The financial statements
  statements is to provide a clear, concise description     present fairly, in all material aspects, the entity’s
  of the entity’s programs, activities, and results. It     financial position and results of operations.
  contains the entity’s performance measures and
                                                            Qualified Opinion — Except for the effects of the
  serves as a link between the statements and the
                                                            matter(s) to which the qualification relates, the
  requirements of GPRA.
                                                            financial statements present fairly, in all material
  Trend Analysis — This analysis of performance             respects, the entity’s financial position and results of
  data from multiple years allows conclusions to be         operations.
  drawn about an entity’s progress over time in
                                                            Adverse Opinion — The financial statements do
  improving its results. To facilitate this analysis, the
                                                            not present fairly the entity’s financial position or
  entity should present data from several prior years,
                                                            results of operations.
  projected data for the following year, and a
  comparison of actual versus targeted performance.         Disclaimer of Opinion — The auditor does not
                                                            express an opinion on the financial statements.


104                                         Commerce IG Semiannual Report                                  March 1999
                              Glossary of Abbreviations

ABC .................................................................................................................................... American Business Center
AFOS ..................................................................................................... Automation of Field Operations and Services
AIT .................................................................................................................................. American Institute in Taiwan
ATP ............................................................................................................................. Advanced Technology Program
AWIPS ........................................................................................... Advanced Weather Interactive Processing System
BEA ............................................................................................................................... Bureau of Economic Analysis
BXA .......................................................................................................................... Bureau of Export Administration
CAMS ............................................................................................... Commerce Administrative Management System
CFO .......................................................................................................................................... Chief Financial Officer
DCS 2000 ........................................................................................................................... Data Capture System 2000
EDA ................................................................................................................ Economic Development Administration
EPA ......................................................................................................................... Environmental Protection Agency
ESA ................................................................................................................ Economics and Statistics Administration
EU ....................................................................................................................................................... European Union
FARS ........................................................................................................ Financial Accounting and Reporting System
FEMA .......................................................................................................... Federal Emergency Management Agency
FFMIA ............................................................................................. Federal Financial Management Improvement Act
GAO ....................................................................................................................................General Accounting Office
GPRA ......................................................................................................... Government Performance and Results Act
GSA ........................................................................................................................... General Services Administration
IPA ................................................................................................................................ independent public accountant
ITA ..........................................................................................................................International Trade Administration
MBDA ........................................................................................................... Minority Business Development Agency
MEP ................................................................................................................... Manufacturing Extension Partnership
NASA ................................................................................................. National Aeronautics and Space Administration
NIST .................................................................................................. National Institute of Standards and Technology
NMFS ...................................................................................................................... National Marine Fisheries Service
NOAA ............................................................................................ National Oceanic and Atmospheric Administration
NPOESS .............................................................. National Polar-orbiting Operational Environmental Satellite System
NSRDS ...................................................................................................... National Standard Reference Data System
NTIA ............................................................................ National Telecommunications and Information Administration
NTIS ............................................................................................................... National Technical Information Service
NWS .................................................................................................................................... National Weather Service
OIG ................................................................................................................................... Office of Inspector General
OMB ...................................................................................................................... Office of Management and Budget
PTFP.................................................................................................... Public Telecommunications Facilities Program
PTO ............................................................................................................................... Patent and Trademark Office
RLF ................................................................................................................................................ revolving loan fund
S&E ........................................................................................................................................... Salaries and Expenses
TA ...................................................................................................................................... Technology Administration
TIIAP .......................................................... Telecommunications and Information Infrastructure Assistance Program
TPCC ......................................................................................................... Trade Promotion Coordinating Committee
US&FCS ........................................................................................................... U.S. and Foreign Commercial Service
USEAC ......................................................................................................................... U.S. Export Assistance Center
WCF ........................................................................................................................................... Working Capital Fund
Y2K .............................................................................................................................................................. year 2000
March 1999                                                  Commerce IG Semiannual Report                                                                             105
                                       Office of Inspector General
                                           Organization Chart

                                                                      Inspector
                Office of                                              General                                                Office of
             Compliance and
                                                                      Deputy                                                  Counsel
             Administration
                                                                 Inspector General

               Office of
                                                                                                                           Office of
           Inspections and
                                                                                                                      Systems Evaluation
         Program Evaluations



                              Office of                                                                          Office of
                               Audits                                                                         Investigations



Headquarters           Financial Statements               Regional                   Financial Fraud               Investigative        Special Activities
   Audits                     Audits                       Audits                         Unit                      Operations              Section

   Business                    Financial                   Atlanta                                                 Washington
   and Trade              Statements Audits                Regional                                                  Field
    Audits                   Preparation                    Office                                                 Operations
  Economics                    Financial                    Denver                                                 Silver Spring
 and Statistics            and Performance                 Regional                                                    Field
    Audits                     Analysis                     Office                                                  Operations
   Science                                                 Seattle                                                   Denver
                                 EDP
and Technology                                             Regional                                                   Field
                                Audits
    Audits                                                  Office                                                  Operations




                                                  OIG Points of Contact
Inspector General ................................... (202) 482-4661          Office of Counsel .................................... (202) 482-5992
Congressional Liaison ............................. (202) 482-3052            Office of Inspections and Program Eval. . (202) 482-2754
Office of Audits ....................................... (202) 482-1934       Office of Investigations ............................ (202) 482-0934
Office of Compliance and Admin. ............ (202) 482-0231                   Office of Systems Evaluation .................. (202) 482-6186
                                           TDD Number ................................... (202) 482-4948
                                           Media Inquiries ................................. (202) 482-5992
                                           REQUESTS FOR REPORTS:
                                           Telephone ........................................ (202) 482-0231
                                           Internet E-Mail .................................. oigreports@doc.gov
                                           OIG HOTLINE:
                                           Telephone ........................................ (202) 482-2495 or (800) 424-5197
                                           Internet E-Mail .................................. oighotline@doc.gov

                                                         OIG Internet Home Page
                                               http://www.oig.doc.gov
